<html>
<title> - ESTUARY RESTORATION AND COASTAL WATER CONSERVATION LEGISLATION</title>
<body><pre>[Senate Hearing 105-819]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-819

 
     ESTUARY RESTORATION AND COASTAL WATER CONSERVATION LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 1998

                               __________

                                   ON

                                S. 1222

    A BILL TO CATALYZE RESTORATION OF ESTUARY HABITAT THROUGH MORE 
 EFFICIENT FINANCING OF PROJECTS AND ENHANCED COORDINATION OF FEDERAL 
      AND NON-FEDERAL RESTORATION PROGRAMS, AND FOR OTHER PURPOSES

                                S. 1321

   A BILL TO AMEND THE FEDERAL WATER POLLUTION CONTROL ACT TO PERMIT 
GRANTS FOR THE NATIONAL ESTUARY PROGRAM TO BE USED FOR THE DEVELOPMENT 
AND IMPLEMENTATION OF A COMPREHENSIVE CONSERVATION AND MANAGEMENT PLAN, 
  TO REAUTHORIZE APPROPROPRIATIONS TO CARRY OUT THE PROGRAM, AND FOR 
                             OTHER PURPOSES

                               H.R. 2207

 AN ACT TO AMEND THE FEDERAL WATER POLLUTION CONTROL ACT CONCERNING A 
 PROPOSAL TO CONSTRUCT A DEEP OCEAN OUTFALL OFF THE COAST OF MAYAGUEZ, 
                              PUERTO RICO

                        ------------------------

                     U.S. GOVERNMENT PRINTING OFFICE
52-625 cc                    WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JULY 9, 1998
                           OPENING STATEMENTS

Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................     2
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     5
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     4

                               WITNESSES

Breaux, Hon. John, U.S. Senator from the State of Louisiana......    23
    Prepared statement...........................................    77
Burkholder, Joann R., Research Coordinator, Botany Department, 
  North Carolina State University, Raleigh, NC...................22, 24
    Prepared statement...........................................    98
Davis, Hon. Michael L., Deputy Assistant Secretary for Civil 
  Works, Department of the Army..................................    11
    Prepared statement...........................................    86
    Reponse to additional question from Senator Chafee...........    88
Faircloth, Hon. Lauch, U.S. Senator from the State of North 
  Carolina.......................................................     5
    Prepared statement...........................................    77
Martinez-Cruzado, Juan C., Past President, Mayaguezanos for 
  Health and Environment, Inc....................................    34
    Letter, followup to testimony................................   123
    Prepared statement...........................................   138
Milon, J. Walter, Professor, Food and Resource Economics 
  Department, University of Florida, Gainesville, FL.............    26
    Appendices: Estimated value of the Indian River Lagoo 104, 113, 121
    Prepared statement...........................................   103
    Response to additional questions from Senator Chafee.........   123
Morton, Ted, Counsel, Coastal Protection Program, American Oceans 
  Campaign.......................................................    28
    Prepared statement...........................................   123
Rodriquez, Hon. Charles A., President, Senate of Puerto Rico.....    38
Romeu, Xavier, Executive Director, Puerto Rico Federal Affairs 
  Administration.................................................    32
    Prepared statement of Perfecto Ocasio, Puerto Rico Aqueduct 
      and Sewer Authority........................................   117
Spalding, H. Curtis, Executive Director, Save the Bay, 
  Providence, RI.................................................    19
    Prepared statement...........................................    89
    Responses to additional questions from Senator Chafee........    97
Torricelli, Hon. Robert, U.S. Senator from the State of New 
  Jersey.........................................................    14
    Prepared statement...........................................    78
Wayland, Robert H., III, Director, Office of Wetlands, Oceans and 
  Watersheds, Environmental Protection Agency....................     7
    Prepared statement...........................................    80
    Responses to additional questions from Senator Chafee........    84

                          ADDITIONAL MATERIAL

Bills:
    S. 1222, A bill to catalyze restoration of estuary habitat 
      through more efficient financing of projects and enhanced 
      coordination of Federal and non-Federal restoration 
      programs, and for other purposes...........................    40
    S. 1321, A bill to amend the Federal Water Pollution Control 
      act to permit grants for the national estuary program to be 
      used for the development and implementation of a 
      comprehensive conservation and management plan, to 
      reauthorize appropropriations to carry out the program, and 
      for other purposes.........................................    66
    H.R. 2207, An Act to amend the Federal Water Pollution 
      Control Act concerning a proposal to construct a deep ocean 
      outfall off the coast of Mayaguez, Puerto Rico.............    70
Letters:
    Romero-Barcelo, Hon. Carlos A., Resident Commissioner, Puerto 
      Rico.......................................................   133
    Mayaguezanos por la Salud y el Ambiente, Inc.................   140
    Rosello, Pedro, Governor of Puerto Rico......................   140
Statements:
    Association of National Estuary Programs.....................   141
    Landrieu, Hon. Mary, U.S. Senator from the State of Louisiana    78
    Mills, David R., Sarasota, Florida...........................   144
    Ocasio, Perfecto, Puerto Rico Aqueduct and Sewer Authority...   134
    Restore America's Estuaries..................................   142


     ESTUARY RESTORATION AND COASTAL WATER CONSERVATION LEGISLATION

                              ----------                              


                         THURSDAY, JULY 9, 1998

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:03 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Allard, Sessions, Lautenberg, and 
Lieberman.

OPENING STATEMENT OF HON. JOHN H. CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. The committee will come to order.
    I would like to welcome everyone and thank all the 
witnesses for appearing here this morning.
    The purpose of this hearing is to learn more about three 
bills pending before the committee that pertain to the quality 
of the Nation's estuaries and other coastal waters.
    Since the enactment of the Clean Water Act in 1972, we've 
made great progress in cleaning up the waters in our lakes and 
rivers and streams and the coastal waters of the U.S. It's 
really been remarkable. It hasn't just been the Federal 
Government, it's been the wonderful cooperation of industry 
and, obviously, the municipalities have been deeply involved 
with it likewise.
    Despite the marked success of the last 25 years, we still 
face many challenges. Two of the bills before us today, S. 
1222, the Estuary Habitat Restoration Partnership Act, and S. 
1321, the National Estuary Conservation Act, are dedicated to 
protecting and restoring estuaries in our coastal communities.
    Now, what are estuaries? Estuaries are bays and gulfs and 
inlets and sounds where fresh water meets and mixes with salt 
water from the ocean. They are some of our most valuable 
natural resources. Regrettably, in recent years millions of 
acres of estuarine habitat have been destroyed and degraded by 
pollution, development, or overuse.
    The good news is that estuaries can be brought back to 
life. I had the opportunity to visit an effort in connection 
with that in Narragansett Bay in Rhode Island last Monday, 
where I saw the planting of eel grass that is taking place 
there. It's a small start, but it's a start.
    S. 1222, which I introduced in September of last year, will 
help rebuild degraded estuarine habitat by providing real 
incentives for communities to carry out estuarine restoration 
projects. That bill creates strong and lasting partnerships 
between public and private sectors and among all levels of 
Government to restore, hopefully, a million acres of estuarine 
habitat by the year 2010, which isn't so far away, that's only 
12 years from now. To ensure that restoration efforts buildupon 
past successes, S. 1222 brings together the existing Federal, 
State, and local restoration plans, programs, and studies.
    S. 1321, which was introduced by Senator Torricelli last 
year, would reauthorize the National Estuary Program under 
Section 320 of the Clean Water Act. Since the establishment of 
the National Estuary Program, which is part of the Clean Water 
Act, in 1987, 28 estuaries of national significance have been 
designated to receive funds for the development of conservation 
and management plans. Senator Torricelli's bill would allow 
these plans to be set in motion.
    In addition to the two estuary bills, the committee will 
receive testimony on H.R. 2207, the Coastal Pollution Reduction 
Act, which the House passed last year. H.R. 2207 would allow 
the Puerto Rico Aqueduct and Sewer Authority, better known as 
PRASA, to apply to the EPA under Section 301(h) of the Clean 
Water Act for a waiver of its secondary treatment requirements 
for waste water. The Commonwealth of Puerto Rico has been 
involved in a 15 year dispute with EPA over its failure to meet 
secondary treatment requirements under the Clean Water Act.
    The condition of estuaries and other coastal waters is an 
important national priority. I look forward to hearing our 
witnesses' views on the bills before us and their suggestions 
for what we can do to improve the quality of the Nation's 
estuaries and other coastal waters.
    Senator Chafee. I see our esteemed colleague is here. 
Senator Lieberman, if you have some comments, this would be a 
good chance.

  OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, U.S. SENATOR 
                 FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thank you, Mr. Chairman. Thanks for 
holding this hearing. I would like to speak about two of the 
bills that we're considering this morning, S. 1222, of which 
you were the principal sponsor of, the Estuary Habitat 
Restoration Partnership Act, and S. 1321, the National Estuary 
Conservation Act.
    These are especially important to the State of Connecticut 
and to our region. I'm very pleased to be a cosponsor of both 
of the bills. I particularly thank you for your leadership on 
them.
    I know, Mr. Chairman, that we share the view that our 
estuaries are national treasures which are often not adequately 
appreciated. Without a healthy and productive Long Island 
Sound, and might I add as well Narragansett Bay, the quality of 
life in our States would be greatly diminished.
    As John Atkin, the executive director of our Save the 
Sound, has said, ``Not only is Long Island Sound an invaluable 
economic and recreational resource, it is also a provider of 
immeasurable pleasure and happiness for tens of thousands of 
residents and visitors alike.'' I'm pleased to note that John 
is with us today. He came down to show his strong support for 
this legislation, and I thank him for the work that he has 
done.
    The water surface of Long Island Sound is an example. It 
measures 1,320 square miles. It is located in one of the most 
densely populated and developed areas of our country; 15 
million people live within 50 miles of its shores. Despite 
years of heavy industrial use, Long Island Sound is still known 
for its distinctive habitat types, including tidal wetlands, 
tidal flats, beaches, dunes, bluffs, rocky tidal areas, eel 
grass, kelp beds, and natural and artificial reefs, and its 
shellfish and finfish production is extraordinary. The 
shellfish industry alone is a $70 million industry annually. 
And the Sound is actually the leading producer of oysters along 
the entire East Coast.
    The Sound supports more than $5 billion a year in water 
quality-dependent uses----a remarkable number----which includes 
beaches, swimming, and boating, but does not include the more 
difficult to quantify assessments of the importance of good 
water quality, the nature habitats, and near shore residential 
property values. Unfortunately, pollution has had an immediate 
impact on the quality of life and the economic benefits from 
Long Island Sound, which was described by one observer as an 
``urban sea under siege.'' It is to turn back this siege and 
defeat it that I think these two pieces of legislation before 
us are devoted.
    The State of Connecticut itself has had an aggressive 
effort to restore the Sound which has certainly helped the Long 
Island Sound program, one of the most successful efforts under 
the National Estuary Program. After years of study and public 
participation, which has mirrored the public interest in the 
Sound, it has produced a comprehensive plan for action and, in 
fact, implementation is underway.
    Real progress is being made. In 1997, water quality 
monitoring results were among the best conditions ever 
observed. Of course, this is only a start. There is a lot more 
to be done. In February, the program adopted two critical 
elements of the clean up and restoration phase; a Phase III 
nitrogen reduction plan which calls for a 60 percent cut in 
nitrogen loadings over the next 15 years, and a habitat 
restoration plan. The effort is expected to cost New York and 
Connecticut $650 million, of which Connecticut has already 
pledged $100 million of its Clean Water State funds to 
implement the Phase III program.
    This is where I come to your bill, Mr. Chairman, because it 
will go a long way toward helping Connecticut meet the second 
goal of its Phase III program for Long Island Sound, which is 
habitat restoration. By making Federal funding available in 
partnership with local Government and private sector 
contributions, this bill can help meet the Long Island Sound 
Study Committee's goal of restoring more than 2,000 acres of 
critically important tidal wetlands and 100 miles of streams in 
Connecticut and New York.
    The fact is that Long Island Sound has already lost almost 
70 percent of its original wetlands, with far reaching impacts 
on the biological diversity of not just the Sound, but the 
region and, certainly, the water quality of the estuary. I'm 
very pleased that a major habitat restoration project is 
already underway in the Sound with grant money from the Long 
Island Sound program office which this committee, in its 
wisdom, established in 1990. Funding from your bill would 
greatly enhance those efforts.
    S. 1222 is based on I think a very sensible concept of 
community-based restoration efforts. It would leverage up to 
$10 of on-the-ground restoration work for every $1 in Federal 
funding, and would create market-based incentives for the 
private sector to work with community-based organizations and 
local Governments on restoration efforts.
    Mr. Chairman, the second bill, very briefly, we're 
considering today, the National Estuary Conservation Act, is 
also critical to our efforts to clean up Long Island Sound 
because the cost of implementing the Sound's comprehensive 
management plan is high; it cannot be met without Federal 
grants for implementation. S. 1321 would, to make a long story 
short, ensure that the funding is available.
    So these are two very important bills for the Sound, for 
the region, and I think ultimately for the country. I thank you 
for your leadership on them, and I hope we can move forward 
with them in this Congress. Thank you.
    Senator Chafee. Thank you very much, Senator.
    Senator Sessions, we're delighted you are here. If you've 
got some comments, this would be a good chance.

OPENING STATEMENT OF HON. JEFF SESSIONS, U.S. SENATOR FROM THE 
                        STATE OF ALABAMA

    Senator Sessions. Briefly, Mr. Chairman, thank you for your 
leadership on this issue. I had the opportunity earlier this 
spring to tour the Mobile Bay Estuary program. We travelled in 
boats through the delta and observed what was going on there. I 
met the people who had been working on it.
    I am very favorably impressed with this concept of how to 
deal with environmental problems on an area like an estuary. 
What I have observed over the years is that the problem is 
complicated by so many different governmental agencies and 
private institutions that are involved. You may have two or 
three counties, several cities, regional boards and planning 
agencies, as well as Federal, State agencies involved.
    This estuarine program provides a way to have an inventory 
and an analysis and evaluation of the problems, what is causing 
them, and how to go about fixing them. I think it is a real 
good concept. I would like to see it continue, and I appreciate 
your leadership in this regard. It's a volunteer program. The 
only thing I think that would threaten it would be that if our 
program becomes some sort of management or directing agency 
rather than a community coordinating effort, because these are 
non-elected people, in effect, unaccountable to the public.
    So if we can create a way in which all the leadership in 
the whole estuary area can come together to identify the 
problems that are the primary threats to the estuary and 
develop a voluntary plan with some support from the Federal 
Government to help fix it, I think we can achieve great results 
and maintain harmony and maintain the voluntary support of the 
local governments and private industries. I think it is a very 
attractive program, and I appreciate your leadership.
    Senator Chafee. Thank you very much, Senator.
    Senator Lautenberg, we're just about to start. Do you have 
a comment that you want to make at this time?

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. I'm pleased to have a chance to 
participate in today's hearing on two important bills before 
the committee, both of which I'm happy to cosponsor, one 
drafted by the chairman, Senator Chafee, and the other by my 
New Jersey colleague, Senator Torricelli. They both address the 
vital need to protect and restore America's estuaries. They 
recognize that the problem is a national one, not just State or 
local concerns.
    The health of our estuaries is threatened from a variety of 
sources. In my own State of New Jersey, for instances, the most 
densely populated State in the Union, estuaries are coming 
under increasing pressure from exploding population growth. The 
673 coastal counties in the United States contain 53 percent of 
our population. More people want to live in coastal States. 
Especially as the baby-boomers begin retirement, we've got to 
focus more than ever on the protection of these estuaries.
    The Barnegat Bay Estuary, located off New Jersey's Ocean 
County toward the southern coast of our State, is an extremely 
delicate ecosystem that deserves increased protection. Despite 
tremendous population growth, the Bay continues to host a 
variety of life----plants, crabs, shrimp, minnows, wheatfish, 
bluefish, also some interesting bird life from herons to 
egrets. Yet, agricultural runoff, increased recreational 
activities, and a booming homebuilding industry continue to 
threaten the Bay.
    New York and New Jersey Harbor Estuary, a major shipping 
channel, which is also home, despite the competition from 
industry, to a great array of wildlife, faces a problem of 
contaminated sediments. This important watershed was recently 
identified by EPA as an area of probable concern due to the 
abundance of toxins such as PCBs, mercury, and dioxin.
    Both pieces of legislation before us recognize that the 
Federal Government cannot protect and restore estuaries all by 
itself. We've got to work in partnership with States, 
localities, regional authorities, and dedicated citizens to 
restore these invaluable ecosystems. I look forward to hearing 
from the witnesses before us on how we can best maximize the 
resource of all these partners.
    I thank you, Mr. Chairman, and fellow committee members, 
for your indulgence.
    Senator Chafee. Thank you, Senator.
    Now, we have a distinguished colleague from North Carolina, 
Senator Faircloth. Senator Faircloth, why don't you just sit 
right here at the table. We're going to get right to you. We 
welcome you here.

STATEMENT OF HON. LAUCH FAIRCLOTH, A UNITED STATES SENATOR FROM 
                  THE STATE OF NORTH CAROLINA

    Senator Faircloth. Thank you, Mr. Chairman, and Senator 
Sessions, Senator Lautenberg, Senator Lieberman. I thank you 
for giving me the chance to be here.
    Two years ago, the North Carolina Coastal Federation asked 
me to support what is now Senate Bill 1222, the Estuary Habitat 
Restoration Act. I understand that Melvin Shepard, the 
president of the Coastal Federation is here today, and I hope 
he is.
    Although I have spent a good part of my life in and around 
the coastal sounds and rivers of Eastern North Carolina where I 
was reared, until I started looking at this bill and what it 
could do, I really had never realized the full importance of 
these waters to the State and to the Nation. We have over 2.2 
million acres of estuary in North Carolina. The commercial and 
recreational fishing industry is dependent upon these waters, 
and that is big industry at home. More than 90 percent of North 
Carolina's commercially important species of fish and shellfish 
spend part of their lives in North Carolina estuaries.
    Now, Senator Chafee and Senator Lautenberg and Senator 
Lieberman, 50 percent of the fish that you catch off the coast 
of Rhode Island, New Jersey, or Connecticut were spawned in 
North Carolina waters.
    Senator Lautenberg. Thank you.
    [Laughter.]
    Senator Faircloth. We send them to you.
    Senator Lieberman. Could you add a little salt.
    [Laughter.]
    Senator Faircloth. We were thinking about putting a fee on 
it, but we haven't gotten around to it yet.
    [Laughter.]
    Senator Faircloth. But, in short, our ability to have 
seafood in this Nation depends upon maintaining healthy and 
productive coastal waters. This bill will enable communities to 
work restoring degraded estuaries across the country. And as 
Senator Sessions says, it is going to do it in a very 
productive and forthright manner.
    It is vital that we target needed resources to restore and 
preserve our Nation's estuaries. The goal of the bill is 
ambitious; a million acres to be restored by the year 2010, and 
North Carolina is figuring on restoring 100,000 acres alone. So 
a tenth of the goal would be in North Carolina alone for the 
next several years. S. 1222 sets a new and innovative way of 
making this happen. It will help the communities to restore 
habitat critical to preserving the Nation's estuaries.
    The bill is also important because it sets out a new way of 
building a genuine partnership between our communities and the 
States and the Federal Government. This is maybe the most 
important part of it. It makes sure that we listen to the 
citizens, build from what we know, and coordinate and 
streamline the programs that are already there.
    The level of support the bill has received speaks well of 
the potential value of the legislation to so many American 
coastal communities and says a great deal about the stature of 
Senator Chafee, as chairman of the Senate Environment and 
Public Works Committee, and his work on behalf of the 
committee. I am committed to working with you, Mr. Chairman, to 
move the bill this year.
    Mr. Chairman, I would like to suggest that we move the 
estuary bill as part of the Water Resources Development Act 
Reauthorization to ensure that it gets done this year. I 
believe this would make good sense since the estuary bill makes 
the Army Corps of Engineers the lead agency in the restoration 
of the estuaries. We need to make sure that S. 1222 is a part 
of reauthorization. If we don't, a good bill, and one that 
builds bipartisan bridges as it restores the estuaries, could 
get devoured and bogged down in the much larger and more 
charged debate that we're going to have on the Clean Water Act 
next year.
    Last, I want to welcome a distinguished North Carolinian 
who will be testifying later today, Dr. Joann Burkholder. Dr. 
Burkholder is well-known as one of the Nation's leading 
research scientists and one of the discoverers of Pfiesteria, 
the microbe that has raised so much havoc among all costal 
waters, and Maryland and North Carolina have particularly been 
hit hard with it. She will be testifying to the serious 
consequences which can come from degraded estuaries.
    Dr. Burkholder, it's nice to have you with us today.
    I thank you, Mr. Chairman.
    Senator Chafee. Thank you very much, Senator. I think there 
are several good points you made there in your testimony. I 
think it is important for us to realize that, as you said, 90 
percent of the commercial fish caught by North Carolina 
fishermen had spent a portion of their lives in the estuaries. 
That's true in the Gulf, for example, likewise. So, these 
estuaries are of extraordinary importance.
    Second, your suggestion about combining the bill with the 
other legislation that we will be considering later on is a 
thoughtful one. Let me think about that because the other 
legislation, the Water Resources Development Reauthorization, 
does look as though that's going to go somewhere, and I think 
your point is a good one. Let's think about that.
    And third, I would note that we have 26 cosponsors of this 
legislation, not only each of the Senators who are here today, 
but others likewise. So we're very optimistic on this 
legislation.
    Thank you for your help, Senator Faircloth.
    Senator Faircloth. Thank you, Mr. Chairman.
    Senator Chafee. It's my understanding that Senator 
Torricelli is going to drop by at some point, and we will take 
him when he comes by.
    But meanwhile, why don't we have Mr. Wayland, Director of 
the Office of Wetlands, Oceans and Watersheds, U.S. EPA, and 
Mr. Michael Davis, Deputy Assistant Secretary for Civil Works, 
U.S. Department of Army, come up.
    We will start with Mr. Wayland. Why don't you proceed.

    STATEMENT OF ROBERT H. WAYLAND III, DIRECTOR, OFFICE OF 
   WETLANDS, OCEANS AND WATERSHEDS, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Wayland. Thank you very much, Mr. Chairman. Good 
morning, members of the committee. You have a great sense of 
timing. This hearing occurs during the International Year of 
the Ocean and the Nation is examining its stewardship 
responsibilities toward our coastal waters. Very recently at 
the National Oceans Conference in Monterey, the President 
committed to a series of actions in recognition of those 
responsibilities and again pledged the Administration to 
implement, with assistance from Congress, a Clean Water Action 
Plan. That plan, undertaken in recognition of the progress made 
and challenges remaining after a quarter of a century----
    Senator Chafee. I wonder if you could hold 1 minute. I 
didn't see Senator Allard come in. I'm sorry. Did you have any 
comment to make?
    Senator Allard. Mr. Chairman, I don't have any comments. I 
appreciate the chair recognizing me. Thank you.
    Senator Chafee. I apologize for not catching you.
    All right, Mr. Wayland, why don't you proceed.
    Mr. Wayland. As I was saying, the Clean Water Action Plan, 
which the Administration has developed, recognizes the many 
challenges and the significant progress made since the Clean 
Water Act was first authorized a quarter of a century ago. It 
contains numerous actions directed to marine and estuarine 
protection and restoration. Those actions have been 
significantly influenced by our experience over the last decade 
in implementing the National Estuary Program.
    That program was established by Congress in 1987 to 
demonstrate a new framework to address serious environmental 
problems faced by these valuable ecosystems. Estuaries are 
particularly vulnerable because they often serve as sinks for 
pollutants originating upstream within the watersheds and the 
airsheds overlying them. In addition, estuaries are directly 
impacted by human activity. Well over half the people in this 
country live, work, or play near the coast. The NEP seeks to 
protect and restore the health of estuaries and their living 
resources, and in so doing, the recreation, fishing, and other 
economic activities that take place in or depend on healthy 
estuaries.
    Just a few indications of how valuable these resources are: 
Coastal waters support 28.3 million jobs and generate $54 
billion in goods and services every year. The coastal 
recreation and tourism industry is the second largest employer 
in the Nation, serving 180 million Americans visiting the coast 
each year. And the commercial fish and shellfish industry 
contributes $45 billion to the economy every year, while 
recreational fishing contributes $30 billion to the U.S. 
economy annally.
    A recent national assessment concluded that the most common 
problems NEPs are dealing with are nutrient over- enrichment, 
pathogen contamination, toxic chemicals, alteration of 
freshwater flows, the loss of habitat, and declines in fish and 
wildlife as well as the introduction of invasive species. We 
have every reason to believe that these problems are common to 
most coastal watersheds throughout the United States. And the 
impacts are serious. Pathogens cause shellfish bed closures, 
nutrient over-enrichment contributes to----
    Senator Chafee. What is a pathogen?
    Mr. Wayland. Pathogens are microscopic organisms that are 
destructive to other living organisms; it may be fish, it may 
be human beings.
    Introduction of invasive species adversely affects native 
species. Many of you are familiar, of course, with the zebra 
mussel which is a freshwater invasive species. Our coasts are 
afflicted with invasive species transported in ballast water.
    Changes in land use and the introduction of pollutants and 
toxic chemicals results in habitat loss and declines in water 
quality and ecosystem health overall. And we're all familiar 
with the impacts of harmful algae blooms. Pfiesteria outbreaks 
have occurred in several tributaries to the Chesapeake Bay and 
North Carolina rivers in recent years resulting in fish kills, 
fish lesions, and suspected human impacts. The death and decay 
of algae blooms can lead to partial oxygen depletion, known as 
hypoxia, or total oxygen depletion, known as anoxia, in the 
water, resulting in widespread mortality of fish, shellfish, 
and invertebrates.
    There's evidence that associates these algae blooms with 
nutrient pollution, excess nitrogen and phosphorous in the 
water. The source of these pollutants varies widely from one 
location to another. However, in general, we see three 
significant sources: human waste from septic systems and sewage 
treatment plants; agricultural runoff, including fertilizer and 
manure from agricultural operations; and air deposition of 
nitrogen and toxic pollutants from motor vehicles and electric 
utilities.
    Unlike early approaches to environmental protection that 
targeted specific pollutants or categories of discharges, the 
NEP acknowledges that the problems affecting our estuaries are 
exacerbated by combined and cumulative impacts of many 
individual activities and that the significance of these 
activities varies greatly from watershed to watershed. The 
principal cause of nutrient over-enrichment in Albemarle- 
Pamlico NEP, for example, is agricultural, while in Long Island 
Sound nutrient loadings come principally from domestic 
wastewater.
    In order to address watershed wide concerns, the NEP 
encourages the use of a combination of traditional and non- 
traditional water quality control measures and resource 
management techniques. The NEP has strongly influenced our 
evolution toward watershed management more broadly in clean 
water programs.
    A cornerstone of the National Estuary Program is that 
management decisions are made through an inclusive process 
involving multiple stakeholders, as Senator Sessions observed 
earlier. This emphasis on public participation not only ensures 
a balanced approach to resource problems, but encourages local 
communities to take the lead in determining the future of their 
own estuaries, thus bolstering the program's success through 
community support. At the present time, 17 of the 28 NEPs are 
in the implementation stage, 1 additional program is scheduled 
to have an approved plan by the end of 1998, and the 10 
remaining programs should have their management plans completed 
in 1999.
    The National Estuary Program has been very successful and 
several of those successes are presented in my full statement. 
EPA is working actively to ensure that we use what we've 
learned from these programs to protect and improve the health 
of coastal ecosystems overall.
    With respect to the legislation that is the topic of this 
hearing, I would like to emphasize the Administration's 
position supporting comprehensive amendments to the Clean Water 
Act that would strengthen the protection of the Nation's 
waters, a position recently reiterated by the President when he 
announced the Administration's Clean Water Action Plan.
    That having been said, let me comment briefly on S. 1321, 
S. 1222, and H.R. 2207.
    First, the National Estuary Conservation Act and also a 
provision of H.R. 2207. Both of these bills would amend Section 
320(g) of the Clean Water Act and increase the authorization of 
the National Estuary Program. EPA supports the flexibility that 
would be provided by giving us the authority to allow grantees 
to use Section 320 funds for managing the implementation of 
CCMPs as well as for developing them.
    We believe it is important, however, that State and local 
Governments take primary responsibility for implementing CCMP 
actions, and that consistent with the current law, grants 
authorized by Section 320 not be seen as the primary source of 
implementation funds. EPA and its other water quality programs 
have an important role in implementation.
    Section 320 provides that the management plans, once 
approved by the Administrator, can be implemented using funds 
from the State Water Revolving Loan Fund or the nonpoint source 
grants. Many CCMP implementation actions are appropriate for 
such funding. These programs should continue to be the primary 
source of implementation funds authorized under the Clean Water 
Act. The Administration has recently proposed to increase 
Section 319 grant funds to $200 million.
    EPA also supports an increase in authorizations over the 
original $12 million given the increased number of estuarine 
programs since the program was last authorized.
    With respect to S. 1222, the Estuary Habitat Restoration 
Partnership Act, we believe that the goals and purposes of this 
bill are laudable----a national goal of restoring a million 
acres of estuarine habitat by 2010. Many of our National 
Estuary Programs have identified the need to actively restore 
degraded habitats consistent with the Clean Water Act's broad 
goal to restore and maintain the physical, chemical, and 
biological integrity of our Nation's water.
    S. 1222 would compliment other provisions of the Clean 
Water Act and move us in a direction of implementation 
provisions more attuned to restoration and physical integrity 
aspects of the Clean Water Act's goal. Chemical and physical 
improvements are needed to restore the conditions under which 
aquatic species can thrive in our estuaries.
    We look forward to the opportunity to work with the 
committee as you continue your deliberations on this bill.
    With respect to H.R. 2207, the Coastal Pollution Reduction 
Act, I need to stress that much of the progress toward our 
Clean Water Act goals has been realized through the investment 
of the private sector and local governments in achieving near 
universal compliance with the baseline of technology-driven 
pollution control and prevention requirements. That's best 
available technology for industry and secondary treatment for 
municipalities.
    Secondary treatment isn't sufficient, however, to achieve 
nutrient control needs for such water bodies as Long Island 
Sound and the Chesapeake Bay where relatively shallow, poorly 
mixed waters are sensitive to nutrient inputs. In these 
instances, and many others, municipal treatment facilities are 
using advanced wastewater treatment technology or biological 
nutrient removal.
    Congress provided for a narrow waiver from the general 
requirement in Section 301(h) of the Clean Water Act for cases 
where a community discharging to ocean waters could 
demonstrate, among other things, that less than secondary 
treatment would not have significant adverse consequences. Few 
municipalities were eligible for this waiver by its very terms. 
Fewer still sought the waiver. And even fewer were able to make 
the necessary showings and were approved. The waiver provision 
required municipalities to apply by December 29, 1982, and 
didn't provide for reapplication in the event of a final 
denial.
    H.R. 2207 would reopen the window for an application for a 
deep ocean outfall serving Mayaguez, Puerto Rico, but would 
require EPA to apply the same substantive standards for 
considering such a waiver that had applied to previous timely 
applicants.
    The Puerto Rican Aqueduct and Sewage Authority first sought 
a waiver for the Mayaguez wastewater treatment plant to 
discharge into Mayaguez Bay, not a deep ocean site, in 
September 1979. EPA tentatively denied the application in 1984 
and again in 1986. A final determination denying the 
application was issued in 1991. The applicant pursued appeals 
which culminated in the Supreme Court upholding EPA's decision 
in February 1995.
    In a Consent Agreement to resolve process violations of, 
among other things, the effluent discharge limits on the 
existing plant, the Federal Government recognized PRASA's 
intent to seek this legislation but made no commitment 
regarding our position on the legislation.
    Mayaguez Bay, in general, and the coral reefs, in 
particular, are severely stressed. Conditions may be such that 
PRASA may be able to provide information to support a decision 
that, based on construction of a deep ocean outfall, it can 
meet the nine part test established in Section 301(h). However, 
EPA neither endorses nor opposes H.R. 2207. We're generally 
opposed, however, to reopening the opportunity to seek 301(h) 
waivers given the widespread benefits of secondary treatment 
and the need to do more, not less, to control nutrients in many 
coastal areas.
    Thank you very much, Mr. Chairman. I look forward to 
working with you and your staff as you continue your work on 
these bills. I'd be pleased to respond to questions.
    Senator Chafee. OK. Thank you very much, Mr. Wayland.
    Mr. Michael Davis, Deputy Assistant Secretary for Civil 
Works, Department of the Army.

STATEMENT OF HON. MICHAEL L. DAVIS, DEPUTY ASSISTANT SECRETARY 
            FOR CIVIL WORKS, DEPARTMENT OF THE ARMY

    Mr. Davis. Mr. Chairman and members of the committee, I am 
Michael Davis, the Deputy Assistant Secretary for Civil Works. 
I'm also very pleased to be here today to present the 
Department of the Army's views on S. 1222, the Estuary Habitat 
Restoration Partnership Act. With your permission, I will 
summarize my statement that I have submitted for the record.
    Senator Chafee. We've never denied anybody the opportunity 
to summarize their statements.
    [Laughter.]
    Mr. Davis. I'll try to be brief. For over 200 years the 
Nation has called upon the Army Corps of Engineers to solve 
many of its water resources problems. Historically, the Corps 
has emphasized its flood damage reduction and navigation 
missions. In recent years, however, pursuant to Water Resources 
Development Acts, we have elevated our environmental 
restoration and protection mission to a level equal to our more 
traditional missions.
    The Corps now uses its engineering, project management, 
real estate, and environmental expertise to address 
environmental restoration and protection problems throughout 
the Nation and the world. The Corps has a powerful tool kit of 
standing authorities and programs that can be brought to bear 
to help solve environmental problems.
    Over the last decade alone, the Corps has helped to restore 
hundreds of thousands of acres of habitat, benefiting hundreds 
of fish and wildlife species. Examples include 28,000 of 
habitat restored for the Upper Mississippi River, hundreds of 
acres of coastal wetlands restored in Louisiana, 35,000 acres 
of flood plain and wetlands restoration underway along the 
Kissimmee River in Florida, and hundreds of acres of coastal 
wetlands restored by beneficially using dredged material.
    If enacted, S. 1222 would add to the Corps' environmental 
portfolio. Specifically, S. 1222 would allow the Corps to use 
its unique skills to restore and protect estuarine habitat and 
help achieve an economically and environmentally sustainable 
future for the Nation and the world.
    Throughout the world estuarine and coastal areas serve as 
focal points for human use and development. These same areas 
also perform critical functions from an ecosystem perspective, 
providing habitat and food for myriad fish and wildlife 
species. There is an urgent need to protect and restore these 
fragile ecosystems, recognizing the economic, social, and 
environmental benefits they provide.
    As with many environmental issues, future generations 
depend upon our actions today. In this regard, we applaud the 
cosponsors of S. 1222 for their vision and leadership in this 
area.
    The Department of the Army supports efforts to enhance 
coordination and efficiently financed environmental restoration 
and protection projects. The goal of restoring one million 
acres of estuarine habitat by the year 2010 is consistent with 
the President's Clean Water Action Plan and the goal of 
restoring 100,000 acres of wetlands annually beginning in the 
year 2005.
    The proposed national framework, our national estuarine 
habitat restoration strategy should help partners identify and 
integrate existing restoration plans, integrate overlapping 
plans, and identify processes to develop new plans where they 
are needed. This framework document could help us maximize 
incentives for participation, leverage limited Federal 
resources, and minimize duplications of efforts.
    The legislation is also consistent with the Coastal 
Wetlands Preservation, Protection, and Restoration Act, also 
known as the Breaux Act. This legislation has created a unique 
multi Federal and State agency partnership which is working to 
restore and protect approximately 73,000 acres of coastal 
wetlands in Louisiana over the next 20 years.
    Thus, with a relatively few minor but important changes, 
the Department of the Army would be pleased to support S. 1222. 
I will note a few of the changes and clarifications that we 
would recommend.
    First, it is unclear which, if any, agency is to lead the 
collaborative council. The language implies a lead role for the 
Department of the Army and directs the Secretary to convene 
meetings. Funds are also authorized to be appropriated to the 
Department of the Army to implement estuarine restoration and 
protection projects.
    While S. 1222 does not explicitly state your intent, 
Department of the Army is prepared to take a leadership role if 
that is the desire of the committee and the Congress.
    In order to maintain consistency and avoid confusion, I 
recommend that the bill's cost-sharing provision be amended to 
a 65 percent Federal cost share in accordance with WRDA 1986 
and WRDA 1996. This is especially important since the bill 
states that estuarine restoration projects could be implemented 
under our aquatic ecosystem restoration authority pursuant to 
Section 206 of WRDA 1996.
    We are concerned that S. 1222 deviates from the basic cost-
sharing policies established in the Water Resources Development 
Acts for environmental restoration projects, and that the 
variation and range of the possible Federal cost- shares from 
25 to 65 percent could cause confusion and reduce non-Federal 
participation.
    Section (d)(1) of S. 1222 states that the collaborative 
council shall not select an estuarine habitat restoration 
project until each non-Federal interest has entered into a 
written cooperation agreement in accordance with Section 221 of 
the Flood Control Act of 1970. Our experience is that while the 
need to meet Section 221 requirements are still valid for most 
civil works projects, there are situations where these 
requirements eliminate potential non-Federal sponsors from 
consideration and reduce opportunities for environmental 
projects. For example, certain well-known and established 
environmental organizations could not serve as sponsors for 
environmental restoration projects under S. 1222 as introduced.
    The Corps has put policies in place to enable consideration 
of nongovernmental organizations for Section 1135 projects, and 
our WRDA 1998 proposal contains provisions that would amend 
Section 206 of WRDA 1996 and Section 204 of WRDA 1992 to allow 
the Corps to consider where appropriate nongovernmental 
organizations as sponsors for environmental restoration and 
protection projects. Because of the similarities between these 
environmental authorities, we recommend revising S. 1222 to 
allow NGO's to sponsor estuarine habitat restoration projects.
    Turning to the factors to be taken into account in 
establishing criteria for determining project eligibility, we 
recommend that the legislation require consideration of quality 
and quantity of habitat restored in relation to overall project 
costs. This will help with benchmark performance reviews and 
provide a context for providing trade- off decisions amongst 
various alternatives.
    Many environmental restoration techniques and approaches 
are new, and when dealing with natural systems there is a need 
to test new ideas, learn from successful projects, and learn 
from those that are not successful, and manage adaptively to 
adjust to ever-changing conditions. Adding a requirement for 
non-Federal sponsors to manage adaptively would encourage the 
partners to try out new ideas and learn more about how to 
restore and protect estuarine and coastal areas.
    In conclusion, the Corps has been increasingly involved in 
recent years with efforts to protect and restore our estuaries. 
We are especially proud of our efforts in conjunction with 
Coastal America initiatives, such as a restoration of a coastal 
salt marsh area in the Galilee Bird Sanctuary in the chairman's 
home State of Rhode Island, the restoration of tidal wetlands 
in California's Sonoma Bay lands, and the Sagamore Salt Marsh 
restoration project in Massachusetts. Our fiscal year 1999 
budget request includes study funds for ten potential projects 
directed at protecting or restoring the important functions of 
estuaries, as well as funding for many other activities that 
would be beneficial to the environment in or adjacent to our 
estuaries.
    In short, Mr. Chairman, the Corps is serious about its 
environmental responsibilities and its environmental mission. 
With just a few minor modifications, S. 1222, if enacted, would 
add an important new tool to help us all protect and restore 
the Nation's estuaries.
    My staff and I have enjoyed working with you and your staff 
on S. 1222 and other legislation before your committee, 
including our Water Resources Development Act proposal for 
1998. We look forward to continuing this relationship as work 
on this important legislation continues.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions you or the committee may have.
    Senator Chafee. Thank you very much, Mr. Davis.
    What we'll do now, I see Senator Torricelli is here, we 
will proceed with his comments and then we will get back to 
some questions to Mr. Wayland and Mr. Davis.
    Senator we welcome you.

  STATEMENT OF HON. ROBERT TORRICELLI, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Torricelli. Thank you very much, Mr. Chairman. 
Rarely have I given testimony on legislation where I felt more 
confident, noting that I'm here to testify on S. 1321 and my 
two cosponsors are the Senator from Rhode Island, Mr. Chafee, 
and the Senator from New Jersey, Senator Lautenberg. So I feel 
assured of fairly supportive commentary. I would also like to 
note that S. 1321 is cosponsored by Senators Moynihan, Graham, 
Lieberman, and Boxer.
    Mr. Chairman, dealing generally first with the issue of our 
coastal maintenance and protection, let me offer both my 
support and congratulations for the committee in dealing under 
difficult circumstances. It is time in our country to recognize 
that our beaches and coastal areas are national resources, as 
important to our infrastructure as roads and schools and other 
items that we depend upon for commerce and our quality of life. 
Indeed, since the 1930's the Federal Government has recognized 
this with the creation of the Beach and Erosion Board. And yet 
in recent years, it is becoming increasingly more difficult.
    The current funding formula set by the 1986 Water Resources 
Development Act established the Federal contribution for beach 
replenishment at 65 percent. This is being threatened by an 
Administration proposal to have a Federal share of 35 percent. 
Let me make it very clear, Mr. Chairman, in the State of New 
Jersey, to which Senator Lautenberg will attest, the economic 
life of the State of New Jersey and the quality of life of our 
people is directly related to the maintenance of our beaches. 
Our beaches are important to the economic life of New Jersey, 
as the Pennsylvania Turnpike is for the economy of its State, 
or the New York Throughway is for the people who live in that 
State. It is used for commerce, it is used for our massive 
tourist industry, and for our quality of life. This kind of 
declining Federal contribution would be a direct threat to many 
coastal communities.
    I am, however, here for a related subject, and that is the 
maintenance of our threatened estuaries. Estuaries of our 
States, Mr. Chairman, from which Rhode Island is centered, are 
an important part not only of our tourist industry but also our 
fishing industry--75 percent of commercial fishing in the 
United States rely on estuaries--in New Jersey this is 
particularly true with the Raritan Bay, the Delaware Bay, and 
Barnegat Bay. In our country today, 14.5 million jobs and 10 
percent of our GDP is related directly to these coastal 
centers. My State of New Jersey has a $25 billion tourist 
industry, including boating and fishing industries that rely on 
these areas.
    The size of these estuaries and the pressure upon them by 
development is extraordinary. To take one example, the Barnegat 
Bay in New Jersey, 400,000 people live on this precious 
environmental resource. The same things that have attracted 
clam and fish populations to be in these protected waters also 
attract people to develop their lands and use them for tourist 
purposes. In the summer, that 400,000 population doubles to 
800,000 people. This very precious resource is also shared with 
116 marinas and boatramps, a third of all boats in the State of 
New Jersey are registered in this one small estuary.
    As one would imagine, this causes considerable pollution 
threats. Barnegat Bay alone in 1995, 1997, and as recently as 
last month has had problems with brown tide algae blooms 
caused, in part, by stormwater runoff. Another example of 
pollution threats, as I'm sure you've experienced in Rhode 
Island, is in the New York-New Jersey Harbor----we found 730 
combined sewage overflows in that Harbor alone. It would take 
$2 to $6 billion to correct them.
    Mr. Chairman, as I am certain you and I know Senator 
Lautenberg are aware, the single largest water pollution 
problem remaining in the United States are the combined sewage 
overflows. This is a major problem of these estuaries. It is 
the reason for the compromise of the water quality, the 
continued destruction of our fisheries, and the unavailability 
of some of these waters for tourist purposes.
    In 1987 the Clean Water Act Amendments established a 
National Estuary Program. That was an important beginning in 
saving these estuaries. Over the years, 28 estuaries were 
designated, 3 alone in the State of New Jersey. The plan was 
the Federal Government would provide funds to the State and 
local governments to develop plans to save these endangered 
estuaries. Seventeen of the 28 estuarine plans have now been 
completed. The NEP has not been reauthorized since 1991 and 
today States cannot receive any Federal funding to implement 
their plans.
    Our legislation, Mr. Chairman, is very simple. We have 
designed 17 of these plans to protect the estuaries, the 
Congress for two decades has recognized these plans as a 
priority, now it's time to actually begin the work. Under our 
legislation, we would begin authorizing $50 million to the 
State and local Governments to start implementing their plans. 
These plans obviously rely heavily on doing something with 
combined sewage overflow.
    Mr. Chairman, it is simply time to begin to act. We know 
what needs to be done. We understand the science, we understand 
the engineering, and we know the threat. I believe $50 million 
is a modest beginning, but in some estuaries somewhere in the 
country we will at least begin to prove that these valuable 
resources can be saved. It is better now to begin in a modest 
method rather than not to begin at all.
    Perhaps, Mr. Chairman, if we prove by these modest amounts 
that a few estuaries can be saved, fish populations will begin 
to return, tourists will enjoy the benefit of improvements to 
water quality, then we can begin to mount the kind of political 
coalition that will help us do this on a larger scale.
    Mr. Chairman, thank you for allowing me to testify.
    Senator Chafee. Thank you very much, Senator. We appreciate 
your thoughts.
    Senator Lautenberg. I just want to thank Senator Torricelli 
for his interest in protecting our estuaries, as evidenced by 
this legislation. I think that he is absolutely right. We have 
done a sufficient amount of planning and I think now getting 
the funds, getting some assistance for the implementation of 
these programs is important. I once again salute the effort and 
will work hard with you to try to get it into place in New 
Jersey.
    Mr. Chairman, as you know, the comparisons between our 
States go beyond size. We have a lot of coastline for a 
relatively small land mass. Our problems are not different. We 
invite habitation, we invite tourism, but that brings problems 
along with it. As Senator Torricelli aptly pointed out, sewage 
overflow occurs. I'm not sure which gets the prize for being 
the worst source for pollution--agricultural runoff, combined 
sewer overflows, or nonpoint source pollution. We know one 
thing--we see the constant degradation of fish population, 
damage to our recreational use, and the loss of an important 
asset. It does compare very favorably with basic infrastructure 
in our States and in our country.
    Mr. Chairman, I welcome Senator Torricelli's comments and 
his active interest on the issue.
    Senator Chafee. I think it was you, Senator Lautenberg, who 
mentioned in your opening statement that something to the 
effect that 55 percent of the population in the United States 
lives in coastal areas.
    Senator Lautenberg. Right.
    Senator Chafee. I suspect that percentage is growing, not 
declining. So it's a tremendous challenge.
    Well, thank you very much, Senator Torricelli.
    Senator Torricelli. Mr. Chairman, if I could just note in 
response to Senator Lautenberg's comments, as difficult as this 
problem is, there is reason to be hopeful. Last year, in 
visiting in the Barnegat Bay, after years in our State of 
dealing with industrial sources of pollution successfully, the 
fish populations were increasing. Crabs and clams were seen in 
areas where they had not been recognized for years. Nature is 
resilient if we give it a chance.
    Senator Chafee. But we've got to give it the chance.
    Senator Torricelli. You have to give it the chance. And 
that's all we're asking, some modest resources now to deal with 
these remaining threats to these estuaries. Nature will come 
back if we will do our parts.
    Senator Lautenberg. Mr. Chairman, the clams that were such 
an important marine crop in New Jersey now get put into a 
natural washing machine. They're taken out of beds where there 
may be some pollution and put into other clean water areas and 
left there for a bit and nature takes care of it. So nature is 
working right along side of us and we have to just give her a 
little boost.
    Senator Chafee. Right. Thank you very much, Senator.
    Now, Mr. Davis, in your testimony, you outline some of the 
areas of success. Over the last decade the Corps has helped to 
restore hundreds of thousands of acres of habitat, 28,000 acres 
of habitat restored for the upper Mississippi, hundreds of 
acres of coastal, and so forth. What principally have you done 
to do that restoration? What steps have you taken? And what 
constitutes restoration?
    Mr. Davis. Restoration, let me answer that part of the 
question first. Let's look at wetlands restoration, I think 
that will put it in the right context. If you look in the 
Southeast, hundreds of thousands of acres that have been diked 
off and drained. Former wetlands are now crop lands. You can go 
into these areas and plug up some of those ditches, knock down 
some of these little dikes, and restore the hydrology in that 
area, thus restoring what was formerly a wetland area versus 
creation, which is going into an area that was never a wetland 
and trying to do it there.
    Senator Chafee. You mention invasive species. We're 
certainly seeing that up in my section of the country. We've 
got something called ``phragmites'' which, in my judgment, is 
overpowering many brackish ponds. What do you know about 
phragmites? Have you got a cure?
    Mr. Davis. I've seen phragmites. I've seen a lot of it.
    Senator Chafee. Oh, I've seen it, too. But that's not a 
qualification.
    Mr. Davis. It is a problem. We've spent a fair amount of 
time just recently up in the Hackensack Meadowlands, which is a 
large wetlands complex that essentially has been overtaken by 
phragmites, and we're looking at ways to restore that area to 
the proper hydrologies and salinities that would preclude 
phragmites from growing and allow the native vegetation to 
return. It can be a problem. It is very much an invasive 
species.
    There are a lot of invasive species. It's an issue we've 
got to deal with. Recently I looked at the Kenilworth Marsh 
restoration project that we did here on the Anacostia River 
using dredged material. We have a problem there with the plant 
the purple lustrife which is also an invasive species. It's an 
issue we're grappling with. I think in some cases we have made 
some progress but we've got a lot of work to do.
    Senator Chafee. Any thoughts, Mr. Wayland?
    Mr. Wayland. I just wanted to supplement that. Mr. Davis 
referred to Coastal America, and one of the Coastal America 
projects that I participated in helping to launch in Senator 
Lieberman's State was actually being facilitated with ISTEA 
funds. I think that the work that you and this committee did on 
the new TEA-21 legislation is going to continue some of the 
opportunities.
    Senator Chafee. Better keep it a secret that we're using 
the highway trust fund money to fight phragmites.
    Mr. Wayland. Well, what happened in that instance was the 
phragmites was very much encouraged by the railbed that had 
been laid in the Northeast corridor without any opportunity for 
tidal flushing. No culverts, so that you walled off the tidal 
flushing and the fresh water areas.
    By the Corps of Engineers designing appropriate placement 
of culverts and the use of ISTEA money to place those culverts, 
the hydrologic regime was restored such that the natural marsh 
grasses could come back and once again occupy that habitat 
rather than phragmites. And that's certainly appropriate.
    Senator Chafee. Are you saying that if you can get a tidal 
flow in an area where phragmites is, that will kill it off?
    Mr. Wayland. In some cases, there has to be more active 
management than that. In some cases there has to be hand 
removal. I'm not a big believer in herbicide use to try to 
restore the balance of nature, but in some cases that's been 
employed to help the process along. But if you don't do 
something to improve the salinity regime, you're probably going 
to be back where you were. That's why some of these measures 
like the one that we looked at in Connecticut are extremely 
important. And that's part of the plan for the Hackensack as 
well, to open up channels of flowing water to help reduce the 
problem.
    Senator Chafee. OK. Let me just ask this question of both 
of you. One, I appreciate your support for S. 1222. The bill as 
drafted would, as you know, require EPA, the Corps, and other 
relevant Federal agencies, for example Fish and Wildlife or 
NOAA, to develop an estuarine habitat restoration strategy. Do 
you think it's possible for all of these Federal agencies to 
develop a strategy within the parameters of the bill?
    What do you say to that, Mr. Wayland?
    Mr. Wayland. Absolutely, Mr. Chairman. I think that we've 
got a history of cooperating in a number of cases on smaller 
scale efforts. I think this is an opportunity to try to look 
comprehensively at needs and opportunities to try to buildupon 
the smaller scale efforts that may have been undertaken in the 
context of a particular estuary. I think the agencies have a 
good track record of working together through Coastal America 
and other collaborative approaches.
    Senator Chafee. Mr. Davis, what do you say?
    Mr. Davis. I agree completely with that. I think the bill 
brings together the right mix of agencies, each of which can 
come to the table with kind of a unique perspective and unique 
tools and talents.
    Senator Chafee. Now, Mr. Wayland, you commented on the 
Puerto Rico bill. If we pass that and EPA denied the 
application for a waiver, what is your best estimate for the 
expected time period for the construction and operation of a 
secondary treatment plant?
    Mr. Wayland. The deadline that is specified in the Consent 
Agreement that the Government reached with PRASA is that there 
would be a secondary treatment facility on line by December 31, 
2001. That's a pretty ambitious timeframe in which to site, 
construct, and operate a secondary plant.
    Senator Chafee. You did make a point in your testimony, I'm 
not sure I can put my finger on it right now, where you pointed 
out that where the waivers have been granted in the past, I 
guess you're thinking of San Diego, it is an deep ocean outflow 
as opposed to this.
    Mr. Wayland. San Diego was another legislative exception to 
the general requirements of the Clean Water Act that we 
grappled with after the standard window had closed. But there 
are many other waivers that were entertained under Section 
301(h) and some were approved, many were denied, several were 
withdrawn.
    In instances where those waivers were approved, we 
generally are finding deep water, a lot of mixing as a result 
of currents, and----
    Senator Chafee. It seems to me that was the San Diego 
situation. It was a deep ocean.
    Mr. Wayland. Yes. I believe the outfall is at 300 feet. The 
locations of the outfall that are being studied at least with 
respect to Mayaguez I understand would be on the order of 600 
feet of water.
    Senator Chafee. OK. Fine. Thank you very much gentlemen.
    Now, we'll have the next panel. We have now four witnesses. 
There are liable to be some votes which will interrupt this, 
but let's get started.
    We will start with Mr. Spalding, executive director of Save 
the Bay. Mr. Spalding, we welcome you here.

 STATEMENT OF H. CURTIS SPALDING, EXECUTIVE DIRECTOR, SAVE THE 
                      BAY, PROVIDENCE, RI

    Mr. Spalding. Thank you, Senator Chafee. I have a chart I 
would like to put up here. As long as we brought it all the way 
from Rhode Island, I thought I better show it.
    I gave the committee a longer statement, and I have some 
brief comments I would like to make now.
    Senator Chafee. Fine.
    Mr. Spalding. On behalf of Save the Bay and Restore 
America's Estuaries, I would like to thank Senator Chafee and 
the committee for the opportunity to present testimony in 
support of S. 1222, the Estuary Habitat Restoration Partnership 
Act. Save the Bay is a member-supported nonprofit organization 
with 20,000 members. Our mission is to restore and protect 
Narragansett Bay and its watershed. Restore America's Estuaries 
is a coalition of 11 regional coastal community-based 
environmental organizations, with a combined membership of over 
250,000. Restore America's Estuaries' mission is to save and 
restore America's estuaries and coastal heritage for our 
children before it disappears.
    Five years ago, over 20 estuary advocacy organizations met 
to discuss the future challenges of our Nation's estuaries and 
to set a course of action to meet these challenges. Many of our 
coastal areas were beginning to reap the benefits of the Clean 
Water Act. In Narragansett Bay, harbor seals and oysters were 
starting to return after decades of absence due to polluted 
water. Despite similar limited recoveries in many of our 
Nation's estuaries, we shared a deep concern that many species 
of fish, birds, and other animals were not recovering as we had 
expected. Also troubling, some of coastal areas not previously 
affected by water pollution were now in serious decline.
    After months of inquiry and discussion, we saw that the 
problem with the health of our estuaries was no longer simply 
grossly polluted water, but the ongoing loss of habitat for 
fish, birds, shellfish, and plants along our shorelines and in 
our watersheds. Thus, in late 1994, Restore America's Estuaries 
was formed. It is a current partnership of 11 nonprofit 
organizations, from Seattle to Galveston to Maine, that compose 
Restore America's Estuaries. Over the past 4 years, each 
organization has identified and targeted the habitat resources 
in its own estuarine and coastal environment that are 
threatened and in need of restoration. Restore America's 
Estuaries has pledged collectively to restore one million acres 
of habitat in our Nation's estuaries by the year 2010.
    The need is great. In coastal States, 55 million acres of 
wetlands have been destroyed. We need to turn the tide on this 
devastating trend and actually foster the rebirth of our 
estuaries and their critical wetlands.
    In the estuary I know best, the need is especially 
critical. Narragansett Bay's natural systems contain eelgrass 
beds, salt marshes, and fish runs which allow it function 
healthily, but they are severely damaged or disappearing. The 
chart I brought down describes the percentage of salt marshes 
affected by different activities. Invasive plants, cutting/
mowing, tidal restrictions, filling, ditching, and inadequate 
buffer zones are causing the decline. As you can see, all these 
impacts generally exceed 50 percent in our salt marshes. We 
only have 100 acres of eelgrass left in the Bay which once 
supported thousands of acres. Eelgrass prevents shoreline 
erosion, filters pollution, and provide clean water, food, 
shelter, and nurseries and breeding grounds for fish, 
shellfish, juvenile lobsters, and young fish.
    We have a problem with fish runs, too. To survive, many 
fish must be able to get to the fresh water up the rivers to 
spawn. One of our Bay's greatest historic fisheries, the 
Atlantic Salmon, can now only be read about in books due to the 
destruction of their fish runs.
    The Bay is much like the human body; the decline in our 
eelgrass, salt marshes, and fish runs are warning signs not so 
different from changes in a person's vital signs. We would not 
ignore a loved one's complaint of chest pains, shortness of 
breath, or numbness in their arms and legs because these are 
signs of potentially deadly heart attack or damaging stroke. 
Likewise, we cannot ignore these symptoms in our estuaries.
    If eelgrass, salt marshes, and fish runs continue to 
decline and disappear, the Bay will be little more than an 
empty body of water. The quantity of Bay life that depends on 
these areas----the lobster, shellfish, birds, fish, plants----
will diminish. Many people who make their livelihoods off the 
Bay will have to find other work. This is not the kind of Bay 
we would want or should leave to our children.
    Narragansett Bay is not alone in this health crisis. 
Although each estuary is unique, they all suffer from habitat 
loss. In San Francisco Bay, 95 percent of the Bay's original 
wetlands have been destroyed. Galveston Bay in Texas has lost 
85 percent of its seagrass meadows. Louisiana loses 25,000 
acres of coastal salt marshes----that's an area the size of 
Washington, DC----every year. In Chesapeake Bay, the oyster 
harvest crashed from 25 million pounds in 1959 to only 1 
million pounds in 1989, and of course the Pfiesteria crisis is 
well known to everyone down here. These losses have dire 
consequences for our environment, our economy, and our way of 
life.
    On September 22, 1997, Senator Chafee, the chairman of this 
committee, came to a small boatyard in Narragansett Bay to 
announce the introduction of the Estuary Habitat Restoration 
Partnership Act, S. 1222. This legislation is a vital component 
of our efforts to bring back healthy conditions not only in 
Narragansett Bay, but in Chesapeake Bay, Long Island Sound, 
Puget Sound, and many of the other vital estuaries in the 
United States. At that press conference, Senator Chafee said 
``Narragansett Bay is good for the soul.'' No truer words have 
ever been spoken about the meaning of Narragansett Bay to all 
Rhode Islanders and no one in Rhode Island's history has more 
credibility to say these words.
    Narragansett Bay is our home. Even if we live miles from 
its shore, it is part of what makes Rhode Island special. The 
Bay is our lifeline, it nourishes our environment, strengthens 
our economy, enhances our leisure time, protects our children's 
futures. We need to care for the Bay and invest today in its 
health and very survival. The investment will help ensure a 
secure future for Rhode Island and all the Nation's estuaries.
    In the interest of time, I'm going to jump to the end of my 
comments, Senator Chafee, and talk somewhat about the 
connection to the WRDA Act.
    Despite all that's been done, as I've said, Narragansett 
Bay and most of our estuaries remain in crisis. The migration 
of millions of people to the shores of estuaries has had its 
impact. Rhode Island and many other regions have only a limited 
time to take action and reverse the situation. If we do not 
markedly increase our effort to restore America's estuaries 
soon, more species of fish, plants, birds may become memories 
just like the Atlantic salmon and Bay scallops have become in 
Narragansett Bay. Without action now, jobs will be lost and the 
quality of life will suffer.
    We applaud you for your leadership on this critical issue, 
and we applaud the support of Senator Faircloth and now the 
support of the Army Corps of Engineers and EPA. Not only has 
Senator Faircloth come to the issue, but 26 colleagues from 
both sides of the aisle understand the situation and have 
cosigned as sponsors.
    If we truly want to preserve our coastal heritage, we must 
give our Federal Government agencies the opportunity to 
actually help with this task, not just with more funding, but 
with tools to break down the barriers of bureaucracy and to 
build partnerships with local community efforts. The 
coordinated community-based approach prescribed in S. 1222 will 
set a powerful example for solving the more complicated 
environmental challenges ahead in the next century. It will 
also help refocus the Army Corps on the restoration of natural 
systems, just as is intended in the current draft of the Water 
Resources Development Act that is currently under 
consideration.
    Because S. 1222 affects the Army Corps' mission and 
purpose, and because the health of America's estuaries cannot 
afford years of delay, we respectfully urge immediate 
consideration of S. 1222 as part of the WRDA reauthorization. 
We know this is a tall order but we believe strongly that the 
need justifies the request.
    Your attention to my remarks today is appreciated very 
much. Thank you for allowing me the opportunity to share my 
perspective on why estuarine habitat restoration is so 
important for Narragansett Bay and the estuaries throughout the 
country that add so much to our coastal environment and 
heritage.
    Senator Chafee. Thank you very much, Mr. Spalding. We 
appreciate that.
    And now Dr. Burkholder. They have started this vote and 
I'll have to leave in about seven or 8 minutes, but we can get 
started. Why don't you proceed.

STATEMENT OF JOANN R. BURKHOLDER, RESEARCH COORDINATOR, BOTANY 
    DEPARTMENT, NORTH CAROLINA STATE UNIVERSITY, RALEIGH, NC

    Ms. Burkholder. Thank you, Mr. Chairman. It is a great 
honor to be invited to speak before your committee. I would 
like to tell you that personally I have very much admired you 
for a long time and all your efforts.
    Senator Chafee. Well, that's fine. Did everybody hear that?
    [Laughter.]
    Ms. Burkholder. The litany of all the enormous values of 
our Nation's estuaries is familiar to many people of all ages. 
There are three basic reasons for my testifying here today. 
First, as a scientist knowledgeable in technical aspects of 
estuarine degradation, I am pleased to testify on behalf of 
these valuable resources and their enormous importance to all 
of us in this country. I've stressed to you the need to 
strengthen our understanding not only of obvious impacts from 
human influences, many of us know about floating garbage, but, 
of greater importance, the more insidious chronic impacts of 
our actions in degrading our estuaries.
    Research from every coast of this country has shown, for 
example, that fish suffer higher incidents of bleeding sores, 
malignant tumors, loss of reproductive ability, and immune 
system suppression in estuarine waters near urban centers.
    Senator Chafee. Dr. Burkholder, I'm afraid they have now 
gone to the last part. So we're going to recess for a few 
minutes. I'm not sure, there may be a couple of votes back to 
back. But as soon as I get back, we will continue with you.
    The committee will be in recess for a few minutes here.
    [Recess.]
    Senator Chafee. The committee will return to order.
    I notice Senator Breaux is here. Senator Breaux has been 
deeply interested in these issues for many years. Senator, if 
you have some comments you would like to make, now is the 
chance.

 STATEMENT OF HON. JOHN BREAUX, U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Breaux. Thank you, Mr. Chairman, and thank the 
witnesses at the table for allowing me just to make a comment 
or two. First, I thought it was important to come and say 
congratulations to you for this effort. You've been a leader in 
this area as long as I have been around the Congress and 
working in these particular areas. I think this legislation, 
which I am very proud to be a cosponsor of, is extremely 
important.
    When some people in the country think of estuarine areas, 
they think of marsh lands or wetlands and they don't really 
understand the productivity of these areas and how valuable 
they are, from two standpoints. They are valuable because 
they're part of our country and esoteric beauty that is found 
in estuarine areas is incredible and it is extremely important. 
Second, and equally as important, is the economic value of 
these areas. They are extremely valuable. Most of Louisiana is 
an estuarine area, my entire State practically. About 40 
percent of the Nation's wetlands are found in my State, one 
State. We're also losing about 80 percent of all the wetlands 
in all of North America in my one State. So any legislation 
dealing with estuarine areas and wetland areas is incredibly 
important.
    Just as a note for the record, the economic value of these 
areas in my own State of Louisiana is extremely significant. 
Wildlife and resources are estimated to bring almost $6 billion 
annually to the economy of my State. That's because we produce 
over 15 percent of the Nation's commercial fish harvest out of 
Louisiana. Without the estuarine areas, this could not happen. 
These are the breeding grounds for all of the fish resources--
--fin fish and shellfish----and things that are produced that 
ultimately end up in the Gulf of Mexico and ultimately end up 
all over the world. So without the estuarine areas as these 
nurseries, all of this would not occur.
    So your Estuary Habitat Restoration Partnership Act, which 
is now before your committee, is extremely important. It is a 
very positive step, and 1 day, hopefully, we will be able to 
look back at this legislation as a key to ensuring the 
continued viability of these very important areas. I commend 
you for your action.
    Senator Chafee. Thank you, Senator Breaux. I want to 
reciprocate by expressing our appreciation for your long work 
in this area because you've been a stalwart. We look forward to 
your continued support. Thank you.
    Now, Dr. Burkholder, if you would be good enough to 
continue. I don't think there are going to be any more 
interruptions. Now that's said with not great certitude as far 
as votes go. I don't know, I think that we're good for a while 
anyway. So go to it.

STATEMENT OF JOANN R. BURKHOLDER, RESEARCH COORDINATOR, BOTANY 
   DEPARTMENT, NORTH CAROLINA STATE UNIVERSITY, RALEIGH, NC--
                           CONTINUED

    Ms. Burkholder. Thank you. There are three basic reasons 
for my testifying here today, as I mentioned. First, as a 
scientist, I would like to stress to you the need of 
strengthening our understanding not only of obvious impacts of 
human influences on our estuaries, but, of greater importance I 
think, more insidious and chronic impacts of our actions in 
degrading our estuaries.
    As I was beginning to say earlier, research from every 
coast of this country has shown that fish suffer higher 
incidents of bleeding sores, malignant tumors, loss of 
reproductive ability, and immune system suppression in 
estuarine waters near urban centers. Such subtle and chronic 
impacts are likely much more serious to fish than an obvious 
fish kill that usually affects only a small number of fish 
relative to the total population size.
    The chronic effects of our actions in degrading estuaries 
also extend beyond fish to our own health, as shown by the 
story of Pfiesteria. This microscopic toxic creature thrives in 
waters that are over-enriched from sewage, animal waste, lawn 
and cropland fertilizer, and other sources. People who breath 
the airborne toxins from Pfiesteria over waters where it is 
attacking fish can suffer from severe learning disabilities and 
memory loss for months afterwards. This provides just one 
example of the fact that estuarine water quality, fish health, 
and human health impacts can be strongly linked.
    My second reason for speaking here today is to state my 
strong support for S. 1222 and also S. 1321. As a citizen who 
has been involved in policy recommendations about strengthening 
wise use of estuarine resources, I believe that the partnership 
cost-sharing approach that is outlined in S. 1222 will be 
highly constructive in bringing all stakeholders together, from 
industries and municipalities to individual citizens, in 
working to achieve major restoration of our estuaries.
    Within this context, I envision four goals. First, we 
should accelerate river and watershed cleanup through a strong 
incentive program which is encouraged by S. 1222. This program 
should encompass both point and nonpoint source contributors. 
This effort must also target reestablishment of more natural 
flow patterns in watersheds to enhance pollutant filtering and 
breakdown rather than the ditching and channelization that 
deliver pollutants more directly to our rivers.
    Development of strong water reuse programs will also help 
combat both pollution and salt imbalances created by coastal 
aquifer depletion. The phragmites problem and others are 
related to that. And we should work to expand coastal reserves 
in order to increase protection of fish nursery grounds.
    The second goal that I envision is that we will need to 
improve and update resource inventories, hence my strong 
support for S. 1321 as well as S. 1222. This will really help 
us to establish baselines where they're not available so that 
we can mark our progress. For example, accurate maps of 
submersed aquatic vegetation, wetlands, shellfish beds, fish 
nursery and spawning grounds are needed in many regions.
    Achievement of major estuarine restoration will also 
require additional tools that must be provided by research. For 
example, we need to develop improved indicators of chronic 
impacts of pollutants on key species in estuarine food webs, 
including young as well as adult stages. We will need improved 
techniques for increasing natural functions of both constructed 
and restored wetlands and seagrass meadows. We must improve our 
ability to create value-added products from our wastes rather 
than viewing them as materials to be discarded. And I think 
especially, and it is often overlooked, we need strengthened 
research in natural resource economics so that the full 
benefits of all the goods and services provided by estuaries 
can be both accurately valued and imparted to our citizens.
    The third goal that I see is that we should work to 
strengthen enforcement of existing laws for estuarine resource 
conservation or wise use. Again, this needs to be accomplished 
hand-in-hand with development of strong incentive programs and 
also provision of support through development of innovative 
fundraising programs.
    We also need to work to improve upon some legislation. For 
example, land use plans under the Coastal Area Management Act 
should be strengthened to require consideration of the ability 
of adjacent waters to handle the wastes that accompany our 
increasing coastal population growth. Currently, these land use 
plans do not contain that provision.
    And fourth, we should work to promote development of 
comprehensive environmental education and outreach programs 
about the importance of good water quality and healthy 
habitats, such as wetlands and seagrass beds, both in estuaries 
and upstream in the watersheds that drain into them. These 
programs should begin in preschool, extend to high school and 
college, and continue to touch all citizens throughout their 
lives.
    My third and final reason for speaking for to you is much 
simpler than the others----to help fishermen and other coastal 
folk who are a big part of my State and our country's heritage 
and also for our children in the battle for estuarine 
restoration and wise resource maintenance.
    I am also very pleased to join you and especially to join 
my Senator, Senator Faircloth, on this issue. This committee 
and he have shown strong depth of caring for our estuaries and 
for all of us who depend upon them in our State and country in 
support of these bills. Thank you again for the privilege of 
addressing this Senate committee on this important issue.
    Senator Chafee. Thank you very much, Dr. Burkholder. We 
appreciate that. I'm impressed by the number of papers that 
you've written and had a part in writing, as shown in the back 
of your testimony. Congratulations.
    Ms. Burkholder. Thank you.
    Senator Chafee. Dr. Milon, professor, food and resource 
economics department, University of Florida, Gainesville. 
Welcome, Doctor.

  STATEMENT OF J. WALTER MILON, PROFESSOR, FOOD AND RESOURCE 
  ECONOMICS DEPARTMENT, UNIVERSITY OF FLORIDA, GAINESVILLE, FL

    Mr. Milon. Thank you very much, Chairman Chafee. I thank 
you for the opportunity to present a brief summary of some 
research on the economic value of the Indian River Lagoon, an 
estuary of national significance and part of the Environmental 
Protection Agency's existing National Estuary Program. I come 
to you not so much as an advocate of any particular 
legislation, but more as, if you will, a reporter from the 
academic community about some research that this particular NEP 
program conducted and to give you some insights from that 
research.
    This information is derived from a study I coordinated as 
part of a team organized by Apogee Research Inc., a nationally 
recognized leader in environmental and natural resource 
economics. This study was sponsored by the Indian River 
National Estuary Program and the St. Johns Water Management 
District, the State sponsor for the Indian River NEP. The study 
is presented as one documented example of the value of 
estuaries nationwide.
    The Indian River Lagoon, one of the Nation's most 
biologically diverse estuaries, stretches 156 miles along 
Florida's east coast spanning Volusia, Brevard, Indian River, 
St. Lucie, and Martin counties. These five counties are home to 
more than 1 million residents and host more than 6 million 
visitors each year. The number of visitors in the five counties 
of the Lagoon is expected to increase from 1.25 million to 
almost 1.5 million between 1995 and 2005.
    In developing estimates of the economic value of an 
environmental resource such as an estuary, it is important to 
consider the scope and extent of human activity related to that 
resource. I offer to you the accompanying Table 2-4 which is 
condensed from a much larger report which I've included as 
different addendums as part of my testimony here. That Table 2-
4 is on page 16 of Addendum A, if you have an opportunity to 
look at that. The table shows the scope of activities which are 
considered in the Indian River Lagoon study. These activities 
range from traditional economic uses such as the value of 
commercial and recreational harvests from the Lagoon to more 
intangible economic values such as the enhancement of land 
values adjacent to the resource and individuals' values for 
preserving the resource. The full report, as I mentioned, 
presents the valuation methodologies and data collection used 
in the study, so I'm not going to describe those here.
    These results that are summarized in Table 2-4 show the 
importance of the Lagoon to the economy of the region in 1995. 
Recreational fishing by residents and tourists was estimated to 
contribute approximately $340 million to the regional economy, 
swimming, boating, water sports, and nature observation 
activities around the Lagoon contributed another $287 million. 
Commercial harvesting of shellfish such as clams, oysters, and 
crabs contributed nearly $13 million annually. In addition, 
residential land values were enhanced by the presence of the 
Lagoon in the amount of approximately $825 million which can be 
expressed as an annualized value of about $33 million. 
Collectively, the direct values associated with the Lagoon on 
an annual basis amounted to more than $725 million.
    The Lagoon-dependent activities create additional indirect 
impacts on the regional economy. Businesses related to 
recreation, tourism, and fisheries generate nearly $4 billion, 
or about 17 percent of total output within the region. And 
again, for this information I refer you to Addendum B, 
additional information that's provided in there. I'll leave 
that to whoever is interested in digging out the individual 
details on that. Resident and tourist spending for Lagoon-
related activities accounted for more than 19,000 jobs in the 
region.
    These measures of the economic contribution of the Indian 
River Lagoon can be compared to the costs of implementing the 
comprehensive conservation and management plan developed as 
part of the Indian River NEP. This comprehensive plan includes 
recommendations to maintain and restore the Lagoon through 
water quality management and habitat protection. These costs 
are estimated to be less than $18 million annually, indicating 
that the costs of sustaining the activities dependent on the 
Lagoon are modest relative to their economic contribution 
within the region.
    Properly designed funding plans could spread these costs 
equitably so that the average citizen in the region would pay 
no more than $10 per year. In addition, public surveys 
conducted for this study showed that residents would be willing 
to pay more than three times the estimated annual cost to 
implement CCMP.
    The results of the study, while limited to a single 
estuary, help to illustrate the economic importance of 
estuaries in regional economies and the linkage between 
environmental quality and economic development. The economy of 
the Indian River Lagoon region depends upon the ecosystem 
services provided by the estuary and future development within 
the region will be linked to adequate maintenance of the health 
of this ecosystem.
    Studies such as the one I am reporting to you are an 
integral link in helping citizens and public officials 
understand the linkage between the health of the estuaries and 
local economies. On this score I refer you to a letter from the 
St. Johns River Water Management District which, as I 
mentioned, is the State sponsor for the Indian River NEP. In 
that letter they discuss their own thoughts on the legislation 
before you and also reiterate this point about the importance 
of studies dealing with the economic value of these resources. 
And as you and other members of the committee have pointed out, 
this kind of information is extremely important in building 
local support and local understanding of the role of these 
estuaries in the region, and for building political support, 
they are absolutely vital to the local citizenry.
    I hope this information will be useful to the committee. I 
will gladly provide you with any details about this study or 
any other information about economic valuation of environmental 
resources that would assist the committee in its deliberations. 
Thank you.
    Senator Chafee. Thank you very much, Dr. Milon. I think 
what's helpful to the others is the methodology that you used 
in arriving at your conclusions. I must say, it seems to me 
that you were modest and cautious in the land value figure you 
used, because certainly in our State there's a whale of a 
difference between somebody whose got an ocean or an estuary 
view from their property and someone who doesn't in the value 
of his or her land.
    Mr. Milon. Yes. Part of what we were trying to do, as I 
mentioned, was to build this local support and, if you will, 
local credibility. We wanted in the study to use as many 
conservative assumptions as we could so that these valuation 
estimates, if you will, could not be challenged on the grounds 
that they were excessive. That in part led to some of that 
conservatism. But you're correct, the ratios are enormous 
between residential property in particular on waterfront which 
is obviously highly valuable relative to non-waterfront 
property, but also there's a difference between those areas 
that have very high water quality and those that have degraded 
water quality.
    Senator Chafee. No question about that.
    All right, Mr. Morton, counsel, Coastal and Ocean Program, 
American Oceans Campaign. Welcome.

 STATEMENT OF TED MORTON, COUNSEL, COASTAL PROTECTION PROGRAM, 
                    AMERICAN OCEANS CAMPAIGN

    Mr. Morton. Good morning, Mr. Chairman. My name is Ted 
Morton. I am the Coastal Protection Program counsel for 
American Oceans Campaign which is a national, nonprofit 
organization dedicated to protecting and enhancing our Nation's 
oceans and coastal resources. On behalf of my organization and 
its members, I wish to express my thanks to Senators Chafee and 
Baucus and to the other members of the committee for inviting 
me to testify on legislative proposals to improve estuarine 
protections.
    As you know, last year marked the 25th anniversary of the 
Nation's premier water quality law----the Clean Water Act. 
Across the Nation, communities used the anniversary to assess 
the condition of their lakes, streams, rivers, and coastal 
waters. Many communities discovered that significant progress 
had been achieved. However, 25 years after the passage of the 
Clean Water Act, we will have not achieved one of the Act's 
principal goals----to make all waters swimmable and fishable. 
Coastal waters are particularly troubled. A recent EPA report 
disclosed that about 38 percent of the Nation's surveyed 
estuaries are not clean enough to support basic uses such as 
fishing and swimming. In addition, estuarine habitat is 
threatened by unwise development, sedimentation, destructive 
fishing practices, and other threats.
    In order to improve the state of estuaries, it is 
imperative to develop and follow a comprehensive national 
strategy that addresses water quality improvements, habitat 
restoration, public education efforts, and greater investments. 
I believe that a combination of Senator Chafee's Estuary 
Habitat Restoration Partnership Act, S. 1222, and 
Representatives Lowey, DeLauro, and Shays' Water Pollution 
Control and Estuary Restoration Act, H.R. 2374, provides a 
significant start to ensure that a comprehensive national 
strategy for estuarine protection is put in place.
    The American Oceans Campaign joins other leading estuarine 
protection organizations across the Nation in support of the 
Estuary Habitat Restoration Partnership Act, the bill that 
Curtis Spalding has so eloquently discussed today. The bill 
would greatly improve efforts to restore estuarine habitats. In 
particular, I am very supportive of the call for the creation 
of a collaborative council that will direct a national 
estuarine habitat restoration strategy.
    Rather than echo the comments of Senators, Curt, and 
others, I would like to spend much of my time discussing the 
National Estuary Program and H.R. 2374. Since the creation of 
the NEP in 1987, 28 nationally significant estuaries have been 
the focus of intense study and planning. Community leaders in 
these particular estuaries have collaboratively crafted 
comprehensive estuarine management plans, called CCMPs, that 
are designed to restore their local estuary. Seventeen of the 
twenty-eight estuaries have approved CCMPs and local 
communities are hard at work to implement their plans. However, 
most communities are finding implementation a challenge.
    H.R. 2374, the Lowey, DeLauro, Shays bill, corrects the 
most glaring weakness of the National Estuary Program----the 
lack of consistent, adequate Federal funds to assist States and 
localities in implementing approved estuary plans. This bill is 
very similar to bills introduced in the Senate in previous 
years by Senators Lieberman, Moynihan, D'Amato, and Dodd.
    The Lowey, DeLauro, Shays bill will strengthen protections 
for estuaries by requiring implementation of approved estuarine 
management plans. It assures a more sizable and dependable 
Federal funding source for NEP implementation activities. The 
bill increases authorization levels for the Clean Water State 
Revolving Loan Fund to $2.5 billion in fiscal year 1998, 
gradually increasing this level to $4 billion in fiscal year 
2004. The bill requires that States with approved estuarine 
plans set aside a percentage of the SRF increases for 
implementing approved plans.
    To be part of the National Estuary Program an estuary is 
determined to be nationally significant. It should therefore be 
in the national interest to ensure that plans to restore these 
waters are fully implemented. The Lowey, DeLauro, Shays bill, 
by establishing a dependable source of Federal funds to help 
States implement CCMPs, substantially advances efforts to clean 
estuaries and restore estuarine habitat.
    The NEP is also the focus of the National Estuary 
Conservation Act, S. 1321, introduced by Senator Torricelli. S. 
1321 allows NEP grants to be used to develop and implement 
CCMPs and increases authorized levels for the NEP to $50 
million a year. Senator Torricelli's bill is a stride in the 
right direction. However, the bill could potentially create 
additional hurdles for the NEP. First, the annual Federal 
allocation of $50 million to be divided among 28 programs for 
both planning and implementation purposes is not a sufficient 
level to ensure substantial progress in implementing priority 
actions of CCMPs.
    Second, the bill could create conflicts between newer 
programs still developing their CCMPs and older programs 
needing funds for implementation. Just as current 
authorizations for the NEP are routinely targeted for earmarks, 
it is highly likely that the additional funds will also be 
earmarked for special estuarine projects, thereby squeezing 
dollars from programs still developing their plans.
    Finally, I'm concerned that with additional NEP grant 
dollars available, EPA might succumb to pressure to use 
portions of the increased authorizations to add new local 
programs rather than fund implementation of existing ones.
    In conclusion, it is time for the United States to 
establish a comprehensive national strategy for estuarine 
protection. The beginnings of a strategy are already in place. 
Local estuarine programs of the NEP have identified numerous 
priority actions needed for cleaning estuaries and restoring 
habitats. In addition, coastal communities, States, and 
nonprofits like Save the Bay and Chesapeake Bay Foundation have 
initiated successful estuarine habitat restoration projects and 
have identified several more projects needing immediate 
attention.
    I encourage this committee to mark up a comprehensive 
estuarine protection bill that includes both the Chafee and the 
Lowey, DeLauro, Shays bill. This comprehensive bill would 
foster beneficial estuarine habitat restoration activities, 
augment efforts to minimize water quality impairment from both 
polluted runoff and point sources, encourage broad-scale 
meaningful public participation, and increase Federal financial 
contributions to ensure estuaries will remain special 
productive places in the future.
    I appreciate the opportunity to testify today and look 
forward to your questions. Thank you.
    Senator Chafee. Thank you very much, Mr. Morton.
    One of the problems that comes up constantly is nonpoint 
source pollution, particularly with agricultural runoff, which 
I think you touched on, Dr. Burkholder, and others have 
likewise. What can we do about that, Dr. Burkholder? We don't 
want to get in a conflict with the farmers and yet there's no 
question but the agricultural runoff is a very serious thing. I 
think Mr. Spalding touched on it, too. Got any suggestions?
    Ms. Burkholder. I think that we should develop some very 
strong incentive programs we have not developed in the past, 
and also we need to enforce the legislation we already have in 
place to try to control nonpoint pollution. Often when we try 
to enforce it, we find that we haven't really given the 
polluters the recourse to be able to follow best management 
practices or the existing laws.
    So, as I mentioned earlier, I think we need not only to 
enforce the legislation that we have, but also to develop much 
better incentive programs that are backed by appropriate 
funding for, for example, the little farmers in the middle of a 
concentrated animal operation situation to be able to do better 
in handling waste.
    Senator Chafee. I think handling the waste is one thing. In 
other words, you talked about incentives. I suppose a form of 
incentive would be to help contribute to the farmers to build 
some holding ponds of some type. That's OK for the waste to 
attempt to control the waste. But what do you do with the 
fertilizer that they put on their fields, the pesticides and so 
forth, plus the manure that they scatter on their fields which 
they done from time immemorial?
    Ms. Burkholder. Again, there are a lot of things that are 
being tried right now in my own State. One is to do much better 
in trying to figure out how to make value-added products of the 
wastes so, instead of spraying them or putting them on fields, 
we can market them in some way. The current practices that we 
have, for all their best intentions, often still treat wastes 
just as wastes, so there has to be somewhere to put them, 
somewhere to get rid of them and waters have always been a 
repository.
    So we need much, much more innovative methods to turn these 
into value-added products. Some of those technique applications 
and research efforts are being tried but they need a lot more 
support. A lot of the research that I talked about I don't even 
do, so it's certainly not anything that would benefit my 
laboratory but it is research that would benefit the country 
because we have such a burgeoning problem with animal wastes in 
certain areas and with urban runoff as well.
    There should be other incentives that we can try. Tax 
incentives are commonly done and there are some innovative 
funding things that we could do that. For instance in my State, 
we don't even have an environmental license plate like some 
States do. So, some very easy things that would really help to 
get some funding into these sorts of programs could be done.
    Senator Chafee. Any thoughts, Mr. Spalding?
    Mr. Spalding. Yes, I do, Senator. One of the best examples 
of an approach for dealing with nonpoint source pollution comes 
from your home State, in fact in a city you're familiar with. 
The city of Warwick ran something called the Greenwich Bay 
Initiative. Greenwich Bay was suffering severely from nonpoint 
pollution----failing septic systems, farms, those sorts of 
things----and through a comprehensive watershed approach, 
they've done great things. It was demonstrated this past month. 
We've had this unbelievable amount of rain in Rhode Island, as 
you know, and nonpoint pollution closed the beaches all the way 
down the Bay. Well, Greenwich Bay's beaches came back much 
faster than people thought and I think in large part because of 
the work that had been done there on a watershed basis.
    Buffer zones can be built. Restoration of marshes can be 
part of that strategy in the long run, because marshes have the 
capacity to filter pollutants coming off of farms and open 
spaces such as golf courses and parks. In our Rhode Island 
context, we don't have nearly the farmland they have in North 
Carolina. So with a watershed approach that is accountable----
it's very important for all of us to remember we've got to meet 
the goals and objectives. You can't say let's just plan, plan, 
plan and not get things done.
    Senator Chafee. I think one of the things they did in that 
Greenwich Bay was also to provide assistance to those who had 
poor septic systems, didn't they?
    Mr. Spalding. Absolutely right. Several innovative ideas 
such as wastewater management districts. In fact, we used some 
EPA support to connect people to existing interceptors. In that 
situation you had sewer lines that people were not connecting 
to. So there's a number of opportunities.
    The big solution though was that there was a farm that was 
a problem. They pinpointed it and gave assistance to the 
farmer; dealt with some waste management problems, and also 
worked on a long term acquisition strategy with this farmer so 
that his land can stay open but also be better managed.
    Senator Chafee. OK. Thank you all very, very much. Dr. 
Milon, I'm familiar with your area. My father-in-law for years 
and years sent us oranges from Indian River.
    Mr. Milon. Indian River Lagoon. Yes, that's the same one.
    Senator Chafee. Indian River Orchards. So I look on Indian 
River with great favorability.
    [Laughter.]
    Senator Chafee. Thank you all very much.
    Now we'll have Panel III, Mr. Xavier Romeu and Dr. Juan 
Martinez-Cruzado.
    Mr. Romeu, welcome. And I believe you have the Majority 
Leader of the Senate with you.
    Mr. Romeu. Yes, Mr. Chairman. I would like the Majority 
Leader of the Senate of Puerto Rico to accompany me.
    Senator Chafee. Maybe you could just introduce him.
    Mr. Romeu. Charles Rodriquez is the President of the Senate 
of Puerto Rico who has travelled here specifically on the 
particular legislation before the committee.
    Senator Chafee. Fine. Thank you. Glad you're here. I 
understand that you had to go to particular effort to get here 
because of the strike you're having down there in Puerto Rico.
    Mr. Romeu. Everything is under control, Senator.
    Senator Chafee. Good. OK. Proceed, if you would.

  STATEMENT OF XAVIER ROMEU, EXECUTIVE DIRECTOR, PUERTO RICO 
 FEDERAL AFFAIRS ADMINISTRATION, ON BEHALF OF PERFECTO OCASIO, 
 EXECUTIVE DIRECTOR, PUERTO RICO AQUEDUCT AND SEWER AUTHORITY, 
   SAN JUAN, PR; ACCOMPANIED BY: HON. CHARLES A. RODRIQUEZ, 
 PRESIDENT, SENATE OF PUERTO RICO AND HAGUB SHAHABIAN, ENGINEER

    Mr. Romeu. Good morning, Mr. Chairman and members of the 
committee. My name is Xavier Romeu. I am the executive director 
of the Puerto Rico Federal Affairs Administration, essentially 
known as the Office of the Governor of Puerto Rico in the 
continental United States. I appear before you today on behalf 
of the Puerto Rico Aqueduct and Sewer Authority, better known 
as PRASA, the public corporation that serves almost all of the 
3.8 million American citizens in Puerto Rico with portable 
water and wastewater services. PRASA's executive director, 
Perfecto Ocasio, as has been noted, was unable to travel last 
night. Please excuse his unforeseen unavoidable absence from 
this important hearing.
    We appreciate your understanding and willingness to 
consider our views. I thank you for giving me the opportunity 
to comment on the need for this legislation which would benefit 
the environment and the economy of Puerto Rico. Also with me is 
Dr. Hagub Shahabian, a distinguished engineer with an expertise 
in hydrology and wastewater treatment issues.
    First, I would like to present to the committee a letter 
from Governor Pedro Rossello urging quick Senate action on H.R. 
2207, as a matter of urgent importance to the people of Puerto 
Rico. I understand also that Congressman Romero- Barcelo has 
submitted a letter of support for the record. As you know, 
Congressman Barcelo was instrumental in passing this 
legislation in the House. He could not attend the hearing today 
due to prior engagements which required his presence also in 
Puerto Rico.
    Under Section 301(h) of the 1977 Clean Water Act, coastal 
communities, including islands, were given the opportunity to 
apply for an alternative to the requirements of secondary 
treatment for ocean discharges that met stringent environmental 
equivalency requirements. All applications were initially 
required to be submitted to the EPA by December 31, 1982. PRASA 
submitted seven applications. Of those seven, six were 
tentatively approved; only one, the Mayaguez treatment plant 
outfall, was denied finally in 1994. The application was 
rejected because of the location of the outfall in the 
sensitive coral environment of Mayaguez Bay.
    H.R. 2207, passed by the House last October, would allow 
Puerto Rico to apply to the EPA for authority under Section 
301(h) of the Clean Water Act to construct a new, state-of-the-
art deep ocean outfall at a location that avoids this sensitive 
coral environment of Mayaguez Bay. This would be an alternative 
to secondary treatment at the current outfall location in 
Mayaguez Bay.
    This option is specifically embodied, as was noted before, 
in a recent Consent Decree between the EPA and PRASA, which 
resolves essentially a 15 year old legal dispute. The Consent 
Decree, supported by EPA and PRASA, requires PRASA to meet a 
detailed schedule for the construction of facilities necessary 
to achieve compliance with all of the requirements of the Clean 
Water Act.
    As is known, the Decree provides two alternatives. One is 
the construction of a traditional secondary treatment plant, at 
a high cost and energy consumption, which will continue to 
discharge effluents into the Mayaguez Bay. The second 
alternative, illustrated in the accompanying chart, is the 
construction of a deep water ocean outfall sending primary 
treated effluents several miles offshore into deep ocean 
currents, thus relieving the stress on the Bay and its 
sensitive coral ecosystems. The deep water outfall would be 
less expensive to build and much less expensive to operate than 
a secondary treatment plant. EPA would determine whether the 
deep ocean outfall meets all Clean Water standards. However, 
because of the urgent need for a solution, the Consent Decree 
permits EPA consideration of the outfall alternative only if 
Congress authorizes the approach by August 1, 1998. Therefore 
time is of the essence.
    The current legislation provides Puerto Rico the same 
opportunity that Congress has given other coastal communities 
in unique situations to implement Section 301(h). The bill does 
not in any way change any applicable standards of the Clean 
Water Act. Without authority to submit a waiver application to 
the EPA, PRASA may be required to spend millions of dollars for 
a secondary treatment plant that will have no beneficial effect 
on the stressed marine environment of Mayaguez Bay. These funds 
could be used for the renovation and upgrade of Puerto Rico's 
water facilities infrastructure and other water supply 
treatment and wastewater projects urgently needed in the island 
of Puerto Rico.
    Indeed, just last month, the President issued an Executive 
Order on Coral Reef Protection. The legislation also provides 
Congress and the EPA with an early opportunity to further the 
goals of this initiative. That order which is designed to 
protect and preserve coral reef ecosystems requires all Federal 
agencies to use their authorities to reduce impact on affected 
environments from pollution and sedimentation. H.R. 2207 will 
allow EPA the opportunity to determine whether a deep ocean 
outfall can protect the Bay.
    Without this bill, EPA and PRASA have no options except an 
immediate and inordinately expensive one, a course of action 
that would continue pollution and sedimentation of the coral 
ecosystem. This bill does not authorize construction of a deep 
ocean outfall. It will simply allow us to conclude the 
necessary studies and complete an application for EPA review.
    Indeed, PRASA is already proceeding to ensure a thorough 
environmental review of all options under Law No. 9, Puerto 
Rico's local equivalent of the National Environment Policy Act. 
PRASA and the Puerto Rico Environment Quality Board are 
preparing an environmental impact statement. A draft EIS was 
completed in April recommending a deep ocean outfall as 
environmentally preferable. A copy of the EIS is being 
submitted to the committee. The entire EIS record will be 
available to EPA as it considers the strict standards of 
Section 301(h).
    There are precedents for limited amendment to Section 
301(h). The Municipal Wastewater Treatment Construction Grant 
amendments of 1981 included a provision that specifically 
permitted the city of Avalon, California to file. The 1981 
provision concluded, ``Failure to broaden eligibility risks 
requiring treatment for treatment's sake involving the 
expenditure of funds which would better be used to achieve 
additional water quality benefits elsewhere.'' This bill does 
not grant variances. It simply allows variances to be sought 
with the burden on the applicant to make his case on 
environmental grounds.
    The Water Quality Act of 1987 also included a specific 
provision for the Irvine Ranch Water District, a California 
public agency, that permitted the district to file for a 
Section 301(h) waiver. More recently, in 1994, Congress passed 
H.R. 5176, which allowed the city of San Diego to apply for a 
waiver under Section 301(h) within 180 days of enactment. This 
action precisely parallels the provision here.
    The Government of Puerto Rico urges the committee to act 
quickly. A legislative solution must be in place before August 
1, 1998. This will allow us to put to rest years of litigation 
and focus our energies and capital resources on implementing an 
environmentally sound solution for Mayaguez and other urgent 
priorities.
    Mr. Chairman, this concludes my statement. I thank you for 
your time and consideration of this important issue for Puerto 
Rico.
    Senator Chafee. Thank you very much for that testimony.
    Now, Dr. Juan Martinez-Cruzado.

    STATEMENT OF JUAN C. MARTINEZ-CRUZADO, PAST PRESIDENT, 
  MAYAGUEZANOS FOR HEALTH AND ENVIRONMENT, INC., ON BEHALF OF 
ROBERTO PEREZ-COLON, PRESIDENT, MUNICIPAL ASSEMBLY OF MAYAGUEZ, 
                          MAYAGUEZ, PR

    Mr. Martinez-Cruzado. Good morning, Mr. Chairman.
    Senator Chafee. Good morning.
    Mr. Martinez-Cruzado. I am Dr. Juan Carlos Martinez- 
Cruzado, former president of and spokesperson for Mayaguezanos 
for Health and Environment. We thank this committee very much 
for this opportunity to express our views to you even though we 
are not constituents of any of you. I am giving my testimony on 
behalf of the Mayor of the city of Mayaguez, Mayaguezanos for 
Health and Environment, and a Legal Cologica de Rincon. We 
prepared one copy of this package for each member of this 
committee. It includes our testimonies, a letter of support 
from most of the major environmental groups here on the 
mainland, and other important materials. My statement will 
differ a little bit from the written testimony.
    In Mayaguez, we hold our Bay in very high regard and dream 
of the day in which we may be able again to swim in it without 
skin rashes, ear infections, and other ailments. We must stress 
for the record that the history of EPA in Puerto Rico and the 
Virgin Islands is categorized by indifference and negligence 
and a much less pro-environmental position than is generally 
the case on the mainland. The agency's handling of 301(h) 
waivers is a very good example.
    Since that provision was----
    Senator Chafee. Doctor, could I hold up 1 minute here. I 
want to make certain I have your testimony. I lost you there. 
Are you speaking from this testimony that you submitted?
    Mr. Martinez-Cruzado. I submitted that testimony on behalf 
of Mayaguezanos for Health and Environment. The problem is that 
Victor Negrone, from the Council of the city of Mayaguez----
    Senator Chafee. Yes, I've got a copy of the Mayor's letter 
here.
    Mr. Martinez-Cruzado. I am speaking on behalf of both.
    Senator Chafee. But I was just trying to get what you were 
working from. OK. I think I have it here. Go ahead, please.
    Mr. Martinez-Cruzado. Thank you. We must address for the 
record that the history of EPA in Puerto Rico and the Virgin 
Islands is characterized by indifference and negligence and a 
much less pro-environmental position than is generally the case 
on the mainland. The agency's handling of 301(h) waivers is a 
very good example. Since that provision was first added to the 
Act in 1977, more than 200 applications for waivers were 
submitted. EPA has made its final determinations on all but 
seven of those applications. Not coincidentally, the remaining 
seven are all in Puerto Rico or the Virgin Islands. In the 
meantime, partially treated sewage continues to be dumped into 
the Caribbean and the Atlantic.
    As Hispanics, we are very aware of discrimination by EPA. 
So we were very pleased that President Clinton signed an 
Executive Order on Environmental Justice in 1993. However, the 
problem remains a very real one for us. After all, we do not 
believe that there has ever been any other Consent Decree but 
that of Mayaguez in which EPA agrees to sit on the law for 1 
year explicitly to give the defendant a chance to weaken the 
law that EPA is called on to enforce. We cannot, and we do not, 
trust EPA.
    Because of the Mayaguez sewage treatment plant's 
noncompliance, EPA has imposed a moratorium on new sewer 
hookups. This is depressing our economy. There is a deficit of 
new housing that has been built in Mayaguez since 1993. Because 
of this, there is a dire need for low and middle income housing 
in our municipality. Many persons have moved away to nearby 
towns, thereby affecting our economy.
    Even though EPA concluded 7 years ago----seven years ago--
--that the water of Mayaguez Bay was already so stressed and no 
further impairment could be tolerated, PRASA is still 
discharging the same barely treated wastewater at the same site 
and causing the same effects on our beaches and corals. Tourism 
along the entire Bay coastline is the lowest in 10 years. No 
seaside recreational development has occurred in the past 10 
years. The city's own plans to develop a promenade along the 
beachfront have been postponed due to the water's dirty 
appearance and foul smell. This has stymied our efforts to 
replace decreasing industrial employment opportunities with 
tourist related jobs.
    And here we are now considering turning the clock back to 
1979 and giving PRASA another opportunity to engage in a long 
301(h) waiver application procedure. The people of Mayaguez, 
who are sick of waiting for action, can only regard this bill 
as an excuse to keep doing nothing about the sewage in 
Mayaguez, and an attempt to condemn our city and our corals to 
a slow death.
    The people's desire for a quick solution to this discharge 
is so great that even the Governor of Puerto Rico went out of 
his way in October 1996 1 month before the general elections to 
promise to the people of Mayaguez the start of the construction 
of a secondary treatment plant by July last year. That promise, 
however, proved to be an empty one.
    Last May PRASA prepared an environmental impact statement 
for the deep ocean outfall. PRASA put in writing and on the map 
the proposed point and depth of discharge. The depth is 400 
feet, not 600, and it is within, not under, the pignocline, 
suggesting that the wastewaters will float to the surface 
rather than stay in the depths.
    Hence, the proposed discharge will impact the beaches of 
Rincon and Anyasco to the North, well known as tourists spots 
for the surfing activities, as well as a major coral reef that 
will be located a mile from the point of discharge. The 
discharge will be very close to the point where the continental 
shelf drops off. This area provides critical habitat to massive 
populations of fish larvae and is thus a cornerstone of the 
local fishery. As a result, opposition to this bill is quickly 
growing in all sections of society in the neighboring 
municipalities of Anyasco and Rincon.
    The statement made by EPA that they believe that a 
discharge will occur at a depth of 600 feet threatens our 
belief that this application will eventually be denied. Twelve 
years of sewer hook-up moratorium and almost raw sewage being 
discharged within our Bay so that this mediocre solution may be 
considered smells like very bad business for Mayaguez.
    On the other hand, an engineering company has made public a 
proposal for secondary treatment followed with discharge to 
existing wetlands for natural tertiary treatment. Land 
application of secondarily treated wastewater will be less 
expensive than deep ocean disposal and will remove all 
discharges from the sea.
    It is crystal clear that the deep ocean outfall is the 
worst possible solution to a fairly straightforward problem. 
When Congress structured its 301(h) waiver opportunity in 1977, 
they did it so with the clear understanding that the 
opportunity to seek such waiver would expire in 5 years. In 
other words, even where a sewage plant operator can persuade 
EPA that it complies with all of the criteria found in the law, 
no application for such a waiver could be accepted after 
December 31, 1982. On that day, the door closed. Why? Because 
Congress recognized that there is something profoundly wrong 
with dumping barely treated waste into the sea. On this, the 
92d Congress' idea turns out to be right. The 105th Congress 
will make a grave mistake by reopening that door.
    If the bill is not enacted, secondary treatment will be in 
operation by 2001 according to the terms of the Consent Decree. 
Even though secondary treatment may not provide full relief to 
corals, it is a step toward a tertiary treatment which will 
provide adequate protection for the reefs. More importantly, it 
will permit lifting of the sewer hook-up moratorium that is 
depressing the economy of Mayaguez.
    We urge you please to let H.R. 2207 die. Thank you.
    Senator Chafee. Well, thank you very much, Doctor.
    Now as I understand, Dr. Martinez-Cruzado, what Mr. Romeu 
and others are saying is that they just want the opportunity to 
apply for the waiver to EPA. If I understood correctly, that 
seemed to be what the proposition was. Now what's the matter 
with that, just letting PRASA make the application?
    Mr. Martinez-Cruzado. The main problem is time. It took EPA 
12 years to deny PRASA's application for Mayaguez, from 1979 to 
1991. If this bill is approved, if this application goes 
through, we may very well expect 12 more years of the 
application procedure. Those are 12 more years there will be 
the moratorium on the sewer hook-up and 12 more years of this 
sewage being discharged right in front of our corals with 
barely treated sewage. That is totally unacceptable for us. It 
is really a matter of time. We understand a secondary treatment 
will make it much better and will be a right step to our 
tertiary treatment which will provide adequate protection for 
the corals.
    Senator Chafee. I will put in the record here the letter 
from the mayor, Mayor Rodriguez, written July 6, addressed to 
me. And then he had some testimony that he submitted and we'll 
put that in the record, too.
    [The referenced letter and testimony of Mayor Rodriguez 
follow:]
    Senator Chafee. Now, isn't there a Consent Decree that 
PRASA is meant to go to a secondary treatment by 2001, Doctor?
    Mr. Martinez-Cruzado. That is unless this bill passes. If 
this bill passes, it opens the door for a 301(h) waiver 
application, and in that case it does not have to construct the 
secondary treatment plant by October 31. And I was very 
distressed to see in the written testimony of EPA today, they 
didn't read it but it is in the written testimony, that they 
are very short of resources to look at this 301(h) waiver 
application, if this bill is approved. They recognize there are 
corals off the Bay and that they will have to analyze it in 
light of the recent Clinton Executive Order on Coral Reef 
Protection. So that is telling us they are already giving 
excuses for how long they will take to analyze this proposal 
which, in fact, we find has quite a few weaknesses.
    So we are very worried that this application, if it ever 
happens, will take very easily 12 more years. And we are not 
willing to wait for that long. Our economy is depressed. We are 
losing millions of dollars, and I speak at this time for the 
city of Mayaguez, and we are not willing to go through that 
again.
    Mr. Romeu. Senator?
    Senator Chafee. Mr. Romeu, what do you say to the argument 
that Dr. Martinez-Cruzado has made that this is a delaying 
action? As I understand, you've applied twice before for 
waivers and have been turned down both times. And now you want 
to get special permission to try again. What's the answer to 
that?
    Mr. Romeu. Senator, the Government of Puerto Rico expects 
to move expeditiously in this area. In fact, the legislature of 
Puerto Rico has passed a concurrent resolution which I believe 
has been furnished to the members of the committee.
    Also, I would like to make two quick comments. There are at 
least two assumptions in the testimony of my colleague. One is 
that the secondary treatment plant will be a much better 
situation than the one that we are proposing. And we propose 
that it is for the EPA to make that decision, not for the 
committee, very respectfully. The other one is that the 
secondary treatment plant will be built by December 2001. There 
is no guarantee of that and, in fact, the testimony of an EPA 
official before me seemed to cast doubt on the feasibility of 
that.
    So on both counts, on the quality of the alternative, and 
the timeliness of what the Government of Puerto Rico intends to 
do, I believe that my colleague is incorrect. In any event, I 
believe that that is a determination to be made by the EPA 
which will review the waiver application fully and will make a 
determination.
    Senator Chafee. If I understand, his arguments are that 
this thing can be dragged out forever. I guess your colleague 
mentioned a 12 year period that this has gone on.
    Mr. Romeu. We have no such intention. And as a good faith 
show that we do not have that intention, we have already 
prepared an environmental impact statement, as I mentioned 
previously in my testimony.
    With the Senator's permission, can the Senator of the 
Senate of Puerto Rico make a brief statement for the record?
    Senator Chafee. Sure. But it has to be rather brief. If he 
would like to, fine. Step right up to the table.

 STATEMENT OF HON. CHARLES A. RODRIGUEZ, PRESIDENT, SENATE OF 
                          PUERTO RICO

    Mr. Rodriguez. Good morning, Mr. Chairman, and thank you 
very much. For the record, my name is Charles Rodriguez. I am 
the President of the Senate of Puerto Rico.
    Senator Chafee. We welcome a fellow Senator. Who can keep a 
fellow Senator from making a few remarks.
    Mr. Rodriguez. Thank you, Mr. Chairman. In the Senate of 
Puerto Rico, we are very much concerned with the situation that 
is occurring in the West Coast of Puerto Rico. The city of 
Mayaguez, the municipalities of Ormegueros, Cabal Rojo, and 
Anyasco have their economic rebuilding totally in halt because 
of this problem we have with the water treatment plant. That is 
the reason we have been supporting this alternative before you 
in this legislation, because we believe that at least it gives 
the opportunity to submit to the EPA this alternative which 
they will have to review, and they will review it to see that 
it will satisfy the environmental requirements that EPA will 
obviously be seeking for it to be implemented with this 
alternative.
    We want to see this passed through because we in the Puerto 
Rican Senate are going to be overseeing our local public 
corporation to see that, if this is approved and the EPA goes 
on to approve this alternative also of the deep water ocean 
outfall, we will be obviously overseeing the process. We are 
willing even to be submitted to a timetable that EPA may well 
introduce in its authorization of the construction of this 
alternative. And we will see that it is complied with.
    So I must say that, as the U.S. Senate does and the other 
senates of the 50 States, the Senate of the Territory of Puerto 
Rico will be overseeing this and looking to see that the 
construction of this project becomes a reality, because we have 
to deal with the problem of the West Coast of Puerto Rico and 
we have this pledge to the people of that part of the island.
    Senator Chafee. Fine. All right, concluding statement. Go 
ahead, Dr. Martinez-Cruzado.
    Mr. Martinez-Cruzado. Well, as has been said, this will 
depend on how fast EPA analyzes this. And EPA has said that it 
is short of resources. I really don't want to put EPA in a 
position where it will be pressed to approve a proposal that 
puts the discharge in the pignocline where it may surface. We 
are very much concerned that this either would take a long, 
long time, or that it will take some time and bring to a 
solution that is unacceptable and that the discharge treated 
will float and impact the corals.
    So we are really getting into a box here that it is not 
good at all. We understand that there is already a Consent 
Decree in the Federal court and it says there has to be the 
secondary treatment plant operational by December 31, 2001. 
Operational. There are fines to be put in place if it is not. 
But that goes only if this bill dies.
    Senator Chafee. All right. Fine. Thank you all very much. 
We appreciate your coming all the way up from Puerto Rico. 
We'll try to move quickly on this.
    That concludes the hearing.
    [Whereupon, at 11:53 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [The texts of S. 1222, S. 1321, H.R. 2207, and statements 
submitted for the record follow:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Statement of Hon. Lauch Faircloth, U.S. Senator from the State of North 
                                Carolina
              s. 1222, the estuary habitat restoration act
    Two years ago, the North Carolina Coastal Federation asked me to 
support what is now S. 1222, the Estuary Habitat Restoration Act. I 
understand that Melvin Shepard, the president of the Coastal Federation 
is here today. Melvin, I hope you'll let the folks back in Nor& 
Carolina know what I'm about to say.
    Although I have spent a good part of my life in and around the 
coastal sounds and rivers of North Carolina, until I started looking at 
the merits of this bill I did not fully realize just how important 
these waters are to my State and the nation.
    We've got 2.2 million acres of estuaries in North Carolina. Our 
commercial and recreational fishing industry is dependent upon these 
waters. More than 90 percent of North Carolina's commercially important 
species of fish and shellfish spend part of their lives in the state's 
estuaries.
    I'm also proud to say that nearly 50 percent of the seafood caught 
on the east coast of the United States depends on North Carolina's 
estuaries. In short, our ability to have seafood in this nation depends 
upon main healthy and productive coastal waters.
    This bill will enable communities to get to work restoring degraded 
estuaries across this country.
    It is vital that we target needed resources to restore and preserve 
our Nation's estuaries. The goal of the bill is ambitious--to restore 
one million acres of estuarine habitat by the year 2010. We want to 
restore 100,000 acres in North Carolina alone.
    S. 1222 sets out new, innovative ways of making this happen. It 
will help our communities restore habitat critical to preserving our 
nation's estuaries.
    The bill also is important because it sets out a new way of 
building genuine partnerships between our communities, our states and 
the Federal Government.
    It makes sure that we listen to our citizens; build from what we 
know; coordinate and streamline existing programs; and most important, 
target limited resources in a cost-effective manner.
    The level of support the bill has received speaks well of the 
potential value of the legislation to so many American coastal 
communities, and says a great deal about the stature of Senator Chafee, 
as chairman of the Senate Environment and Public Works Committee, and 
of his work on behalf of the environment.
    I am committed to working with you, Mr. Chairman, committee 
members, and fellow cosponsors to move S. 1222 this year.
    Mr. Chairman, I would respectfully suggest that we move this 
estuary bill as a part of the Water Resources Development Act 
reauthorization, to ensure that it gets done this year.
    I believe this would make sense since the estuary bill makes the 
Army Corps of Engineers the lead agency in estuary restoration.
    We need to make sure S. 1222 is a part of the reauthorization. If 
we don't, a good bill--one that builds bipartisan bridges as it 
restores our estuaries--will get devoured in the larger and much more 
charged debate about the Clean Water Act next year.
    Lastly, I wish to welcome Dr. Joann Burkholder of N.C. State 
University, who will be testifying here today. Dr. Burkholder is well 
known to most of you as one of the nation's leading research 
scientists, and is one of the discoverers of the Pfiesteria microbe. 
She will be testifying to the serious consequences which can flow from 
degraded estuaries. Joann, it's good to have you here.
    Thank you, Mr. Chairman.
                                 ______
                                 
Statement of Hon. John Breaux, U.S. Senator from the State of Louisiana
    I'd like to thank the Chairman of the committee, Senator John 
Chafee, for this opportunity to address the committee and I am pleased 
to join him at today's hearing on the ``Estuary Habitat Restoration 
Partnership Act of 1997.'' I want to commend him for his leadership on 
this issue. I also appreciate the 25 other Senators who have joined us 
as co-sponsors of this bill so that we may draw national attention to 
the significant value of the Nation's estuaries and the need to restore 
them.
    This bill seeks to create a voluntary, community driven, incentive-
based program which builds partnerships between Federal, state and 
local governments and the private sector to restore estuaries, 
including sharing in the cost of restoration projects.
    Some relevant and eye-opening statistics about estuaries which have 
been published include:
    <bullet> 75 percent of commercial fish and shellfish which are 
harvested in the U.S. and 80-90 percent of the recreational fish catch 
depend upon estuary habitat at some life stage.
    <bullet> The rapid and significant loss of estuary habitat, 
reaching over 90 percent in some areas, threatens the commercial and 
sport fishing industries, tourism, recreation, and other industries. 
These industries provide jobs to about 28 million U.S. citizens. 
Fishing alone contributes $111 billion to the U.S. economy per year.
    <bullet> In my own State of Louisiana, fish and wildlife resources 
are estimated to bring $5.7 billion into the economy yearly. 
Louisiana's coast produces 16 percent of the commercial harvest 
fisheries in the U.S.
    <bullet> 40 percent of the wild fur harvest in the U.S. comes from 
Louisiana's wetlands.
    With estuaries and coastal regions being home to about half of the 
U.S. population, and with coastal counties growing 3 times faster than 
counties elsewhere, it is obvious that the ecological and economic 
impact of estuary losses must be taken seriously and must be addressed.
    In Louisiana, our estuaries, such as the Ponchartrain, Barataria-
Terrebonne, and Vermilion Bay systems are vital to the culture and 
economy of local communities. When the Acadian people migrated to 
Louisiana in the 1700's, they settled there because of the abundance of 
natural resources along its coastal wetlands. The lifestyle and jobs of 
many Louisianians continues to be centered around these resources, 
which are as much a part of its culture as its economy.
    I am proud:
    <bullet> that Louisiana has been at the forefront of the movement 
to recognize the importance of estuaries and to propose legislation to 
restore them, in particular the Coalition to Restore Coastal Louisiana.
    <bullet> that the Barataria-Terrebonne Estuary is one of 28 
estuaries in the National Estuary Program.
    <bullet> of the advanced level of the work Louisiana is conducting 
in its coastal areas, including the development and implementation of a 
federally approved coastal wetlands conservation plan.
    It is time now for Congress to implement a strategy whereby public 
and private partnerships may be used to ensure that estuaries remain 
ecologically and economically vibrant for future generations through 
restoration projects.
    Mr. Chairman, in conclusion, I again want to thank you for your 
leadership and look forward to working with you and other Senators on 
this critical piece of environmental legislation. Because estuaries are 
an important national resource, bringing real dollars to our economy 
and affecting the lives, the safety, and the well-being of people all 
over this nation, I am hopeful that the Congress will move in a timely 
manner to authorize an effective estuary restoration program which will 
result in healthy and viable ecosystems.
                                 ______
                                 
  Statement of Hon. Mary L. Landrieu, U.S. Senator from the State of 
                               Louisiana
    Thank you, Mr. Chairman. I appreciate the opportunity to comment 
today on an important measure before the Committee on Environment and 
Public Works--S. 1222, ``The Estuary Habitat Restoration Partnership 
Act of 1997.''
    This significant legislation recognizes the cultural and economic 
importance of estuary habitats as a natural resource. We have learned 
from the past that protective measures are not enough. In addition to 
protection we must emphasize the education and restoration of estuary 
habitats. By creating Federal/State partnership programs I believe this 
bill is a major step in the right direction toward ensuring a 
sustainable resource base for the future.
    In Louisiana alone we are home to one of the nation's largest 
productive estuaries, the Barataria/Terrebonne estuary, which covers 
over four million acres. Estuaries are the building blocks for the 
coastal areas of my State. From a wildlife and fisheries standpoint 
estuaries contribute nearly $6 billion to Louisiana's economy. In 
addition, they provide nursery grounds for fisheries across the Gulf of 
Mexico. Finally, estuaries are the basis for a growing industry, 
ecotourism. For these and other reasons coordinated efforts are vital 
to the continued viability of our nation's coastlines.
    Thank you, Mr. Chairman.
                                 ______
                                 
Statement of Hon. Robert G. Torricelli, U.S. Senator from the State of 
                               New Jersey
    Thank you Chairman Chafee for the opportunity to appear before the 
committee and for your cosponsorship of S. 1321. I would also like to 
thank Senators Lautenberg, Moynihan, Graham, Lieberman, and Boxer for 
their cosponsorship of the bill as well.
    Today we stand at a crossroads in our national coastal policy. 
After years of Federal involvement, we are becoming lax in maintaining 
a consistent level of investment in our nation's coastlines.
    Our coasts are an integral part of our national infrastructure. As 
we approach the next century, we must treat them like our roads, 
schools, and technology, as the foundation of economic development, job 
creation, and current prosperity.
    Since the creation of the Beach and Erosion Board in the 1 930's 
the Federal Government has taken an active role in preserving our 
beaches.
    Yet the Administration sees things differently and has even ignored 
the intent of Congress on the Federal role established 12 years ago.
    Even though the 1986 Water Resources Development Act established 
the current funding format where the Federal Government pays 65 percent 
of beach replenishment projects, the Administration's 1998 proposal 
turned the relationship on its head by reducing the Federal share to 35 
percent of the renourishment phase (which is typically 80-85 percent of 
the project cost.)
    Beach replenishment is but one example of the lapse of the Federal 
commitment to our coastline. I trust the Committee, with the help of 
the senior Senator from New Jersey, will rectify this issue as they 
consider the Water Resources Development Act.
    However, at this hearing we are examining another equally important 
issue--our nation's estuaries.
    Estuaries are important to the economy for their fish and wildlife 
habitat as well as providing centers for boating and recreational 
activity.
    Seventy-five percent of the U.S. commercial fish catch depends on 
estuaries.
    New Jersey is the leading supplier of surf clams in the Nation with 
one of our most productive clam grounds located in Barnegat Bay 
estuary.
    Our nation's coasts are also a central element of the tourism 
industry which nationally employs 14.4 million people and contributes 
over 10 percent to our GDP, making it the second-largest sector in the 
economy.
    In New Jersey, fishing, boating, and outdoor recreation are 
important components of our $25 billion tourist economy.
    A million fishermen participate in New Jersey's's marine 
recreational fishery.
    With all this economic activity, in addition to land development 
and associated activities it is obvious that, our estuaries are heavily 
used resources under severe environmental pressures.
    Over 400,000 people live in the Barnegat Bay estuary; in the summer 
that number doubles to 800,000.
    There are 1 16 marinas and boat launching sites in the Barnegat Bay 
estuary where one third of New Jersey's boats are registered.
    The popularity of Barnegat Bay has caused non-point source 
pollution from runoff and storm water discharges resulting in blooms of 
brown tide algae in 1995, 1997, and as recently as last month.
    In other estuaries, intense urban development has resulted in major 
pollution sources. There are 730 Combined Sewage Overflows in New York-
New Jersey Harbor that will take $2-6 billion to correct.
    With all of these pressures, Congress recognized the importance of 
developing a program that would help states and localities plan for 
their protection and restoration.
    The 1987 Clean Water Act Amendments established the National 
Estuary Program (NEP) which created a Federal partnership with state 
and local governments to prepare comprehensive management plans for 
estuaries of national significance threatened by pollution.
    Over the years 28 estuaries were designated with 3 in New Jersey.
    The Federal Government would provide funds while the state and 
local governments developed the plans.
    Seventeen of the 28 designated estuaries have completed plans.
    However, the NEP has not been reauthorized since 1991, and today 
the states cannot receive Federal funding to implement their plans.
    The premise behind S. 1321 is simple: the Federal Government must 
continue to support those who have developed plans but are no longer 
eligible for Federal assistance.
    In reauthorizing the NEP at $50 million annually, S. 1321 also 
includes the authority to make grants for plan implementation so those 
with completed plans can receive assistance as well as those who are 
still developing them.
    S. 1321 would insure that the Federal Government lives up to its 
commitment to make investments to protect our nationally significant 
estuaries.
    Mr. Chairman, I want to again thank you for your cosponsorship of 
S. 1321 as well as for your sponsorship of S. 1222, the Estuary Habitat 
Restoration Partnership Act.
    Your support of these bills as well as the Committee's efforts in 
holding hearings today on coastal pollution reduction and estuary 
conservation demonstrate your commitment to solving these problems. I 
look forward to working with you and the Committee on these important 
legislative initiatives.
                                 ______
                                 
   Statement of Robert H. Wayland III, Director, Office of Wetlands, 
Oceans and Watersheds, Office of Water, Environmental Protection Agency
    Good morning, I am Robert H. Wayland, Director of the Office of 
Wetlands, Oceans, and Watersheds (OWOW) of the Environmental Protection 
Agency (EPA). These hearings come at a propitious time. The United 
States is observing the International Year of the Ocean and examining 
our responsibilities as stewards of ocean and coastal resources. At the 
recent National Oceans Conference in Monterey, the President committed 
to a series of actions in recognition of those responsibilities and 
again pledged the Administration to implement, with assistance from the 
Congress, a Clean Water Action Plan. This Plan, undertaken in 
recognition of the progress made and challenges remaining after a 
quarter century of implementing the Clean Water Act, contains numerous 
actions directed to marine and estuarine protection and restoration. 
These actions have been significantly influenced by our experience over 
the last decade in implementing the National Estuary Program.
    The National Estuary Program, modeled after the Chesapeake Bay and 
Great Lakes Programs, was established by Congress in 1987 to 
demonstrate a new framework to address serious environmental problems 
faced by these valuable ecosystems. Estuaries are particularly 
vulnerable because they often serve as ``sinks'' for pollutants 
originating upstream within the watersheds and the airsheds overlying 
them. In addition, estuaries are directly impacted by human activity--
well over half the people in this country live, work, or play near the 
coast.
    The NEP seeks to protect and restore the health of estuaries and 
their living resources, and in so doing, the recreation, fishing, and 
other economic activities that take place in or depend on healthy 
estuaries. Just how valuable these activities are is highlighted by 
these facts and figures:
    <bullet> Coastal waters support 28.3 million jobs and generate $54 
billion in goods and services every year.
    <bullet> The coastal recreation and tourism industry is the second 
largest employer in the nation, serving 180 million Americans visiting 
the coasts every year.
    <bullet> The commercial fish and shellfish industry is also very 
important, contributing $45 billion to the economy every year, while 
recreational fishing contributes $30 billion to the U.S. economy 
annually.
    <bullet> 39.6 percent of the Nation's classified marine shellfish 
areas are in NEP estuaries. 53.4 percent of those have limits on 
harvesting.
    <bullet> 15 percent of the population of the continental US resides 
within NEP coastal watersheds.
    <bullet> 26 percent of the 2.23 million square miles of watershed 
area of the US drains into NEP estuaries.
    <bullet> Surface water covers 27,858,000 square miles of the 
Nation. NEPs cover 45 percent of that total, or 12,516,00 square miles.
    Although each of the 28 estuaries in the National Estuary Program 
is unique, many face several common environmental problems and 
challenges. A recent national assessment undertaken by numerous 
stakeholders from each local NEP (including scientists, citizens, 
resource managers, policymakers, and business groups) concluded that 
the most common problems NEPs are dealing with are: 1) nutrient 
overenrichment; 2) pathogen contamination; 3) toxic chemicals; 4) 
alteration of freshwater flow; 5) loss of habitat; 6) declines in fish 
and wildlife; and 7) introduction of invasive species. We have every 
reason to believe that these problems are common to most coastal 
watersheds throughout the United States.
    The impacts of these problems are serious. Pathogens cause 
shellfish bed closures. Nutrient-overenrichment contributes to lower 
dissolved oxygen levels, loss of seagrass and coral habitats, and 
declines in ecosystem health. Introduction of invasive species 
adversely affects native species. Changes in land use and the 
introduction of pollutants and toxic chemicals result in habitat loss 
and declines in water quality and overall ecosystem health.
    The latest data from the National Water Quality Inventory Report to 
Congress (305 (b) Report) shows that as of 1996, almost 40 percent of 
the nation's surveyed estuarine waters are too polluted for basic uses, 
such as fishing and swimming. This information, obtained by the States, 
indicates that serious water quality problems persist nationwide.
    We are all familiar with the impacts of harmful algal blooms. 
Pfiesteria outbreaks have occurred in several tributaries to the 
Chesapeake Bay and North Carolina rivers in recent years, resulting in 
fish kills, fish lesions, and suspected human impacts. The death and 
decay of algal blooms can lead to partial oxygen depletion known as 
hypoxia, or total oxygen depletion, known as anoxia, in the water, 
resulting in widespread mortality of fish, shellfish, and 
invertebrates.
    There is evidence that associates these algal blooms with nutrient 
pollution--excess nitrogen and phosphorus--in the water. The sources of 
these pollutants vary widely from one geographic location to another. 
However, in general, we see three significant sources: human waste from 
septic systems and sewage treatment plants; agricultural runoff, 
including fertilizer and animal waste from agricultural operations; and 
air deposition of nitrogen and toxic pollutants from motor vehicles and 
electric utility facilities.
    In some cases nutrient overenrichment of coastal waters leads to 
hypoxia. Hypoxia occurs in many parts of the world, as well as several 
parts of the United States, including the Chesapeake Bay, Long Island 
Sound, and the Gulf of Mexico. For example, on the Gulf of Mexico's 
Texas-Louisiana Shelf, an area of hypoxia forms during the summer 
months covering 6,000 to 7,000 square miles, an area that has doubled 
in size since 1993. This condition is believed to be caused by several 
factors, including: a complex interaction of excessive nutrients 
transported to the Gulf of Mexico by the Mississippi River; physical 
changes to the river, such as channelization and loss of natural 
wetlands and vegetation along the banks; and the interaction of 
freshwater from the river with saltwater from the Gulf.
    Unlike early approaches to environmental protection that target 
specific pollutants or categories of dischargers, the NEP acknowledges 
that problems affecting our nation's estuaries are exacerbated by 
combined and cumulative impacts of many individual activities and that 
the significance of these activities vary greatly from watershed to 
watershed. The principal causes of nutrient over-enrichment in the 
Albemarle-Pamlico NEP, for example, are agricultural, while in Long 
Island Sound nutrient loadings come from domestic wastewater. In order 
to address watershed-wide concerns, the NEP encourages the use of a 
combination of traditional and nontraditional water quality control 
measures and resource management techniques available through Federal, 
State and local authorities as well as private sector initiatives. The 
NEP has strongly influenced our evolution toward watershed management 
more broadly.
    Currently, 28 National Estuary Programs in 18 States and Puerto 
Rico are demonstrating practical and innovative ways to revitalize and 
protect their estuaries. For example:
    <bullet> A Heritage Trail System was established by the Sarasota 
NEP to enhance recreational opportunities and increase awareness of 
Sarasota Bay and related cultural, historical, and natural resources. 
The trail provides a tapestry of recreational areas (greenways), 
historical places, cultural and art centers, and scenic waterway 
systems.
    <bullet> The creation of an island in the San Jose Lagoon, which is 
habitat to numerous birds in San Juan Bay, was made possible by 
coordination among the San Juan Bay NEP, the Corps of Engineers, and 
citizens. The project used debris from a recently constructed bridge.
    <bullet> The New York/New Jersey Harbor NEP, in coordination with 
the New York City Parks Department, is using funds from the Exxon 
Valdez settlement to re-vegetate park areas and reduce sedimentation 
and erosive runoff in some parks where steep slopes drain into the 
Hudson River.
    <bullet> The Narragansett Bay Project worked with the Rhode Island 
Department of Environmental Management, the city of Warwick, and Save 
The Bay to reduce bacterial pollution so that Greenwich Bay could be 
re-opened to recreational and commercial shellfishing.
    <bullet> The Indian River Lagoon NEP is developing and implementing 
pollutant-loadings reduction goals based on the requirements of its 
seagrass ecosystem.
    <bullet> The Lower Columbia River NEP (OR, WA) is supporting a 
project to develop a stormwater pollution prevention manual and 
associated training program focused on voluntary reduction of 
pollutants from stormwater sources under the direct control of the 
municipality.
    <bullet> Using the Santa Monica Bay Restoration Plan as a guidance 
document, the Los Angeles Regional Water Quality Control Board approved 
a new, basin-wide municipal stormwater NPDES permit. A large 
stakeholder committee was formed to develop permit language and 
numerous public meetings were held, involving many more people than is 
typically the case with an NPDES permit renewal.
    <bullet> In Tampa Bay, Florida, 4,000 acres of seagrass and 400 
acres of wetlands have been restored.
    <bullet> The Long Island Sound Study tested two innovative 
wastewater treatment technologies which resulted in a reduction of 
nitrogen loadings into the Sound by 83 percent from one treatment plant 
and 73 percent from another plant.
    One of the cornerstones of the NEP is that management decisions are 
made through an inclusive process involving multiple stakeholders. This 
emphasis on public participation not only ensures a balanced approach 
to resource problems, but encourages local communities to take the lead 
in determining the future of their own estuaries, thus bolstering 
program success through community support.
    At this time, 17 of the 28 NEPs are in the implementation stage. 
One additional program is scheduled to have an approved plan by the end 
of 1998; the approval of Comprehensive Conservation Management Plans 
(CCMPs) for the 10 remaining programs should occur in 1999. (See 
Attachment 1)
    The NEP approach has been very successful. EPA is working actively 
to ensure that we use what we have learned in these 28 estuaries to 
protect and improve the health of all coastal ecosystems.
                         legislative proposals
    With respect to legislative changes, I would like to emphasize the 
Administration's position supporting comprehensive amendments to the 
Clean Water Act that would strengthen protection of our nation's 
waters.
    That having been said, I would like to turn now to comment briefly 
on S. 1321, the National Estuary Conservation Act; S. 1222, the Estuary 
Habitat Restoration Partnership Act; and H.R. 2207, the Coastal 
Pollution Reduction Act.
S. 1321--The National Estuary Conservation Act and H.R. 2207, Section 3
    We note that both S. 1321 and H.R. 2207, Section 3, would amend 
Section 320(g) of the Clean Water Act and increase the authorization of 
the NEP program. Although the language of the two bills differs, I 
would like to address them together. We would be happy to work with 
committee staff on particular language.
    EPA supports the flexibility that would be provided by giving EPA 
the authority to allow grantees to use Section 320 funds for 
implementation of CCMPs as well as for developing them. We believe it 
is important, however, that State and local governments take primary 
responsibility for implementing CCMP actions, and that, consistent with 
the current law, grants authorized by section 320 not be used as the 
primary source of implementation funds.
    EPA should and does have a role in implementation. Section 320 
provides that CCMPs, once approved by the Administrator, can be 
implemented using funds from other existing Clean Water Act programs 
(notably State Revolving Funds and non-point source grants). Many CCMP 
implementation actions are appropriate for such funding. These programs 
should continue to be the primary source of implementation funds 
authorized under the Clean Water Act. Under the Clean Water Action 
Plan, the Administration has proposed to increase Section 319 grant 
funds to $200 million.
    The process by which the NEPs have achieved success in development 
of the CCMPs has always emphasized public and stakeholder involvement 
and commitment to implementation. EPA guidance provides that the 
implementation action plan specifically state the cost of all actions 
and the parties committed to fund them. Therefore, we support a cost-
sharing type of requirement. We would welcome the opportunity to work 
with you on the precise language of such a provision that is clear and 
that protects the principle that CCMP implementation is primarily 
funded by sources other than Section 320 grant funds.
    EPA also supports an increase in authorizations over the original 
$12 million, given the increased number of NEPs since the program was 
last authorized (17 programs in FY91 to 28 programs in FY98) and given 
the Administration's budget request of approximately $17 million for 
the program in FY99.
S. 1222--The Estuary Habitat Restoration Partnership Act
    We believe the goals and purposes of S. 1222 are laudable: a 
national goal of restoring 1 million acres of estuary habitat by 2010; 
better coordination of estuary habitat restoration efforts; better 
leveraging of funds for restoration; linkage of restoration efforts to 
broader ecosystem planning; and followup monitoring of restoration 
projects. Many NEPs have identified the need to actively restore 
degraded habitats, consistent with the CWA's broad goal to ``restore 
and maintain the physical, chemical and biological integrity of our 
Nation's waters.'' And, many NEPs have successfully demonstrated 
habitat restoration techniques. In addition, EPA has gained valuable 
insights in restoration from the experience we and our partners have 
had on the Coastal Wetlands Planning, Protection and Restoration Act 
(Breaux Bill) Task Force.
    However, the operational provisions of the Clean Water Act 
currently provide few mechanisms through which to pursue restoration--
the emphasis is on pollution control. Many waterbodies which fail to 
meet their water quality standards do so because of physical 
alterations to the shoreline or streambed, because wetlands have been 
filled or drained, as a result of once cobbled streambeds silting-in, 
or because past pollution has killed off submerged bay grasses. 
Pollution inputs have often been or will be sufficiently controlled so 
that these areas can once again realize full biological productivity--
but only if we give nature a hand by re-vegetating the shoreline, or 
bay bottom, removing accumulated silt where appropriate, and re-
creating habitat for spawning, feeding, and shelter. Many of these bio-
engineering practices can also help reduce storm surges and flood 
damage potential. S. 1222 would complement other provisions of the 
Clean Water Act and move us in the direction of implementation 
provisions more attuned to the restoration and physical integrity 
aspects of the Clean Water Act goal. Chemical and physical improvements 
are needed to restore the conditions under which aquatic species can 
thrive.
    We would welcome the opportunity to work with the committee staff 
on specific provisions of this bill.
H.R. 2207--The Coastal Pollution Reduction Act
    Much of our progress toward the CWA goals has been realized through 
the investment of the private sector and local governments in achieving 
near universal compliance with the baseline of technology-driven 
pollution control and prevention requirements: ``Best Available 
Technology'' for industry and ``Secondary Treatment'' for 
municipalities. In the case of the latter these requirements were 
initially supported through the Construction Grant Program and now are 
eligible for loans supported by State Revolving Funds. About $74 
billion in Federal assistance has helped support a wastewater 
infrastructure with a significantly higher replacement value. Since 
1972, the population served by secondary or better wastewater treatment 
has increased from 75 million to 170 million. Secondary treatment is 
not sufficient, however, to achieve the nutrient control needs for such 
waterbodies as Long Island Sound and the Chesapeake Bay where 
relatively shallow, poorly mixed waters are sensitive to nutrient 
inputs from whatever source: wastewater treatment, agricultural run-
off, lawn fertilizers, or septic systems. Many municipal treatment 
facilities discharging to these and other nutrient-impaired waterbodies 
employ advanced wastewater treatment technology or biological nutrient 
removal.
    It may seem ironic, in light of these circumstances, to be 
discussing an exception to the requirements met by so many communities 
many years ago. However, Congress provided for a narrow waiver from the 
general requirement in section 301(h) for cases where a community 
discharging to ocean waters could demonstrate among other things that 
less-than-secondary treatment would not have significant adverse 
environmental consequences. Few municipalities were eligible for this 
waiver by its very terms. Fewer still sought the waiver. And even fewer 
were able to make the necessary showings and were approved.
    The waiver provision required municipalities to apply by 12/29/82 
and did not provide for reapplication in the event of final denial. The 
CWA provides that application for and pendancy of a waiver application 
does not relieve a discharger from the otherwise applicable secondary 
treatment requirement.
    H.R. 2207 would re-open the window for an application for a deep 
ocean outfall, but would require EPA to apply the same substantive 
standards for considering a waiver that had applied to previous 
applicants (including the Puerto Rico Aqueduct and Sewerage Authority 
(PRASA)) to the owner/operator of the Mayaguez Puerto Rico wastewater 
facility (PRASA). H.R. 2207 would also require PRASA to make a 
financial contribution to a watershed initiative intended to stem run-
off to the nearshore area.
    PRASA first sought a waiver for the Mayaguez wastewater treatment 
plant to discharge into Mayaguez Bay (not a deep ocean site) in 
September 1979. EPA tentatively denied the application in 1984 and 
1986. A final denial was issued in 1991. The applicant pursued appeals 
which culminated in the Supreme Court upholding EPA's decision in 
February 1995.
    In a Consent Agreement to resolve PRASA's violations of, among 
other things, effluent discharge limits, the Federal Government 
recognized PRASA's intent to seek this legislation but made no 
committment regarding our position on the legislation. While EPA Region 
II has had to increase its resources on waiver issues, nationally we 
have substantantially reduced our resources for evaluating waivers and 
renewals because the application window closed in 12/82. Further, there 
are several coral reefs off Mayaguez, and it is important to note that 
any outfall ultimately approved by EPA will be consistent with new 
Executive Order 13089, Coral Reef Protection, announced last month by 
the President at the National Oceans Conference.
    However, we must also note that Mayaguez Bay in general, and the 
coral reefs in particular, are severely stressed. Conditions may be 
such that PRASA may be able to provide information to support a 
decision that, based on construction of a deep ocean outfall, it has 
met the nine part test established in section 301(h). In light of this, 
and given that H.R. 2207 is limited to the Mayaguez wastewater 
treatment plant, includes specific environmental protection 
requirements, and is consistent with the terms of the Mayaguez Consent 
Decree, which gives PRASA until August 1, 1998, to obtain legislation 
allowing it to submit a new Section 301(h) application, EPA neither 
endorses nor opposes H.R. 2207. EPA is generally opposed, however, to 
re-opening the opportunity to seek Section 301(h) waivers, given the 
widespread benefits of secondary treatment and the need to do more to 
control nutrients in many coastal areas.
                               conclusion
    Thank you for the opportunity to provide testimony on these 
proposed measures and on EPA efforts to protect our Nation's estuaries 
and coastal resources. This concludes my remarks and I will be happy to 
answer any questions you may have.
                              attachment 1
Status of National Estuary Programs
    Programs with approved CCMP's:
    Program Approval Date:
        Puget Sound--May 1991
        Buzzards Bay--April 1992
        Narragansett Bay--January 1993
        San Francisco Bay--December 1993
        Albemarle-Pamlico Sounds--November 1994
        Long Island Sound--November 1994
        Galveston Bay--March 1995
        Santa Monica Bay--March 1995
        Delaware Inland Bays--June 1995
        Sarasota Bay--October 1995
        Delaware Estuary--September 1996
        Massachusetts Bay--September 1996
        Casco Bay--October 1996
        Indian River Lagoon--November 1996
        Barataria-Terrebonne Estuaries--December 1996
        Tampa Bay--March 1997
        New York/New Jersey Harbor--March 1997
    Programs developing CCMPs:
    Program Expected Submittal Date:
      Tier 4:
        Peconic Estuary--June 1999
        Tillamook Bay--February 1999
        Corpus Christi Bay--September 1998
        San Juan Bay--July 1999
      Tier 5:
        Morro Bay--June 1999
        Barnegat Bay--December 1999
        Lower Columbia River--June 1999
        Maryland Coastal Bays--June 1999
        New Hampshire Estuaries--July 1999
        Charlotte Harbor--September 1999
        Mobile Bay--September 1999
                                 ______
                                 
  Responses by Mr. Wayland to Additional Questions from Senator Chafee
    Question 1: One of the principal goals of the legislation I 
introduced, S. 1222, is to create partnerships between all of the 
federal agencies that oversee estuaries; among federal, state, local 
governments; and between the public and private sectors. Often, the 
notion of ``partnership'' is easier to develop in theory than to 
execute in practice. Do you have any recommendations for what we could 
do to ensure that a true partnership is carried out at all levels?
    Response. EPA supports the goal of improving partnerships between 
federal, State, and local agencies, and other organizations. We have 
been working cooperatively with many federal agencies in supporting 
estuarine management and protection of coastal and estuarine waters and 
resources for a number of years. In particular, EPA's National Estuary 
Program and NOAA's Coastal Zone Management Program and National 
Estuarine Research Reserve System have significant experience in 
working together with State and local governments and other 
organizations to enhance our Nation's estuaries and coasts.
    There are a number of lessons from the National Estuary Program 
(NEP) that can be applied to partnership efforts more broadly. In 
general, we know that partnerships need time and commitment to develop, 
as well as continued nurturing to maintain these partnerships over 
time. It takes time for groups to build strong partnerships and develop 
the trust to collectively reach decisions, and to ensure buy-in on 
these decisions. It is also important to ensure that all of the right 
players are involved in a decision that may affect them, and that they 
are involved in early stages of an effort. For example, we have seen 
the importance of involving groups that have not always been a part of 
coastal discussions, such as oil and gas interests, and the housing and 
development sector. It would be difficult to legislate these 
ingredients of success.
    As an indication of how important it is to EPA that successful 
partnerships be established and maintained, I would call the 
Committee's attention to the Top 10 Lessons Learned document, developed 
by EPA in partnership with over 100 watershed practitioners and their 
supporters throughout the Nation. One of the top 10 lessons learned is 
on partnerships (Partnerships Equals Power). This document describes 
how focusing on common interests, respecting each participant's view 
point, thanking each other, being willing to learn about others' needs 
and positions, and building trust make strong and long lasting 
partnerships. The other lessons learned are:
    <bullet>  The Best Plans Have Clear Visions, Goals, and Action 
Items
    <bullet>  Good Leaders are Committed and Empower Others
    <bullet>  Having A Coordinator at the Watershed Level is Desirable
    <bullet>  Environmental, Economic and Social Goals are Compatible
    <bullet>  Plans Only Succeed if Implemented
    <bullet>  Good Tools Are Available
    <bullet>  Measure, Communicate and Account for Progress
    <bullet>  Education and Involvement Drive Action
    <bullet>  Build on Small Successes.
    The Top 10 Lessons Learned document is available at our website 
(www.epa.gov/owow/lessons) or by calling the National Center for 
Environments. Publications and Information (1-800-490-9198).

    Question 2: You mention the common environmental problems of 
estuaries in the U.S., such as nutrient overenrichment, toxic chemicals 
and habitat loss. Is there much interaction between the 28 member 
estuaries of the NEP to develop common solutions to address these 
problems? Would S. 1222 help elevate the discussion to a national 
level?
    Response. Yes, there is considerable interaction among the 28 NEPs. 
We believe that S. 1222 could greatly assist efforts to elevate the 
discussion and interaction on these issues at a higher level, 
particularly regarding habitat restoration. In fact, the expertise 
developed by the NEPs could be used by the Collaborative Council in 
developing the Estuary Habitat Restoration Strategy proposed by S. 
1222.
    Technical transfer and assistance is a key component of the NEP 
approach. Collectively, the NEPs have created a significant knowledge 
base and wealth of experience dealing with the problems that threaten 
the health of virtually all estuaries, including nutrient 
overenrichment, toxic chemicals, and habitat loss. EPA believes that an 
important role of our coastal management program is to facilitate the 
exchange of information among NEPs and between them and other coastal 
communities.
    In addition, there is considerable interaction among the estuaries 
in NOAA's National Estuarine Research Reserves and the State coastal 
zone management programs as well as interaction between EPA and NOAA 
where we share information on coastal management. S. 1222 would provide 
additional support for the coordination we are engaged in with those 
programs, too.
                               __________
 Statement of Michael L. Davis, Deputy Assistant Secretary of the Army 
                for Civil Works, Department of the Army
                              introduction
    Mr. Chairman and members of the Committee, I am Michael L. Davis, 
Deputy Assistant Secretary of the Army for Civil Works. I am here today 
to present the Department of the Army's views on S. 1222, the Estuary 
Habitat Restoration Partnership Act.
Army Corps of Engineers Environmental Mission
    For over 200 years the Nation has called upon the Army Corps of 
Engineers to solve many of its water resources problems. Historically, 
the Corps has emphasized its flood damage reduction and navigation 
missions. In recent years, however, pursuant to the Water Resources 
Development Act (WRDA) of 1986 and subsequent WRDAs, the Corps has 
elevated its environmental restoration and protection mission to a 
status equal to its flood damage reduction and navigation missions. The 
Corps now uses its engineering, project management, real estate, and 
environmental expertise to address environmental restoration and 
protection opportunities. The Corps environmental mission has been 
expanding over time with major changes in environmental law and policy, 
such as the National Environmental Policy Act of 1969, which requires 
each Federal agency to assess fully its actions affecting the 
environment, and the Federal Water Pollution Control Act of 1972 
(commonly called the Clean Water Act) in which the Corps was given a 
major responsibility for regulating the discharge of dredged or fill 
material into all of our Nation's waters, including wetlands. 
Subsequent WRDAs have expanded further the environmental protection and 
restoration mission of the Corps of Engineers.
    The Corps has a powerful toolkit of standing authorities and 
programs that can be brought to bear to help solve environmental 
problems. Over the last decade alone the Corps has helped to restore 
hundreds of thousands of acres of habitat of many types, and which 
benefit thousands of fish and wildlife species. Examples include: 
28,000 acres of habitat restored for the Upper Mississippi River 
(98,000 projected by 2005); hundreds of acres of coastal wetlands 
restored in Louisiana; 35,000 acres of restored flood plain under 
construction for the Kissimmee River Restoration Project in the 
Florida; and, hundreds of acres of coastal wetlands restored under 
authorities which authorize the Corps to beneficially use dredged 
material for ecosystem restoration.
    If enacted, S. 1222 would add to the Corps environmental portfolio. 
Specifically, S. 1222 would allow the Corps to use its unique skills to 
restore and protect estuary habitat and help achieve an economically 
and environmentally sustainable future for the Nation and the world.
Significance of Estuarine and Coastal Areas
    Throughout the world, estuarine and coastal areas serve as focal 
points for human use and development. These same areas also perform 
critical functions from an ecosystem perspective, providing habitat and 
food for myriad fish and wildlife species. Estuaries are unique in that 
they serve as a transition zone between inland freshwater systems and 
uplands, and ocean marine systems. There is an urgent need to protect 
and restore these ecosystems recognizing the economic, social, and 
environmental benefits they provide. As with many environmental issues, 
future generations depend upon our actions today. In this regard, we 
applaud the co-sponsors of S. 1222 for their vision and leadership in 
this area.
S. 1222
    The Department of the Army supports efforts to enhance coordination 
and efficiently finance environmental restoration and protection 
projects. The goal of restoring 1 million acres of estuary habitat by 
the year 2010 is in consonance with the President's Clean Water Action 
Plan and the goal of restoring 100,000 acres of wetlands, annually, 
beginning in the year 2005. We also agree with the philosophical basis 
for the legislation, that estuaries and coastal areas are being 
degraded rapidly, and that there is an urgent need to attain self-
sustaining, ecologically based systems that are integrated into 
surrounding landscapes. The proposed national framework, or national 
estuary habitat restoration strategy, to be completed at the end of the 
first year, should help partners identify and integrate existing 
restoration plans, integrate overlapping plans, and identify processes 
to develop new plans where they are needed. This framework document 
could help us maximize incentives for participation, leverage Federal 
resources, and minimize duplication of efforts. We support the 
requirement to publish the draft strategy in the Federal Register for 
review and comment to enhance public involvement. We believe that the 
legislation is consistent with the National Estuary Program (NEP) which 
was established to manage and protect aquatic ecosystems in coastal 
watersheds. The NEP strives to protect and restore habitat through 
consensus and initiatives which are community-based. The legislation 
also is consistent with the Coastal Wetlands Preservation Protection 
and Restoration Act (CWPPRA), or Breaux Bill, a unique multi-Federal 
and State agency partnership which is working to restore and protect 
approximately 73,000 acres of coastal wetlands in Louisiana over a 20 
year period.
    Thus, with a few important changes, the Department of the Army 
could support S. 1222. First, it is unclear which, if any, agency is to 
lead the Collaborative Council. This language implies a lead role for 
the Department of the Army and directs the Secretary to convene 
meetings. In addition, funds are authorized to be appropriated to the 
Department of the Army for administration and operation of the 
Collaborative Council. Funds also are authorized to be appropriated to 
the Department of the Army to implement estuary restoration and 
protection projects. While S. 1222 does not explicitly state the intent 
of Congress, the Department of the Army is prepared to take a 
leadership role if that is the desire of the Congress.
    In order to maintain consistency and avoid confusion, I strongly 
recommend that the legislation be amended to 65 percent Federal cost 
sharing in accordance with WRDA 1986, as amended, especially since the 
bill states that estuary restoration projects could be implemented 
under section 206 of WRDA 1996 on Aquatic Ecosystem Restoration. As 
noted in the legislation, successful implementation of estuary habitat 
restoration projects will depend upon partnerships. At the heart of 
partnerships are the beneficiary pay reforms, especially cost sharing, 
which were first included in WRDA 1986, and expanded upon in subsequent 
WRDAs. These reforms allowed local sponsors the opportunity to be 
active participants in the water resources development process, thereby 
revitalizing the Army civil works program. Cost sharing serves as a 
market test of a project's merits, ensures active participation by 
project sponsors and beneficiaries, and ensures project cost 
effectiveness. We have found it to be an eminently successful policy. 
We are concerned that S. 1222 deviates from the basic cost sharing 
policies established in the WRDAs for environmental restoration 
projects, and that the variation in range of possible Federal cost 
shares, from 25 to 65 percent, could cause confusion amongst the 
public.
    Section (d)(1) of S. 1222 states that the Collaborative Council 
shall not select an estuary habitat restoration project until each non-
Federal interest has entered into a written cooperation agreement in 
accordance with section 221 of the Flood Control Act of 1970. This 
requirement was developed with flood damage reduction projects in mind, 
and provided the Federal Government with some measure of certainty that 
non-Federal sponsors were fully recognized public bodies empowered to 
act on the behalf of constituencies, and to assume certain financial 
and legal obligations. Our experience is that while the need to meet 
section 221 requirements are still valid for most civil works projects, 
there are situations where these requirements eliminate very good 
potential non-Federal sponsors from consideration. For example, certain 
well-known and established environmental organizations could serve as 
sponsors for environmental restoration projects envisioned by this 
legislation. Environmental projects often differ significantly from 
flood damage reduction projects in that structural measures are kept to 
a minimum. These projects are formulated to simulate natural functions 
and values and often result in projects with minimal or no operations 
and maintenance requirements. Finally, many environmental restoration 
projects are located in areas where project operations pose no threat 
to human life or property. For all of these reasons, the Corps has put 
policies in place to enable consideration of non-governmental 
organizations for section 1135 projects (Project Modifications for 
Improvement of the Environment), and our WRDA 1998 proposal contains a 
provision that would amend section 206 of WRDA 1996, Aquatic Ecosystem 
Restoration, and a provision that would amend section 204 of WRDA 1992, 
Beneficial Use of Dredged Materials, to also allow the Corps to 
consider, where appropriate, non-governmental organizations (NGO) as 
sponsors for environmental restoration and protection projects. Because 
of the similarities between these environmental authorities, we 
recommend revising S. 1222 to allow NGO's to sponsor estuary habitat 
restoration projects. Further, we recommend that the Collaborative 
Council make recommendations to the Secretary of the Army on case-by-
case bases.
    Turning to the factors to be taken into account in establishing 
criteria for determining project eligibility, we recommend that the 
legislation require a consideration of the quality and quantity of 
habitat restored in relation to overall project cost. For environmental 
restoration projects implemented by the Corps, decision criteria of 
this kind tend to force a discipline to into the plan formulation and 
benefit analysis process that facilitates achieving optimal project 
designs. The criteria help benchmark performance reviews, and stand as 
a context for describing tradeoff decisions. A requirement to address 
both quality and quantity of habitat restored would provide that 
information required to evaluate performance, at both the project and 
program levels, and facilitate production of bi-annual reports tied to 
the national estuary restoration strategy.
    Many environmental restoration techniques and approaches are new, 
and when dealing with natural systems, there is a need to test new 
ideas, learn from successful projects and not so successful projects, 
and manage adaptively to adjust to ever-changing conditions. Adding a 
demonstration component with a cost share that is consistent with the 
rest of the program, and a requirement for non-Federal sponsors to 
manage adaptively, would encourage the partners to try out new ideas, 
and learn more about how to restore and protect estuary and coastal 
areas. Environmental restoration efforts for the Florida Everglades, 
the Upper Mississippi River System Environmental Management Program, 
and the Breaux Bill, all acknowledge, to varying degrees, the value of 
demonstration projects and adaptive management approaches.
    The Army Civil Works program plays a critical role in providing and 
maintaining water resources infrastructure to meet future needs in 
consonance with other national priorities and a balanced budget. We try 
to avoid creating false hope by not authorizing projects that we cannot 
reasonably expect to fund or complete within a reasonable timeframes. 
In light of the $20 billion backlog of ongoing Corps construction 
projects, and other authorized projects awaiting construction, the 
dollar magnitude for new projects and programs in the Administration's 
proposal for WRDA 1998 was constrained. Thus, while we could support 
being involved in a program to restore and protect estuaries and 
coastal areas, we are concerned that this new program could negatively 
impact other new and ongoing projects and programs which have been 
carefully prioritized and evaluated for phased implementation over a 
period of years. We are committed to a sustainable long-term 
construction program and more timely project delivery to non-Federal 
sponsors. The Administration's proposal for a new harbor services fee 
is one means to help address these funding constraints.
                               conclusion
    The Corps has been increasingly involved in recent years with 
efforts to protect and restore the benefits of estuaries and their 
surrounding habitat. We are especially proud of our efforts in 
conjunction with the Coastal America initiatives. Some examples of 
actions where the Corps, using its available programs, was in the lead 
for multi-agency, multi-level efforts (Federal, state, local and 
private) include restoration of a coastal salt marsh area in the 
Galilee Bird Sanctuary, Rhode Island; the initial demonstration area 
for restoration of tidal wetlands in the Sonoma Baylands, California; 
and, the Sagamore Salt Marsh Restoration, Massachusetts. Our fiscal 
year 1999 budget request includes study funds for 10 potential projects 
directed at protecting or restoring the benefits of estuaries, as well 
as funding for many other activities that would be beneficial to the 
environment in or adjacent to our Nation's estuaries.
    My staff and I have enjoyed working with you and your staff on S. 
1222 and other legislation before your committee, including a 1998 
WRDA. We look forward to continuing this relationship as work on this 
important legislation continues. The Department of the Army is looking 
forward to working with the Departments of Commerce, Agriculture, 
Interior, and Transportation, and the U.S. Environmental Protection 
Agency to restore and protect our nation's aquatic resources as 
outlined in the President's Clean Water Action Plan. Mr. Chairman, this 
concludes my testimony. I would be pleased to answer any questions you 
or the committee may have.
                                 ______
                                 
  Response by Michael Davis to Additional Question from Senator Chafee
    Question. One of the principal goals of the legislation I 
introduced, S. 1222, is to create partnerships between all of the 
federal agencies that oversee estuaries; among federal, state and local 
governments; and between the public and private sectors. Often, the 
notion of ``partnership'' is easier to develop in theory than to 
execute in practice. Do you have any recommendations for what we could 
do to ensure that a true partnership is carried out at all levels?
    Answer. The Army would approach implementation of S. 1222 in 
accordance with policies and procedures which grew out of the Water 
Resources Development Act (WRDA) of 1986, subsequent WRDAs, and long-
standing partnership and public involvement practices. We would 
recommend looking to models of successful partnerships established for 
the Florida Everglades, coastal Louisiana, San Francisco (CALFED Bay 
Delta), the Upper Mississippi River, to name a few, and adapting 
aspects of those models when implementing of S. 1222. You can be 
assured that Army Civil Works is committed to making partnerships work, 
and that the cost sharing principles established in WRDAs enhance 
greatly the effectiveness of partnerships for water resources projects.
                               __________
 Statement of H. Curtis Spalding, Executive Director of Save the Bay, 
                          Inc. Providence, RI
    On behalf of Save The Bay's 20,000 members, I would like to thank 
Senator Chafee and the Committee for this opportunity to present 
testimony in support of S. 1222, the Estuary Habitat Restoration 
Partnership Act. Save The Bay is a member-supported nonprofit 
organization. Our mission is to restore and protect Narragansett Bay 
and its watershed.
    Five years ago, over 20 nonprofit organizations met to discuss the 
future challenges for our nation's estuaries and to set a course of 
action to meet those challenges. Many of our coastal areas were 
beginning to reap the benefits of the Clean Water Act. In Narragansett 
Bay, harbor seals and oysters were starting to return after decades of 
absence due to polluted water. Despite similar limited recoveries in 
many of our nation's estuaries, we shared a deep concern that many 
species of fish, birds and other animals were not recovering as we had 
expected. Also troubling, some coastal areas not previously affected by 
water pollution were now in serious decline.
    After months of inquiry and discussion, we saw that the problem 
with the health of our estuaries was no longer grossly polluted water, 
but the ongoing loss of habitat for fish, birds, shellfish and plants 
along our shorelines and in our watersheds. Thus in late 1994, Restore 
America's Estuaries was formed. It is a current partnership of 11 
nonprofit organizations from Seattle to Galveston to the Gulf of Maine. 
Over the past 4 years, each organization has identified and targeted 
the habitat resources in its own estuary and coastal environment that 
are threatened and in need of restoration. Restore America's Estuaries 
has pledged collectively to restore one million acres of habitat to our 
nation's estuaries by the year 2010.
How the Estuary Habitat Restoration Partnership Act Will Restore 
        America's Estuaries
    An important word in the title of this legislation is 
``partnership.'' It is a lesson we have learned well in Narragansett 
Bay communities. Over the past 3 years we have provided technical 
assistance to many neighborhood associations, conservation commissions, 
golf course managers and land trusts to help them restore their local 
salt marshes or eelgrass beds, which are Narragansett Bay's most 
threatened habitat resources. People care so much that they are 
volunteering their time and energy to restore these areas. Save The Bay 
trained these volunteers to research the Bay's salt marshes. Local 
community groups have adopted local salt marshes and eelgrass beds. We 
connected them with the other groups and agencies that could help them 
accomplish their restoration goals. We have helped these groups get 
things done by educating them about coastal restoration and helping 
them apply for and win funding from existing government grant programs. 
The measure of our success, although in its beginning stages, is our 
willingness to be a true partner with these local activists. These are 
not ``Save The Bay'' habitat restoration projects, they belong to the 
community.
    The one barrier to greater success is the lack of a coordinated and 
unified program at the Federal level to help facilitate and fund 
community based restoration projects. And there are limited resources 
on all levels of government. In Portsmouth, Rhode Island, a 
neighborhood association struggled for 5 years through a maze of 
regulation, amassing funds from several government and private programs 
and overcoming government inertia to help restore five acres of salt 
marsh. A similar restoration effort in Narragansett took 8 years. 
Unfortunately, the current agency structures do not encourage habitat 
restoration and in fact are an active deterrent. The only encouraging 
point on local restoration projects in Rhode Island is that these 
efforts have been rewarded. Rarely seen wildlife and healthy coastal 
and estuarine habitats are returning to Rhode Island's coastline. But 
the struggle to design, fund and coordinate these projects is too long 
and too costly for most volunteer organizations and community groups to 
sustain.
    The Estuary Habitat Restoration Partnership Act can change this 
situation by making effective use of limited resources. The bill will 
help coordinate many overlapping plans and programs and bring down the 
barriers to habitat restoration. The bill places a strong emphasis on 
moving on-the-ground restoration projects forward quickly, as opposed 
to funding more plans and studies that tend to be collect dust in 
government libraries.
The Situation in Narragansett Bay
    Why do we need this bill to become law as soon as possible? Because 
the foundation of life in Narragansett Bay is in critical condition. 
The Bay's natural systems its eelgrass beds, salt marshes and fish runs 
which allow it to function healthfully, are severely damaged or 
disappearing. For example, we have only about 100 acres of eelgrass 
left in the Bay, which once supported thousands of acres. Eelgrass 
prevents shoreline erosion, filters pollution, and provides clear 
water, food, shelter, nurseries and breeding grounds to shellfish, 
juvenile lobsters, and young fish. About half of our salt marshes have 
been lost. What we have left is degraded and getting worse. Salt 
marshes are nurseries for many species, help prevent erosion and filter 
toxins from our water. Flounder, striped bass, mussels, scallops, 
fiddler crabs and scores of birds rely on salt marshes for some or all 
of their lives. We have only 15 functioning fish runs left in Rhode 
Island. To survive, many fish must be able to get to fresh water to 
spawn. One of our Bay's greatest fisheries the Atlantic salmon now can 
only be read about in books, due to the destruction of their fish runs. 
We must turn the tide soon, and begin to repair decades of damage and 
neglect or it may be too late.
    Narragansett Bay is not just a place where the fresh water of the 
rivers meets the salt water of the ocean. It is a place that shelters 
and nurtures a complex web of life. From the smallest creatures living 
in its mud to the seals that migrate here for the winter, the Bay is 
home to hundreds of species. Plants and animals including humans depend 
on each other and form what we call the ``web of life'' in Narragansett 
Bay.
    We can compare Narragansett Bay to the human body. The decline in 
our eelgrass, salt marshes and fish runs are warning signs, not so 
different from changes in a person's vital signs. We would not ignore a 
loved one's complaint of chest pains, shortness of breath or numbness 
in their arms and legs because these are signs of a potentially deadly 
heart attack or damaging stroke. Likewise, we cannot ignore the Bay's 
symptoms. If eelgrass, salt marshes and fish runs continue to decline 
and disappear, the Bay will be little more than an empty body of water. 
The Bay life that depends on these areas the lobster, shellfish, birds, 
fish and plants will disappear. Necessarily, many people who make their 
livelihoods off the Bay will have to find other work. This is not the 
kind of Bay we want or should leave for our children.
Crashing Fish Stocks
    The most evident sign that the Bay's web of life is unraveling is 
the near collapse of many Narragansett Bay fisheries in the past twenty 
years. Many fish populations are in decline despite improvements made 
to control toxins and water pollution. Despite stricter management of 
commercial fishing, fish populations have not recovered.
    Although much of the decline in Bay fisheries can be attributed to 
over-fishing, the loss of eelgrass beds and salt marshes is preventing 
any significant recovery of fish stocks. Eelgrass beds critical to 
thriving Bay fisheries have dwindled to only 100 acres remaining in 
Narragansett Bay. A 1988 report by the Rhode Island Department of 
Environmental Management (RIDEM) estimated that between 1965 and 1982, 
Rhode Island lost over 850 acres of coastal salt marshes about 20 
percent of the marsh we had in 1965. We are now feeling the pain of 
ongoing habitat loss.
    Save The Bay has focused our attention on three critical habitats 
in Narragansett Bay which are most in jeopardy underwater eelgrass, 
salt marshes and fish runs. Restoring these critical habitats is 
essential if we are to sustain the myriad of Bay creatures that depend 
on them.
Eelgrass Beds A Flagship for Life in Our Bay
    Eelgrass is:
    <bullet> an underwater marine plant;
    <bullet> a primary source of food for hundreds of Bay plants and 
animals;
    <bullet> a critical nursery and shelter for shellfish and finfish;
    <bullet> a supplier of clear water; and,
    <bullet> a guard against shoreline erosion by dampening waves and 
currents.
    (Batiuk et al 1992, Thayer et al 1975, Short and Short 1984).
    Eelgrass, one of 50 kinds of seagrass, is a marine plant that lives 
completely underwater. Eelgrass is one of the most diverse and 
productive underwater habitats found in the United States and Europe. 
Eelgrass can form large meadows or small separate beds, which range in 
size from many acres to just a yard across (Burkholder and Doheny, 
1968). The largest remaining meadow in Narragansett Bay borders the 
eastern shore of Jamestown and covers about 25 acres. Found in depths 
from 3 feet to 20 feet, eelgrass growth and survival is dependent on 
clear water and strong sunlight.
    Eighty species of worms, mollusks, crustaceans, echinoderms, 
fishes, reptiles, and birds depend on eelgrass as a food source (McRoy 
and Helfferich 1980; Thayer et al. 1984). This list of dependent 
species includes economically important finfish and shellfish species 
such as summer and winter flounder, weakfish, blue crabs, rainbow 
smelt, bay scallops, blue mussels and spotted seatrout. Research has 
demonstrated that eelgrass provides higher survival rates for juvenile 
American lobster than rock or mud habitat types (Barshaw and Bryant-
Rich 1988).
    Eelgrass loss can have devastating consequences. Eelgrass decline 
led to the extinction of the eelgrass limpet (a type of snail) in the 
1930's, one of the few marine species extinction known in this century. 
Our disappearing eelgrass has been a primary cause of the collapse of 
brant geese populations in the Bay. Brant geese depend on eelgrass as a 
primary food source.
    Eelgrass loss also has dire economic consequences. The loss of 
eelgrass in Narragansett Bay led to the collapse of the bay scallop 
fishery in Rhode Island. The bay scallop fishery has been nonexistent 
in Rhode Island since 1957, primarily due to the loss of eelgrass beds. 
The bay scallop needs eelgrass as a settling area and as a refuge for 
mature scallops (Pohle et al. 1991). There is a neighborhood in Warwick 
along Greenwich Bay that used to be known as ``Scalloptown'' because so 
many scallop fishermen lived and worked there. Greenwich Bay and other 
northern locations in Narragansett Bay once supported hundreds of acres 
of eelgrass and healthy bay scallop populations. Eelgrass restoration 
in Narragansett Bay could contribute to the revival of the once 
thriving commercial bay scallop fishery. Eelgrass restoration can also 
help rebuild other commercially important fisheries. More than 20 types 
of commercially valuable fish feed in the eelgrass beds of Narragansett 
Bay at some point in their lives including winter and summer flounder, 
lobsters and tautog.
    Restoration is possible. Efforts to re-establish eelgrass have 
taken place over the last three decades. The National Marine Fisheries 
Service believes Narragansett Bay has a high potential for eelgrass 
restoration, based on its historical distribution and a concentration 
of scientific and academic resources in the region (Fonseca, et al, 
NMFS, 1994). Active restoration through transplanting began in 
Narragansett Bay in 1994. Both the National Marine Fisheries Service 
and the University of Rhode Island have identified and transplanted 
eelgrass in sixteen separate sites in the Bay. While these efforts have 
had limited success due to a variety of factors including predators 
grazing the transplanted stock, storm damage and the relative low 
density of transplanted eelgrass, research and experiments with 
improved methods of restoration should continue.
    Although poor water clarity poses the greatest problem for eelgrass 
restoration, we can take steps to correct this problem. The eelgrass 
beds which remain in the Bay offer hope that areas of the Bay may be 
able to host transplants. But, taking no action is not acceptable. The 
clear water that is necessary for restoration is also critical to 
saving the eelgrass remnants still clinging to Narragansett Bay. 
Ultimately, we must improve the conditions for eelgrass immediately if 
we are to save this vital thread in the Bay's web of life.
Salt Marshes A Place of Bountiful Plants & Creatures
    A salt marsh is:
    <bullet> a nursery and spawning ground for two-thirds of the United 
States' major commercial fish;
    <bullet> the largest producer of basic food per acre anywhere on 
earth;
    <bullet> a nursery for 63 species of fish in Narragansett Bay; and,
    <bullet> a shoreline stabilizer and shield against coastal storms.
    (Lieth, 1975; Teal & Teal, 1969; McHugh, 1966; Dept. of Interior, 
1989; Knudson et al, 1982)
    Salt marshes provide enormous economic and environmental benefits. 
Approximately two-thirds of the United States' major commercial fish 
depend on estuaries and salt marshes for nursery or spawning grounds 
(McHugh 1966). Among the more familiar salt marsh-dependent fishes are 
menhaden, bluefish, flounder, sea trout, mullet, croaker, striped bass 
and drum. At least 63 fish species use Narragansett Bay as a nursery, 
with the highest use in the fall (Department of the Interior, 1989). 
Salt marshes are also important for shellfish including bay scallops, 
soft-shell clams, grass shrimp, blue crabs, oysters, quahogs and other 
clams. Blue crabs and grass shrimp are especially abundant in the tidal 
creeks that feed salt marshes. Salt marshes produce more basic food 
energy per acre than any other known ecosystem including tropical 
rainforests, freshwater wetlands or agriculture fields (Lieth, 1975 and 
Teal & Teal, 1969).
    Salt marshes protect private property by shielding coastal 
shorelines from storms and by dampening the power of waves, which 
stabilizes the shoreline (Knudson, et al. 1982). While most wetland 
plants require calm or sheltered waters, established salt marsh grasses 
are effective against erosion (Kaldec & Wentz, 1974; Garbisch, 1977).
    Restoration of salt marshes may help protect our health as well. 
Rhode Island is home to 42 different mosquito species. The salt marsh 
mosquito, along with three other species, is known to carry the Eastern 
Equine Encephalitis virus and transmit it to humans, horses and other 
mammals. Large populations of these mosquitoes can present an increased 
health threat to humans. To breed and develop, mosquitoes need standing 
water. In the 1930's ditches were dug through many of Rhode Island's 
salt marshes in a vain attempt to eliminate standing water on the 
marshes. Not only did the ditches fill in with debris creating larger 
mosquito breeding areas, but also restricted nature's best mosquito 
control larvae eating minnows and other fish from reaching the mosquito 
breeding grounds. Ditching, in most cases, created a larger problem 
than previously existed. Old mosquito ditches are affecting most of the 
Bay's salt marshes. Restoration is necessary to remove the ditches and 
help nature control mosquito populations and the Eastern Equine 
Encephalitis virus.
    Despite all of these important benefits, we recruited over 80 
volunteers to survey the health of Rhode Island's remaining salt 
marshes. Their findings are alarming and demonstrate the existing 
threats to Rhode Island's salt marshes. Seventy percent of the Bay's 
remaining salt marshes are affected by restrictions to the daily ebb 
and flow of tides, reducing their ability to support Bay fisheries. 
Over 60 percent of the salt marshes show signs of dumping or filling. 
Mosquito ditches drain over 50 percent of the marshes. About 1,200 of 
the 3,800 remaining acres of Bay salt marshes are impacted by invasive 
plant species such as the tall common reed, phragmites. Phragmites can 
grow to over 10 feet tall, block shoreline vistas and pose a fire 
hazard when they die in the winter and early spring leaving dry plant 
material close to coastal homes. Nearly thirty percent of our remaining 
salt marshes have no protection from polluted runoff from lawns, golf 
courses and parking lots. About 58 percent of Narragansett Bay marshes 
suffer from the polluted discharges of storm drains.
    Restoration is feasible and the only way to bring back the marshes. 
Successful salt marsh restoration efforts have occurred in many New 
England states including Rhode Island, Massachusetts and Connecticut. 
In Massachusetts, salt marshes north of Boston have been restored 
through an innovative mosquito control program called ``Open Marsh 
Water Management.'' This technique involves re-creating the natural 
water conditions in the marsh thus allowing mosquito-eating minnows to 
survive in tidal pools and creeks. Connecticut has reopened many Long 
Island Sound marshes to the normal ebb and flow of tides halting the 
growth of invasive phragmites in the process. Locally, Rhode Island 
began restoring the marshes at the Galilee Bird Sanctuary by scraping 
off old dredge spoils, opening culverts, and recreating tidal creeks. A 
community-sponsored marsh restoration was recently completed at Common 
Fence Point in Portsmouth. The project involved removing dredge spoils 
and re-grading a five-acre area of phragmites to allow salt marsh 
grasses to re-colonize the area. Since the completion of the project in 
the fall of 1997, plants and animals are beginning to return to the 
area. Many community groups throughout Rhode Island want to restore 
salt marshes, but lack the necessary funding and technical support.
Fish Runs A Legacy of Vanishing Abundance
    A fish run is:
    <bullet> a freshwater river or stream that runs directly to the 
Bay;
    <bullet> the place where native herring, salmon, smelts and shad 
return each spring to spawn; and,
    <bullet> the spawning grounds for herring stocks that are an 
important food source for striped bass, bluefish, herons, otter and 
osprey.
    (RIDEM, 1996; Desbonnet & Lee, 1991)
    River herring, Atlantic salmon, rainbow smelt, sturgeon and 
American shad depend on fish runs for survival. These are saltwater 
fish that are hatched in freshwater, but mature and spend most of their 
lives in the Bay or the ocean. These fish must return to the freshwater 
rivers and streams where they were born in order to spawn. Narragansett 
Bay previously supported commercially valuable Atlantic salmon and 
alewife (river herring) fisheries. River herring are a primary food 
source for striped bass whose continued recovery is dependent on 
increasing sources of food. The Atlantic salmon fishery was short lived 
in Narragansett Bay after the industrial revolution began harnessing 
the power of the Blackstone, Ten Mile and Pawtuxet Rivers. The salmon 
were effectively blocked from returning to the waters of their birth. 
The Blackstone and Pawtuxet each ended up with one power producing dam 
for every mile of river by the middle of the 19th century. The Atlantic 
salmon was eliminated from its Bay spawning runs by 1869 (Goode, 1887).
    The commercial herring fishery depended on Rhode Island fish runs. 
As with the Atlantic salmon, the herring fishery declined, but managed 
to linger much longer. Herring do not need the same type of river 
conditions as salmon. They attempted to adapt to other rivers and 
streams that were not dammed in the southern areas of the Bay. 
Commercial harvesting was forced to a halt in Narragansett Bay by 1930 
because of declining fish stocks. A few areas still support small runs 
of river herring including Gilbert Stuart Brook in North Kingstown and 
the Annaquatucket River in North Kingstown. The largest and healthiest 
herring and shad run in Narragansett Bay is on the Nemasket River in 
Massachusetts a tributary of the Taunton River where over one million 
fish came to spawn in 1996 (pers. comm, P. Brady).
    But many fish runs remain obstructed. In Rhode Island and 
Massachusetts combined, there are 27 rivers that could be spawning 
grounds for herring, shad and Atlantic salmon. Only two of these river 
systems were never harnessed for water power or water supply and host 
small native runs of herring. Ten more rivers have fishways any 
structure that allows fish to swim over dams, including fish ladders to 
help herring and shad pass over dams and swim to spawning areas. But 15 
are still closed to spring fish runs of herring, shad and salmon. Among 
these 15 rivers are three of the top five freshwater tributaries of 
Narragansett Bay the Blackstone, Pawtuxet and Ten Mile rivers.
    There are a number of steps we can take to restore our fish runs. 
We can remove unnecessary dams and build fish ladders over dams that 
must remain. We also can restore streams and improve water quality to 
make these rivers and streams once again hospitable to fish runs.
What this Crisis Means to Rhode Islanders
    On September 22, 1997 Senator Chafee came to a small boat yard in 
Narragansett Bay to announce the introduction of the Estuary Habitat 
Restoration Partnership Act (S. 1222). This legislation is a vital 
component in our efforts to bring back healthy conditions not only in 
Narragansett Bay but in Chesapeake Bay, Long Island Sound, Puget Sound 
and many of the other vital estuaries of the United States. At that 
press conference Senator Chafee said, ``Narragansett Bay is good for 
the soul.'' No truer words had ever been spoken about the meaning of 
Narragansett Bay to all Rhode Islanders.
    Narragansett Bay is our home. Even if we live miles from its 
shores, it is part of what makes Rhode Island special. The Bay is our 
lifeline it nourishes our environment, strengthens our economy, 
enhances our leisure time and protects our children's futures. We need 
to care for the Bay and invest today in its health and very survival. 
This investment will help ensure a secure future for Rhode Island.
    Narragansett Bay is an engine for Rhode Island's economy. It is 
estimated that Narragansett Bay generates $2.4 billion in annual 
revenue from marine and Bay related activities (estimates, Rorholm and 
Farrell, 1994). Commercial fishing and the tourism industry are major 
contributors to our state economy. Restoration is a small investment to 
keep this economic engine running.
    Commercial fishing is estimated to generate $42 million dollars for 
the Rhode Island economy each year. For many communities, the 
harvesting of quahog, fish and shellfish is central to a healthy local 
economy. The fishing industry understands the importance of balancing 
the needs of industry with ecological concerns. Fishermen realize the 
need to restore Narragansett Bay to give the fish and shellfish they 
harvest an ability to replenish and thrive. Without restoration, the 
fishing industry's future in Rhode Island is uncertain.
    No one understands this more than Paul Bettencourt and Don Dawson 
of Pawtcuket, RI. Like two gruff midwives, these graying fishermen 
assist in the final leg of an otherwise impossible spawning journey by 
dipping a long-handled scoop net beneath the foam and magically lifting 
a half dozen squirming, blueback herring above the roaring mouth of the 
Ten Mile River. They help the herring upstream into Omega Pond beyond 
the salt waters of the Bay a task these fish have been unable to 
accomplish themselves for many generations. They do this because they 
have witnessed the consequences of disappearing fish runs firsthand. As 
a young man, Paul Bettencourt made a living harvesting herring for bait 
for other fishers angling for striped bass, lobsters and blue fish. 
Paul now refers to himself as a living ``dinosaur.''
    But restoration means much more than helping fishermen. In 1993, 
for the first time in Rhode Island's history, the travel and tourism 
industry surpassed manufacturing to become the state's second largest 
industry. In 1997, tourism brought in over $2 billion to the state. 
Narragansett Bay is key to that industry. People come to Rhode Island 
from all over the world to enjoy the beauty and splendor of 
Narragansett Bay. Whether sailing Bay waters or fishing for striped 
bass this resource is an enormous treasure for residents and visitors 
alike. An increasingly unhealthy Bay will lose its appeal.
    Narragansett Bay is part of our lives. Tony Giardino knows this. 
Born just south of Naples, Italy, Tony came to Rhode Island in 1927. 
Fishing trips with his dad at Narragansett Pier sparked a lifelong 
passion for the sport and the Bay. Tony's Barbershop, a fixture on 
Providence's Hope Street for the last fifty years, is a great place for 
a haircut and stories about the big ones that did not get away 
including his 58-+ pound striper. When Tony learned to fish, flounder 
was almost always the fish of choice they were plentiful and did not 
put up much of a fight, once hooked. But the Rhode Island tradition of 
teaching kids to fish by catching flounder is fading fast and, without 
adequate restoration measures, may soon be gone forever. Tony taught 
his kids to fish by first catching flounder but says now it is ``pretty 
much a waste of time'' to take his grandchildren in search of flounder. 
``They're just not out there anymore,'' says Tony. ``I am worried that 
the flounder are disappearing and I think it is a shame that I cannot 
teach my thirteen grandkids to fish for flounder.''
    Narragansett Bay is as important to our future as it has been to 
our past. We can leave our children a Bay that gives them the pleasure 
of discovering the wonders of a summer beach by collecting seashells 
and tasting fresh baked clams and scallops. We can pass on the 
opportunity to swim in the Bay's waters or hear the rustle of reeds in 
the salt marsh. We can afford them the thrill of landing their first 
mighty bluefish. We can guarantee them the joy of seeing a heron 
fishing in a salt marsh or saluting the rising moon. We can allow them 
to see a quahogger working a rake. All of these opportunities are part 
of our Rhode Island and national heritage, part of our past and 
present. These opportunities can be a part of our future if we make a 
commitment to restore Narragansett Bay and all of the other nation's 
estuaries great and small.
    Make no mistake. Narragansett Bay and most of our nation's 
estuaries are in crisis. Rhode Island and many other regions have only 
a limited time to take action and resolve this crisis. If we do not 
restore America's estuaries soon, many fish, plant, and bird species 
may become extinct in this country. With this disappearance, the United 
States will lose many jobs that depend on these species and our quality 
of life will plummet.
    In conclusion, Save The Bay applauds the leadership of Senator 
Chafee on this critical issue. The need is so great and the situation 
so precarious that to delay at this point would certainly mean greater 
losses for our coastal environment, our economy and our quality of 
life. Twenty-six colleagues of Senator Chafee, from both sides of the 
aisle, also understand this grave situation and have signed on as co-
sponsors. If we truly want to restore our nation's fisheries, preserve 
our coastal heritage and improve our economy we must give our Federal 
Government agencies the opportunity to actually help with this task. 
Not just with more funding but with tools to break down the barriers of 
bureaucracy and to build partnerships with local community efforts. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Responses by Curtis Spalding to Additional Questions from Senator 
                                 Chafee
    Question 1. Much of what our efforts in the past have focused on, 
with respect to water quality for estuaries and other waters, is 
pollution prevention, not habitat restoration. How do you see the two 
actions, protecting the resource from further degradation, and nursing 
the resource back to health, interacting to reach the larger goal of 
improving overall water quality?
    Response. Save The Bay and indeed all RAE member organizations 
believe that protection and active habitat restoration are two sides of 
the same coin of environmental health for our estuaries. While it is 
true that much effort and resources have been devoted to pollution 
prevention and better waste treatment technology, the science of 
habitat restoration is just beginning to explore and test new 
techniques. One of the most compelling arguments for linking 
restoration and protection efforts is the remarkable connections that 
habitats provide in estuaries and other waters. For example, underwater 
seagrasses, once established, create the ideal physical, biological and 
chemical conditions for more seagrass to grow. They also provide 
invaluable benefits to the overall water quality such as filtration of 
sediments and nutrients as well as dampening waves. Coastal and 
riparian wetlands provide not only habitat for fish and other wildlife 
but also ``pollution prevention'' services to the rivers and coastal 
waters they border. They trap sediment, filter runoff and control 
coastal and riverbank erosion. In this way, coastal habitats offer 
their own unique ``pollution prevention'' services that enhance our 
considerable investment in engineering-based pollution prevention.

    Question 2. What is the biggest challenge that Save The Bay has 
faced in getting habitat restoration projects of the ground? Is it 
working with government agencies, lack of funding or something else?
    Response. Our biggest challenge in Rhode Island is getting 
technical assistance to local restoration efforts. We literally have 
dozens of groups ready and willing to initiate local restoration 
projects but without the biology, engineering and design expertise most 
of these projects will have to wait perhaps years to get going. The 
state has yet to make either a financial or policy commitment to 
coastal and estuarine habitat restoration. There is no ``Office of 
Habitat Restoration Assistance'' where these groups can go for help. We 
have helped a few groups cobble together a package of technical 
assistance, design work and funding. Funding can also be an issue. It 
not so much that there isn't enough, it's a matter of finding it and 
knowing how and where to apply.
                               __________
Statement of JoAnn Burkholder, Professor and Pew Fellow, North Carolina 
                            State University
A Former Marine Fisheries Commissioner's Perspective
    Salt marshes, underwater grasslike meadows filled with shellfish. 
mangrove forests, and quiet, open waters with rich fisheries are what 
come to mind for people when they consider estuaries, the natural areas 
where rivers meet the sea. But the reality of this view has rapidly 
changed in the past several decades. Different scenes now inundate us 
with the ``signs of the times'' . . . of elderly folk's remembrances of 
times when a rowboat filled with fish could be taken within an hour, in 
areas where fish are now rare; of commercial fishermen who acknowledge 
overfishing pressures involved with fish declines, but who seem to have 
no voice when they question why their fish nursery grounds have 
received another sewage outfall, of why yet another coastal river that 
was classified as an ``outstanding resource'' has been destroyed by the 
newest subdivision. As Chair of the Habitat & Water Quality Committee 
on North Carolina's Marine Fisheries Commission, I had no answer for 
them because in that state, and many others, fisheries are managed 
``separately'' from water quality issues, and the respective 
commissions that governed these issues had not once met in the decades 
since they had been formed.\1\
    The overall economic value of our estuaries is significantly 
underestimated because estuaries provide many ``intangible'' services, 
as well as tangible goods such as seafood. . . . One acre of tidal 
estuary has been calculated to equate the operation of a. $115,000 
waste treatment plant (1984 figure, consumer price index 103.9; 
adjusted for 1997, CPI 160.6; increase of 54.6 percent--Dr. J. Foley, 
natural resource economist, Norm Carolina State University) in 
pollutant filtering/removal capabilities.\2\ The total land value, 
alone, of estuarine habitat has been estimated at about $128,000 per 
acre when fish production is factored into consideration. By 
comparison, 1 acre of prime farmland in Kansas was valued at $1,800 
with an annual production value of $900.\2\ Estuaries are also among 
the most productive ecosystems in the world. U.S. estuaries and coastal 
wetlands provide spawning grounds for 70 percent of our seafood 
including shrimp, salmon, oysters, clams and haddock, with associated 
jobs for millions of people. \2\
    In their position along the land-water margin of our coastal zones, 
estuaries are known to be highly vulnerable to human pressures. 
Estuaries receive most of the excessive loadings of pollutants that 
reach marine environments.\3\ As a result, these waters and the fish 
and waterfowl that directly depend on then have been seriously impacted 
by sediment erosion from adjacent land development; microbial pathogens 
from septic leachfields, urban runoff and land disturbance; excessive 
nutrients from untreated or poorly treated sewage; oil spills from 
common boating practices as well as major incidents; pesticides from 
cropland and lawn runoff, and other stressors.\4\ These impacts are 
exacerbated by often-dramatic changes in hydrology within the 
watersheds that estuaries ultimately service. Extensive (among and 
channelization of freshwater rivers completely altered the natural salt 
balance Us many estuaries, as well as the volume of water supplied.\5\ 
Ditching and filling in of salt marshes and other wetlands in estuarine 
ecosystems move pollutants into receiving rivers quickly and 
directly.\1\ Pollutant loadings are on the increase in many coastal 
areas of our country,\2\ coinciding with exponential human population 
growth and associated loss of the wetlands which acted as a filter to 
protect the rivers that drain them.\6\ Over half of the worldly 
population already live within a 100-mile radius of a coastline, a 
pattern that includes our country. \6\ More than half of our coastal 
habitats have been destroyed or damaged by dredge/filling and by waste 
contamination, including many of the sea-grass beds that are vital 
habitat for commercially important finfish and shellfish.\2\ \7\ A 
steadily increasing proportion of our coastal wetlands and adjacent 
creeks that provide vitally important habitat for our shell fisheries 
have disappeared as coastlands are developed. Many of those that remain 
look healthy . . . but then, one rices the posted signs that prohibit 
fishing for Oysters or clams because the shellfish have filtered out 
too many pollutants from adjacent lands, and would no longer be safe 
for human consumption. Overall across the nation' only about half of 
our shellfish waters are now ''clean'' enough to produce edible 
seafood.
    These are the overt, easily noticed ``signs of the times.'' But 
other, more subtle human influencing on estuaries will likely prove 
much more serious in the near future, unless we support measures such 
as S. 1222, in order to better equip ourselves to combat them. 
Scientists understand acute or obvious, severe impacts of pollutants on 
fish and other wildlife supported by estuaries. By contrast, little is 
known about the chronic or sublethal impacts of many of our actions on 
fisheries and other important estuarine, resources. Repeated research 
on all coasts of our country has shown that fish from waters near major 
human population centers have suppressed immune systems, higher 
incidence of bleeding sores, gonadal tumors and other diseases, and 
other serious health impairment relative to fish in cleaner waters. . . 
. Physiological stress in fish that lead to decreased growth, 
reproduction, survival of young, and long-term survival of adults has 
been demonstrated from small amounts of pollutant such 49 pesticides, 
petroleum compounds, and trace metals, over longer time internals.
    Such toxic substances (as caustic chemicals) would be expected to 
cause adverse impacts. However, even the effects of more pollutants 
that are regarded as relatively ``benign,'' such as nutrient over-
enrichment--especially of nitrogen and phosphorus, the same kinds of 
nutrients that would be used to fertilize house plants--are proving to 
be much more serious than had previously been suspected. The foundation 
of the food web in aquatic ecosystems is algae. These plants are open 
microscopic, and they have enormous surface area relative to their 
small size. Bathed in their water environment, algae have easy access 
to dissolved nutrients. They can be stimulated by extremely small 
levels of nutrient supplies, micro-quantities in comparison to how we 
typically think about in adding nutrients, which is by the pound (for 
lawn fertilizer) or the ton (for our crops) Thus, aquatic ecosystems 
are highly sensitive to nutrient loading, and too many nutrients often 
translates into noxious blooms of algae as estuaries are shifted out of 
their natural balance. Although algae are generally good for estuaries, 
nutrient over-enrichment from sewage, cropland runoff, lawn runoff, 
animal wastes, and other sources can stimulate too much algal growth. 
At night the respiration of these small plants--millions of which can 
be contained in a few drops of water--can rob the oxygen from the water 
and cause fish kills. Such conditions increasingly characterize many of 
our estuaries. This description is especially true of many quiet 
lagoons or upper embayments with poor water exchange/renewal, where 
nutrients have time to stimulate substantial algal growth before they 
are flushed from the system. Too many algae can block light from 
reaching beneficial underwater seagrass meadow habitat for our 
fisheries. Without enough light, the seagrass meadows disappear, ant 
such habitat loss has been strongly correlated with devastating 
declines in commercial fisheries.\7\
    The proliferation of algal overgrowth that shade out and destroy 
seagrass beds is an obvious impact of nutrient over-enrichment. 
However, the following two examples illustrate other more subtle but 
serious impacts of chronic nutrient enrichment on aquatic ecosystems. 
In the first case, recent research has demonstrated a more subtle 
impact of nitrate loading on the most important seagrass habitat 
species on the north temperate coasts of the U.S., namely eelgrass or 
Zostera marina. Very small amounts of nitrate loading to the overlying 
water, given daily for several weeks can cause these plants to die as a 
direct toxic effect, unrelated to algal overgrowth.\7\ Zostera is 
highly sensitive to nitrate loading (e.g. from septic effluent 
leachate) because, surprisingly, it has no way to stop nitrate uptake 
through its leaves, For thousands of years, historically this plant was 
accustomed to nitrogen-depauperate coastal waters. The ability to take 
up nitrate, day or night, through the plant leaves--nitrate from storm 
runoff or other sudden, unexpected source--may once have represented a 
great advantage in nitrogen-limited waters over other plants that 
generally cannot Me up nitrate in darkness. However, with increased 
coastal nitrate loading from human activities, our most important north 
temperate seagrass now appears to be seriously disadvantaged because of 
this ``strategy'' to take up nitrate at all costs, whenever it is 
available in the water. The excessive nitrate uptake is rather 
analogous ``too much candy''--it is not good for these plants. It 
forces Zostera to direct most of its energy and other nutrient 
supplies, such as carbon, into amino acid production, even when it does 
not need the amino acids. Thus, too much nitrate--at concentrations 
that would be regarded as very low, relative to current conditions in 
many estuaries that drain increasingly urbanized watersheds--drives 
Zostera into severe internal imbalances in other nutrients, which can 
lead to death. This phenomenon was first reported in 1992. The full 
extent of damage to eelgrass meadow habitat from chronic exposure to 
elevated water-column nitrate has only begun to be examined.\7\
    A second compelling example of subtle but serious impacts of 
nutrient (both phosphorus and nitrogen) over-enrichment to estuaries 
clearly has direct implications for human health. In 1991, I led a 
research team that discovered the toxic dinoflagellate, Pfiesteria 
pisicida, as a causative agent of massive estuarine fish kills.\9\ At 
sublethal, chronic levels the toxins a from Pfiesteria can also cause 
major incidence of fish disease, in which millions of fish can be 
affected with large open, bleeding sores. The affected fish often die, 
but more slowly and much less noticeably than would be detected in an 
obvious, acute kill in which fish accumulated at the water surface. 
Moreover, chronic exposure to small amounts of Pfiesteria's toxins over 
days to weeks may cause much more serious problems at the fish 
population level than an acute fish kill that affects a small number of 
fish relative to the total population size.\10\ The known range of 
chronic end sublethal impacts from these toxins on fish, thus far, 
includes several immune system suppression, unpaired reproduction, 
significantly depressed survival of the young, destruction of the 
osmoregulatory system (i.e., fish cannot control their salt balance, 
which is very serious in the changing salinity environment 
characteristics of estuaries), and large-scale disease. Such impacts 
suggest that Pfiesteria's toxins seriously damage the ability of fish 
to reproduce, and of young as well as adult fish to survive or fight 
disease.
    These impacts of Pfiesteria on fish health--even the obvious 
impacts that can be visually observed through major fish kills--have 
only been known for less than a decade, because of this organism's 
rapid ``attack/retreat'' behavior which made it difficult to detect and 
track.\9\ Two other important points of information were gained within 
the past 5 years, which clearly illustrate that Pfiesteria can be 
stimulated by human activities, and that chronic or sublethal exposure 
to Pfiesteria's toxins merit concerted attention and action--because 
these toxins can impair the health of people, as well go fish. First, 
we determined that Pfiesteria can be strongly stimulated by nutrient 
over-enrichment from multiple apthropogenic sources such as human 
sewage, animal wastes, cropland and town fertilizer runoff\10\ \11\ 
Second, we learned that people who are exposed to toxic cultures of 
Pfiesteria, or to toxic outbreaks where fish me diseased or dying from 
Pfiesteria can be seriously hurt just by inhaling the overlying 
air.\12\ \13\
    Production of airborne neurotoxins had not previously been known 
for toxic dinoflagellates. Before this unusual feature of Pfiesteria 
was determined, people who worked with dilute toxic cultures Of fish-
killing Pfiesteria without protection from airborne toxins sustained a 
suite of effects.\12\ Short-term impacts (hours) included narcosis, 
nausea, vomiting, burning eyes and skin, blurred vision, severe stomach 
cramping and acute respiratory difficulty. Longer-term impacts (weeks 
to months) included severe headaches, open sores that heal slowly 
(months) and do not respond to antibiotics, and impairment of all three 
nervous systems--central, peripheral, and autonomic. Lingering impacts 
(years) have included easy infections suggestive of a compromised 
immune system, certain visual impairment, episodes of foggy memory, and 
peripheral autonomic nervous system dysfunction. The central nervous 
system impacts to laboratory workers from Pfiesteria's toxins were most 
striking, and involved severe cognitive impairment and short-term 
memory loss. Imagine what it is like to appear normal, but to have no 
idea, of where you are, to be unable to put words into sentences, or to 
understand English. You have lucid moments in which you are gripped 
with fear because you realize that something is terribly wrong; then 
you slide back down. As you begin to recover, you must take reading 
lessons to be able to read again. Imagine life style changes--that even 
after you are able to test normally for learning and memory, you must 
compensate because you have lost the ability to process information as 
quickly as you could before the illness occurred, and you do not 
recover it. Imagine not being able to strenuously exercise because when 
you try, you develop severe bronchitis or pneumonia. Consider what it 
would be like to be a fairly young, energetic person who must be on 
antibiotics more than a third of the year, 5 years after being affected 
. . . what it would be like to watch as increasingly potent antibiotics 
do not help you recover from the most recent, nearly constant illness, 
and to fear the prospect of reaching the point at which the most potent 
antibiotics no longer can help. The above writing describes the lives 
of several laboratory workers, ongoing five to 7 years following 
exposure to dilute, field densities of toxic Pfiesteria culture.
    The first clinical evaluations of people exposed to small toxic 
outbreaks of Pfiesteria in estuaries were completed in late summer 
1997.\13\ The resulting impact that were documented on learning and 
memory function were described by health officials as ``profound.'' 
About 85 percent of the fishermen who had been in these toxic outbreak 
areas for 6-8 hours per day, for several weeks or more, tested in the 
lower 8 percent of the U.S. population for learning ability and memory, 
once corrected for age and education and about 75 percent of the 
examined fishermen tested in the lower 2 percent of the U.S. population 
in cognitive functioning ability. The documented impacts were striking 
even for people with minor exposure--25 percent of the people who were 
examined after they took a boat ride through a toxic outbreak, or stood 
on a bridge over an affected area, tested in the lower 8 percent of the 
U.S. population in their ability to learn and remember. Most of the 
affected people had recovered and were able to test. at least, in 
normal range for cognitive ability and memory function within 3 months 
following exposure. However, 20 percent of the fishermen who had been 
exposed longest to the toxic outbreaks were unable to test normally 
until 6 months after their last exposure. Although they recovered to 
normal testing range, much of the 6-month interval remains ``lost''--
they have no memory of it, and that period likely will remain lost as 
it has for the exposed laboratory workers.
    Such impacts from Pfiesteria, stemming from nutrient over-
enrichment to quiet estuarine waters, were completely unanticipated. 
Many scientists, having carefully evaluated all of the known 
information data on Pfiesteria, are now considering a sobering 
hypothesis, that Pfiesteria represents the first of such ``hidden'' or 
previously unknown microbial pathogens to have been discovered as we 
inadvertently continue, through excessive pollutant loadings, to shift 
estuaries from their natural balance. As scientists, we may have done 
the ``easy part,'' that is, we previously recognized aquatic microbes 
that cause obvious problems for fish or human health, but a new group 
may be emerging that counts Pfiesteria among its first known 
representatives. What is clear, at present, is that this example of 
subtle but serious impacts from water quality degradation in our 
estuaries unites the issues of estuarine water pollution, fish health, 
and human health. For the sake of our own health as well as the health 
of our fisheries, we must move beyond the obvious to gain much sponger 
appreciation for The subtle but serious impacts of our actions in 
degrading water quality and otherwise altering estuarine habitats.
    Exponential human population growth in many coastlands of our 
county is projected to continue for at least the next two decades.\2\ 
Thus, balancing the enormous economic grown along our coastlands with 
conservation practices--that is, wise use of our coastal resources--is 
a challenge that is both immediate and pressing. We have not been 
winning this battle, and we can do much better. S. 1222 represents a 
major, exciting step toward meeting this challenge.
Estuary Restoration: Maximizing Progress
    As a scientist who has acted in policy evaluation, in positions 
shalt were appointed by both republican and democratic Governors, I 
have long considered the question of how to maximize progress in 
improving the quality of our estuaries. I regard the partnership, cost-
sharing approach outlined in S. 1222 as highly constructive in bringing 
all stakeholders together, from industries and municipalities to 
individual citizens, in working to achieve this overall goal. Within 
that context, the suggestions offered here include four major areas of 
emphasis, and stem from my earlier efforts in contributing to a policy 
document with similar focus.\1\
    Certain efforts are critically needed to maximize progress in 
restoration of our nation's estuaries. First, we should accelerate 
river and watershed cleanup through a strong incentive program. This 
cleanup effort needs to incorporate alternate/improved methods of waste 
disposal that reduce point source pollutant loadings (e.g., 
encouragement of adequate methods of land application, plant upgradings 
to employ biological nutrient removal techniques). Non-point pollution 
historically has proven much more difficult to control, and a major 
effort must be undertaken to design incentives programs that work for 
farmers, municipalities attempting to control urban runoff, and animal 
production industries, for example. Small-scale contributors, who 
collectively can become significant, should also be a focus of these 
programs, such as homeowners or golf course managers who use 
fertilizers and pesticides in lawn care. Acceleration of river and 
watershed cleanup, additionally, must involve restructuring hydrologic 
flow patterns to restore natural flow patterns in watersheds that drain 
into estuaries. A critical problem facing many coastal areas, and 
already impinging on estuarine ecosystems, is depletion of coastal 
aquifers and other water supplies.\5\ Strong water reuse programs are 
needed as an essential component of estuarine system restoration. 
Coastal reserves should be expanded to further conserve key 
environmental habitats such as estuarine fish nurseries.\1\
    Secondly, success in the above actions will require additional 
information/programs including resource inventories where needed at 
state and local levels, so that baselines can be established where 
needed and progress can be tracked. Such demonstration of progress will 
provide, of itself, a strong incentive to foster sometime difficult 
efforts to achieve continued positive action. Accurate maps of 
submersed aquatic vegetation, wetlands, shellfish beds, nurseries, 
spawning grounds, and other habitats vital to our fisheries should be 
delineated and updated at appropriate intervals.\1\ Programs to 
strengthen protection at these critical habitats should be 
strengthened. Attainment of con of the above goals also will require 
additions answers and information that must be provided by research. 
Examples of research needs include:
    <bullet> development/testing of water reuse techniques to maximize 
effectiveness in specific locations/regions;
    <bullet> design of techniques and models to improve accuracy ire 
quantifying the contributions of various pollutant sources;
    <bullet> development of improved indicators or biosensors of water 
quality and habitat degradation;
    <bullet> assessment of the contribution of groundwater to estuarine 
habitat/water quality degradation;
    <bullet> design of improved techniques to create value-added 
products from various waste sources;
    <bullet> development of improved methods for constructing habitats 
with adequate functioned value to replace lost natural habitats; also 
development of improved techniques for restoring functional value to 
degraded wetlands, seagrass beds, and other vital estuarine habitats 
for our fisheries; and
    <bullet> characterization of the full extent of chronic and 
sublethal impacts from major pollutant loadings on both aquatic 
communities (especially early life history stages) and the health of 
people who live and work near the affected estuarine waters.
    Lastly, but arguably of greatest importance in information 
acquisition is the need to support research in natural resource 
economics, so that the full value of both short-term and the long-term 
goods (products) services (filtering pollutants, flood control, habitat 
provision, aesthetics in attracting, tourism, etc.) that are 
contributed by estuaries can be accurately appraised and imparted to 
our citizens.
    A third major ingredient to maximize progress in restoration of our 
nation's estuaries will be to promote development of comprehensive 
environmental education and outreach programs that begin in pre-school, 
extend to high school and college, and continue to touch all citizens 
throughout their lives.\9\ Such programs are needed in every state from 
the heartland to the coasts--for example, a major body of research now 
indicates that the ca. 700 square-mile zone of low-oxygen that extends 
out from the Mississippi delta along the Gulf Coast of Louisiana has 
resulted, in large measure, from pollution carried, from north-central 
states down the Mississippi River. The receiving estuary is impacted by 
states far removed from coastal Louisiana, and restoration will not be 
possible without understanding, cooperation, and assistance from the 
heartland states 'upstream.' Federal, state and local programs that 
encourage responsible development should be developed/strengthened, 
with the goal of restoring and maintaining the high-quality waters and 
habitat, needed to sustain our fishery resources.
    The fourth major area of emphasis that will be required to minimize 
success in estuary restoration will be to work to both significantly 
improve enforcement of existing laws aimed at conservation (wise use) 
of estuarine resources, and to strengthen legislation where needed.\1\ 
Many laws designed to protect or improve water quality in our rivers 
and receiving estuaries would go far toward achieving widescale 
estuarine restoration, if they were meaningfully enforced. It is 
imperative that the set of tasks that must be undertaken to accomplish 
this goal include development of a strong incentive program to 
encourage all participants to both want to follow existing laws and to 
have the means afforded for that to be possible. Innovative, creative 
programs will be required, and must be developed, to increase the 
funding support that will he needed to achieve this extremely important 
goal. They are within reach;\1\ this country is great, in large 
measure, because of people through our history who have contributed 
creative, constructive thinking in solving major problems. As 
previously mentioned, many impacts on estuaries from human activities 
originate upstream. States should enact/strengthen a freshwater 
wetlands protection statute, similar to those that are available in 
many coastal states for saltwater wetlands. This freshwater wetlands 
statute should provide incentives to private landowners to conserve 
these important habitats for water quality control. Such improvements 
will need to be accompanied by changes in the current ``turfdom'' of 
estuarine resource management in order to achieve a more integrated 
approach among, for example, fishery and water quality managers.\1\
    Efforts are also needed to strengthen the success of the Coastal 
Area Management Act (CAMA). Partnerships at state levels should work to 
create programs to provide the fiscal resources and technical 
assistance to local governments in preparing and implementing high-
quality land use plans.\1\ Moreover, the design of land use plans 
should be altered so that these plans are required to consider the 
cumulative and secondary impacts of growth not only on development of 
the land itself, but also on water quality and water supply. For 
example, at present, land use plans developed under CAMA are not 
require to assess the carrying capacity of adjacent waters to 
assimilate the additional wastes that would be associated with expanded 
community growth and development. The greatest progress in restoring 
our estuaries will be accomplished when that connection can be realized 
in the increasingly urbanized coasts setting.
                               references
    \1\ Coastal Futures Committee (1994) Charting a Course for our 
Coasts--Report to the Governor. Final Report to recommend changes in 
coastal resource policy in North Carolina on the 20th anniversary of 
the Coastal Area Management Act. North Carolina Department of 
Environment, Health & Natural Resources, Raleigh, 106 pp. Note: Dr. 
Burkholder was the only scientist on the committee, and represented the 
North Carolina Marine Fisheries Commission.
    \2\Miller, G.T. (1992, 1997) Living in the Environment. Wadsworth 
Publishing Company, Belmont (CA).
    \3\ Office of Technology Assessment (1987) Wastes in Marine 
Environments. U.S. Congress, OTA-0-334. U.S. Government Printing 
Office, Washington, DC.
    \4\Kennish, M.J. (1994) Practical Handbook of Marine Science, 2d 
edn. CRC Press, Boca Raton, LA.
    \5\Postel, S. (1997) Last Oasis--Facing Water Scarcity. W.W. Norton 
& Company, New York, NY.
    \6\Bryant, D. E. Rodenburg, T. Cox & D. Nielsen (1995) Coastlines 
at Risk: An Index of Potential Development-Related Threats to Coastal 
Ecosystems. World Resources Institute, Washington, District of 
Columbia.
    Deichmann, U. (1996) A Review of Spatial Population Data base 
Design and Modeling. National Center for Geographic Information and 
Analysis Technical Report 96-3 (March). Santa Barbara, California.
    \7\ Burkholder, J.M. K.M. Mason & E.J. Glasgow Jr. (1992) Water-
column nitrate enrichment promotes decline of eelgrass Zostera marina: 
evidence from seasonsal mesocosm experiments Marine Ecology Progress 
Series, vol 81, pp. 163-178.
    Dennison, W.C., R.J. Orth, K.A. Moore, J.C Stevenson, V. Carter, S. 
Kollar, P.W. Bergstrom & R.A. Batiuk (1993) Assessing water quality 
with submerged aquatic vegetation. BioScience, vol. 43, pp. 86-94
    \8\Sindermann, C.J. (1996) Ocean Pollution--Effects on Living 
Resources and Humans. CRC Press, Coca Baton, LA.
    \9\Burkholder, J.M., H.J. Noga, C.W. Hobbs, H.B. Glasgow Jr. & S.A. 
Smith (1992) New ``phantom'' dinoflagellate is the causative agent of 
mayor estuarine fish kills. Nature, volume 358, pp. 407-410; and 
mature, vol. 359, p. 760.
    \10\ Burkholder, J.M. (1997) Implications of harmful marine 
microalgae and heterotrophic dinoflagellates in management of 
sustainable fisheries. National Academy of Sciences special issue on 
sustainable marine fisheries. Ecological Applications Supplement, vol. 
8, pp. S37-S62.
    \11\Burkholder, J.M. &. H.B. Glasgow Jr. (1997) Pfiesteria 
piscicida and other Pfiesteria-like dinoflagellates: Behavior, impacts, 
and environmental controls. Limnology & Oceanography, vol. 42, pp. 
1052-1075
    \11\Boesch, D.F. (ed.) (1997) The Cambridge Concensus--Forum on 
Land-Based Pollution and Toxic Dinoflagellates in Chesapeake Bay. 
University of Maryland, Cambridge.
    \12\Glasgow, H.B. Jr., J.M. Burkholder, D.E. Schmechel, P.A. Tester 
& P.A. Rublee (1995) Insidious effects of a toxic dinoflagellate on 
fish survival and human health. Journal of Toxicology & Environmental 
Health. volume 46, pp. 101-122.
    \13\Grattan, L.M., D. Oldach,. T.M. Perl, M H. Lowitt, D.L. 
Matuszak, C. Dickson, C. Parrott, R.C. Shoemaker, M.P. Wasserman, J.R. 
Hebel, P. Charache & Job. Moms Tr. (1998) Problems in learning and 
memory occur in persons with environmental exposure to waterways 
containing toxin-productng Pfiesteria or Pfiesteria-like 
dinoflagellates. The Lancer (accepted).
                                 ______
                                 
 Statement of J. Walter Milon, Professor, Food and Resource Economics 
                   Department, University of Florida
    Chairman Chafee and Members of the Senate Environment and Public 
Works Committee: I thank you for the opportunity to present a brief 
summary of research on the economic value of the Indian River Lagoon, 
an estuary of national significance and part of the Environmental 
Protection Agency's National Estuary Program. The information presented 
here is derived from a study I coordinated as part of a team organized 
by Apogee Research Inc., a nationally recognized leader in 
environmental and natural resource economics. This study was sponsored 
by the Indian River Lagoon National Estuary Program (IRLNEP) and the 
St. Johns River Water Management District, the state sponsor for the 
IRLNEP. The study is presented as one documented example of the value 
of estuaries nationwide.
    The Indian River Lagoon, one of the nation's most biologically 
diverse estuaries, stretches 156 miles along Florida's east coast 
spanning Volusia, Brevard, Indian River, St. Lucie and Martin counties. 
These five counties are home to more than 1 million residents and host 
more than 6 million visitors each year. The number of residents in the 
five counties of the Lagoon is expected to increase from 1.25 million 
to 1.54 million between 1995 and 2005--a 24 percent increase in 10 
years.
    In developing estimates of the economic value of an environmental 
resource such as an estuary it is important to consider the scope and 
extent of human activity related to that resource. The accompanying 
Table 2-4 (from Section 2 of the report Economic Assessment and 
Analysis of the Indian River Lagoon which is included as Addendum A) 
shows the scope of activities considered in the Indian River Lagoon 
study. These activities range from traditional economic uses such as 
the value of commercial and recreational harvests from the Lagoon to 
more intangible economic values such as the enhancement of land values 
adjacent to the resource and individuals' values for preserving the 
resource. The full report presents the valuation methodologies and data 
collection used in the study so I will not describe those here.
    The results summarized in Table 2-4 show the importance of the 
Lagoon to the economy of the region in 1995. Recreational fishing by 
residents and tourists was estimated to contribute approximately $340 
million per year; swimming, boating, water sports, and nature 
observation activities around the Lagoon contributed another $287 
million annually. Commercial harvesting of shellfish such as clams, 
oysters, and crabs contributed nearly $13 million annually. In 
addition, residential land values were enhanced by the presence of the 
Lagoon in the amount of approximately $825 million (see Table 2-1 in 
Section 2) which can be expressed as an annualized value of $33 
million. Collectively, the direct values associated with the Lagoon on 
an annual basis amounted to more than $725 million.
    These Lagoon-dependent activities create additional indirect 
impacts on the regional economy. Businesses related to recreation, 
tourism, and fisheries generate nearly $4 billion or about 17 percent 
of total output within the region (see pp. 10--12 of Addendum B). 
Resident and tourist spending for Lagoon related activities accounted 
for more than 19,000 jobs in the region.
    These measures of the economic contribution of the Indian River 
Lagoon can be compared to the costs of implementing the Comprehensive 
Conservation and Management Plan (CCMP) developed as part of the 
IRLNEP. The CCMP includes recommendations to maintain and restore the 
Lagoon through water quality management and habitat protection. These 
costs were estimated to be less than $18 million annually (see pp. 12--
14 of Addendum B) indicating that the costs of sustaining the 
activities dependent on the Lagoon are modest relative to their 
economic contribution within the region. Properly designed funding 
plans could spread these costs equitably so that the average citizen in 
the region would pay no more than $10 per year. In addition, public 
surveys conducted for this study showed that residents would be willing 
to pay more than three times the estimated annual cost to implement the 
CCMP (see Addendum A, pp. 2-12--2-13).
    The results of this study, while limited to a single estuary, help 
to illustrate the economic importance of estuaries in regional 
economies and the linkage between environmental quality and economic 
development. The economy of the Indian River Lagoon region depends upon 
the ecosystem services provided by the estuary and future development 
within the region will be linked to adequate maintenance of the health 
of this ecosystem. Studies such as the one I am reporting to you are an 
integral link in helping citizens and public officials understand the 
relationship between the health of estuaries and local economies (see 
Addendum C for a supporting statement from the St. Johns River Water 
Management District).
    I hope this information will be useful to the Committee. I will 
gladly provide you with any details about this study or any other 
information about economic valuation of environmental and natural 
resources that would assist the committee in its deliberations.
                                 ______
                                 

         Addendum A to the Written Statement of J. Walter Milon

    ``Estimated Economic Value of the Indian River Lagoon in 1995''

   section 2 of economic assessment and analysis of the indian river 
           lagoon--natural resource valuation of the lagoon.
 report submitted to the finance and implementation task force, indian 
   river lagoon national estuary program by apogee research, inc. in 
  association with resource economics consultants, inc. january 1996.

                              Introduction

The Indian River Lagoon as an Economic Asset
    The Indian River Lagoon is many things to many different people: it 
offers unique vistas of tropical habitats and barrier islands; it 
supports a diverse array of flora and fauna; it attracts people to 
live, visit, and enjoy the region's natural amenities; it supports 
industries and jobs from renewable resources; and, in its entirety, it 
is one ofthe most unique ecosystems in the United States.
    Some may assert that it is highly presumptuous to assume that 
economic value can measure the worth of this ecosystem to society.
    There are several reasons why a measure of economic value for the 
Indian River Lagoon is useful and indeed critical to the success of 
proposed resource management programs. First, in a society that 
frequently gauges the importance of objects and places by their 
monetary value, information about the economic value of a natural 
resource may enhance public understanding of the contributions that 
resource makes to the community. Second, information about the economic 
value of the Lagoon can help to establish priorities for the use of 
public funds to maintain its value. Finally, and perhaps most 
importantly, economic value information is necessary to evaluate the 
economic merits of action plans developed by the Management Conference 
for the Comprehensive Conservation and Management Plan (CCMP).
    Economic value information presented in this volume is based on 
both primary (newly collected for the specific purposes of this study) 
and secondary data (collected previously for other studies). Where 
applicable secondary data were available from previous economic or 
biologic studies or surveys of Indian River Lagoon, those data were 
utilized. However, in at least three areas existing data were 
insufficient or inadequate and required the collection of primary data:
    <bullet>  A critical lack of data for all types of recreational 
activities (fishing, swimming. boating, nature study) within the 
Lagoon. Most ofthe available data did not identify if these activities 
occurred within the Lagoon or in the adjoining Atlantic Ocean.
    <bullet>  No activity- and site-specific estimates of the nonmarket 
values associated with recreational activities within the Lagoon.
    <bullet>  No estimates of passive use values ofthe Lagoon.
    In order to provide the necessary primary data, two separate 
surveys were conducted. A telephone survey collected information from 
residents of Volusia, Brevard, Indian River, St. Lucie and Martin 
Counties, while an intercept survey collected information from 
nonresident visitors. Visitors were surveyed at Sebastian Inlet State 
Park, Ron Jon Surf Shop in Cocoa Beach. Melbourne International 
Airport, Mangrove Mattie's at Ft. Pierce Inlet, and the Kennedy Space 
Center. The data collected in the surveys were used to develop:
    1. Participation rates and economic values for recreational 
activities in the Lagoon by both area residents and nonresident 
visitors;
    2. Estimates of willingness to pay for Lagoon restoration and 
management programs; and
    3. Estimates of passive use values.
    The survey results, questionnaires and methodology are summarized 
in this section and described in detail in Section 3 and Appendices 3-A 
through 3-E.
    Other elements of the economic valuation of the Indian River Lagoon 
summarized in this section address three areas:
    1. The effects of riverfront location on residential property 
value, discussed in Section 4,
    2. The value to recreational anglers of access to the Lagoon and of 
increased catch rates for their targeted species, discussed in Section 
5, and
    3. The value of commercial shellfishing for Lagoon-dependent 
species, discussed in Section 6.
    The following subsection introduces concepts important to 
understanding economic valuation.
Types of Economic Value
    The broadest, and perhaps most straightforward, distinction to make 
in economic valuation is between market and nonmarket values. Market 
values are the most common type of dollar values measured because 
market values result from the normal day-to-day transactions for 
private goods such as food, clothing, and household goods. Market 
values are relatively easy to identify as long as information is 
available about the total volume of the transactions.
    On the other hand, nonmarket values are values that people have for 
goods they enjoy but for which there are no explicit transactions to be 
monitored and therefore no readily available dollar values from such 
transactions. For example, when a recreational angler decides to fish 
in the Lagoon, he or she derives value from the fishing experience yet 
does not have to make an explicit payment for the right to fish (other 
than a license, if required). The fact that the angler does not pay for 
the right to fish is a result of the ``public good'' nature of the 
Lagoon. That is, the Lagoon is not owned by any entity, rather it is a 
resource held in common by the public. By way of comparison, if the 
angler had instead decided to go bowling, he would have had to pay for 
the recreational activity according to the time of participation (e.g., 
number of frames or games). The amount the angler would be willing to 
pay to fish is the proper measure of the nonmarket value of 
recreational fishing in the Lagoon. But, since no transaction actually 
occurs, some method must be used to identify this nonmarket value.
    Recreational fishing also provides a good example of an activity 
that has both market and nonmarket value components. Since the angler 
may incur certain expenses to go fishing in the Lagoon (e.g., bait, 
fuel expenses, and equipment), he has revealed a willingness to pay the 
market price for goods and services that accompany the fishing 
experience. This is a measure of the market value of recreational 
fishing. Combining this market value with a measure of the nonmarket 
value yields the total economic value of recreational fishing, 
generally

    Total Economic Value = Market Value + Nonmarket Value

    Many activities that utilize the resources of the Lagoon such as 
recreational boating, swimming, and nature study have both market and 
nonmarket values. Therefore, a complete valuation of the Lagoon must 
consider the total economic value whenever appropriate. Some 
activities, however, may be fully valued in the market and have no 
nonmarket value component. Other activities, such as passive viewing of 
the Lagoon or a concern that the resources of the Lagoon continue to 
exist for future generations (referred to as existence value), have no 
market value component and would be measured solely by nonmarket value.
    A second important distinction in the types of economic values is 
between direct and indirect values. Direct values are the result of an 
explicit. causal linkage to an activity. For example, the sales of fish 
landings of the commercial fishing industry is an expression of the 
value of the waters and especially the quality of the water of the 
Indian River Lagoon since the industry harvests the commercially 
valuable (market) products of the marine ecosystem. Similarly, 
recreational anglers' activities have a direct value that is explicitly 
linked to the Lagoon. On the other hand, indirect values are less 
explicit and difficult to link with resources. For example, a boat 
manufacturer located near the Lagoon may have higher sales due to 
recreational boating activities on the waters of the Lagoon. But the 
Lagoon has only an indirect value to the manufacturer because boats can 
be sold in other markets or used in other water bodies and the 
manufacturer's output is not tied as directly to the Lagoon as is the 
commercial fisherman's output.
    This report addresses only the direct economic values of human 
Lagoon-related activities. as indirect values are beyond the scope of 
the study. The analysis includes both market and nonmarket uses of the 
Lagoon, and estimates in Section 3 a passive use value from willingness 
to pay data collected in the surveys of residents and nonresident 
visitors.
    Economic values for recreation activities and passive use developed 
from the surveys are based on the contingent valuation method (CVM). 
This widely applied method uses survey questions to elicit people's 
values for goods and services that are not provided through traditional 
market processes. The questions are typically designed to measure an 
individual's willingness to pay for a good or service, whether enjoyed 
actively or passively. The question format may be developed to create a 
hypothetical market or a hypothetical referendum. The hypothetical 
referendum is designed to elicit from the respondent an estimate ofthe 
increase in his or her value resulting from a choice, such as 
supporting increased stormwater management for Lagoon environmental 
quality improvement. \1\ This referendum format was used in both the 
resident and nonresident surveys.
---------------------------------------------------------------------------
    \1\ Questions asked respondents directly what he/she would be 
willing to pay in the form of an increase in local taxes for certain 
programs to improve Lagoon environmental quality.
---------------------------------------------------------------------------
    The hypothetical referendum applied to estimate a willingness to 
pay for Lagoon CCMP programs by its nature generates somewhat 
subjective dollar values. Because the individual is responding to an 
interview rather than an actual purchasing or decision-making 
situation, his or her statement of willingness to pay is made without 
an actual consideration of affordability or ability to pay. The 
respondent does not have to open a wallet or check book before stating 
a willingness to pay. He probably does not consider what purchases he 
may have to delay or forego in order to state his willingness to pay. 
Willingness to pay estimates of dollar value are therefore 
approximations.
    The following four subsections of Section 2 describe the analytical 
approach and the results of the economic valuation:

    <bullet>  Lagoon riverfront location effects on residential 
property value;
    <bullet>  Market and nonmarket value of resident and nonresident 
recreational activities;
    <bullet>  Resident and nonresident willingness to pay for Lagoon 
environmental quality; and
    <bullet>  Market value of commercial fishing.
    A fifth subsection assembles and summarizes economic values.

                 Lagoon Riverfront Residents Land Value

    The influence of the presence and environmental quality of a 
waterbody, particularly in coastal areas, on the value of adjacent or 
nearby land is significant. The value that people have for the Lagoon 
is partially capitalized \2\ in the prices of land in proximity to the 
Lagoon with the result that land parcels located near or on the 
riverfront can be expected to command higher prices than parcels 
further from the riverfront. Both market and nonmarket values, such as 
the aesthetic value of the Lagoon view, may be capitalized in land 
value. The difference between the aggregate value of land near or on 
the Lagoon riverfront and the aggregate value of parcels more remote 
from the riverfront is an approximate measure of the capitalized value 
that people have for the Lagoon.
---------------------------------------------------------------------------
    \2\  Capitalized value may be defined as the present value of a 
stream of benefits obtained from the land over the anticipated 
ownership period.
---------------------------------------------------------------------------
    To approximate the capitalized value, the study obtained appraised 
residential-use land value data developed by county property 
appraisers. The staff of Volusia, Brevard, Indian River, Indian River, 
St. Lucie and Martin counties provided parcel counts and appraised land 
values for riverfront and nonriverfront residential use property. 
County data files permitted only riverfront land to be distinguished 
from nonriverfront land; the value effects of location near, as opposed 
to on, the riverfront could not be estimated. The analysis performed 
with the data addresses the impact on land value only and not 
improvements to land. \3\
---------------------------------------------------------------------------
    \3\ An analysis of the effect of riverfront location was not made 
for improvements to land because of the uncertainty in the data 
introduced by the wide variation in improvements. Nevertheless, the 
value of improvements made to riverfront residential properties is 
informative. Appraised value of improvements to riverfront property 
range from $431 million in Brevard County to $89 million in St. Lucie 
County. The total appraised value of improvements aggregated across the 
five counties is approximately $1.17 billion. Since these appraised 
values are approximately 85 percent of market value, the aggregate 
market value of improvements is about $1.4 billion. In contrast to 
values for land alone discussed above, the value of improvements is 
only partially attributable to riverfront location.
---------------------------------------------------------------------------
    As shown in Table 2-1, in the five-county region the difference in 
residential land appraised value attributable to Lagoon riverfront 
location is approximately $700 million. Considering that the county 
appraised land values are approximately 85 percent of estimated market 
value, consistent with Florida Department of Revenue Guidelines, \4\ 
the difference in residential land market value attributable to Lagoon 
riverfront location would be about $825 million ($700 million divided 
by 0.85). This figure is an underestimate ofthe actual influence ofthe 
Lagoon on land values since it includes residential riverfront only and 
not all land in proximity to the Lagoon.
---------------------------------------------------------------------------
    \4\ Florida Administrative Code 12D-8002 (4).
---------------------------------------------------------------------------
    On a county-by-county basis, as Shown in Table 2-1, the difference 
in appraised land value attributable to the Lagoon ranges from $304 
million in Brevard County, which includes about half of the length of 
the Lagoon system, to $69 million in St. Lucie County. In the case of 
Volusia County, about half of the north-south dimension of the county 
is within the Lagoon region and half is within the Halifax River 
Region; therefore half, or $100 million, of the total Volusia County 
difference in appraised land value attributable to estuaries and their 
tributaries is included in the aggregate $700 million.
    In order to compare the capitalized land values with other annual 
dollar flows estimated in this study, the land values must be converted 
to annual dollar flows. These approximate capitalized values may be 
converted to annual flows by the simple exercise of multiplying the 
capital value by a discount rate that represents the time value of 
money. That is, the discount rate selected should exclude risk and 
inflation expectations normally contained in market interest rates. A 
risk-free interest rate is represented by 30-year U.S. government 
bonds. As of August 31, 1995, the 30-year bond rate was 6.6 percent. 
\5\ This rate is adjusted to exclude inflation expectations by 
deducting the 1994 rate of inflation, or 2.6 percent. \6\ Therefore the 
analysis used a discount rate of 4.0 percent (6.6 less 2.6) to convert 
capitalized land values to an annual flow. The annualized total market 
value of riverfront location is approximately $33 million ($825 million 
multiplied by 0.04).
---------------------------------------------------------------------------
    \5\ Wall Street Journal, 31 August 1995.
    \6\ Carol McLarty, oral communication, 8 September 1995. Bureau of 
Economic and Business Research, University of Florida.
---------------------------------------------------------------------------
    Another approach to examining the difference in value attributable 
to Lagoon riverfront location is to develop certain ratios for 
comparison. A ``value indicator'' may be constructed by relating 
percentage of value and percentage of parcel count for both riverfront 
and nonriverfront land. as detailed in Section 4 of this report. The 
ratio of the value indicator for riverfront land to that for 
nonriverfront land relates the relative value of the two locations. 
Table 2-2 summarizes the results of this exercise for the five 
counties. Volusia County demonstrates the highest ratio of riverfront 
to nonriverfront value at 8.1 while Brevard County demonstrates the 
lowest ratio at 4.6. In other words, this comparison suggests that 
riverfront land in Brevard County is 4.6 times as valuable as 
nonriverfront, while in Volusia County riverfront land is 8.1 times as 
valuable as nonriverfront.
    While land values are not as sensitive to incremental improvements 
in environmental quality of the Lagoon as recreational and commercial 
fishing values, it is clear that a significant value is associated with 
the Lagoon presence. Deteriorating environmental conditions in the 
Lagoon over the long term could negatively affect the value of 
riverfront property.

            Table 2-1. Incremental Value of Residential Land Attributable to the Indian River Lagoon
----------------------------------------------------------------------------------------------------------------
                                                                                    Incremental
                                          Riverfront  Nonriverfront    Average     Value of Land
                 County                    Average       Average        Parcel     Attributable       Market
                                            Parcel        Parcel      Difference   to Riverfront     Value\1\
                                            Value                      in Value      Location
----------------------------------------------------------------------------------------------------------------
Volusia\2\.............................     $132,919       $15,937      $116,981    $100,077,000    $117,738,000
Brevard................................      106,351        23,174        83,177     303,930,000     357,565,000
Indian River...........................      237,197        31,429       205,768      90,949,000     106,999,000
St. Lucie..............................       71,928        12,578        59,350      69,025,000      81,206,000
Martin.................................      212,136        40,389       171,128     137,066,000     161,254,000
    Total..............................     $125,362       $20,548      $104,814  $701,047,000\3
                                                                                               \    $821,762,000
----------------------------------------------------------------------------------------------------------------
\1\Appraised value divided by 85 percent, as discussed in text.
\2\Volusia County entries are adjusted to recognize that roughly half of the north-south dimension of the county
  is within the Lagoon basin (Mosquito River) and half is within the Halifax River basin. Since county parcel
  counts and values could not be separated for the two basins, the total numbers of each are simply divided in
  half. Thus the value of Indian River Lagoon riverfront residential land in Volusia County is estimated at
  $100.1 million, while the total value of all estuarial riverfront land (Mosquito River plus Halifax River) is
  $200.2 million.
\3\The total value calculated vertically will not equal the total calculated horizontally because of statistical
  anomalies in the data. The statistically non-normal distribution of the nonriverfront parcel values reduces
  the average nonriverfront parcel value, which in turn inflates the average riverfront parcel value and the
  average difference. Thus when the average riverfront parcel value is multiplied by the total riverfront parcel
  count, the product is overestimated.


                     Table 2-2. Comparison of Riverfront and Nonriverfront Value Indicators
----------------------------------------------------------------------------------------------------------------
                                                                    Riverfront                        Value of
                              County                                  Value       Nonriverfront    Riverfront to
                                                                    Indicators   Value Indicators  Nonriverfront
----------------------------------------------------------------------------------------------------------------
Volusia..........................................................         7.91               0.98           8.1
Brevard..........................................................         4.21               0.92           4.6
Indian River.....................................................         7.15               0.95           7.5
St. Lucie........................................................         5.46               0.95           5.7
Martin...........................................................          4.9               0.93           5.3
----------------------------------------------------------------------------------------------------------------

                    Value of Recreational Activities

    The two surveys conducted in this study sought to identify the 
types of recreational activities, rates of participation in those 
activities, and value of market expenditures made for those activities 
by both residents and nonresident visitors to the five counties ofthe 
Indian River Lagoon.
    As detailed in Section 3 and associated appendices, a stratified, 
random digit dialing telephone survey of 1,000 adult (at least 18 years 
of age) residents was conducted in February and March of 1995. Two 
hundred interviews were conducted in each county, resulting in sampling 
error rates of + 3 percent for the region and + 8 percent for each 
county (with a 95 percent level of confidence in both cases).
    The nonresident visitor survey was completed during April and May 
1995, using personal interviews with adults who are not Florida 
residents. A total of 500 interviews were completed. producing a 
sampling error rate of + 4.5 percent. Interviews were conducted at five 
popular visitor destinations in the region. Sebastian Inlet, Ron Jon 
Surf Shop, Melbourne Airport. Mangrove Matties and Kennedy Space 
Center. Due to limited information on visitor populations in individual 
counties, the survey results cannot be evaluated for individual 
counties.
Recreational Participation
    Survey results indicate that participation in water-based 
recreation in the Indian River Lagoon is significant for both residents 
and visitors. Resident respondents indicated a 24 percent participation 
rate in recreational fishing and 17 percent in boating, as shown in 
Figure 2-1. Visitors indicated a heavier preference for swimming and 
nature observation, with participation rates at 55 percent \7\ and 48 
percent, respectively, as shown in Figure 2-2. Overall, the results 
indicate that a large share of nonresident visitors associate their 
recreational activities with the Lagoon.
---------------------------------------------------------------------------
    \7\ The swimming participation rate for visitors seems high, 
particularly in comparison with the rate for residents at 9 percent. 
While visitors may correctly report that 55 percent swim in the Lagoon, 
a potential problem could be that visitors did not distinguish the 
Lagoon from the ocean and are really reporting swimming in the ocean. 
This issue is discussed further in Section 3 This high participation 
rate and possible confusion is reflected in a very high dollar value 
for visitor swimming, as discussed below and shown in Figure 2-4.
---------------------------------------------------------------------------
Recreational Value
    Total annual recreational expenditures by residents are estimated 
by multiplying the per person participation rate for each recreational 
activity times each county estimated 1993 population (from the 1994 
Florida Statistical Abstract, Table 1.35). The multiplication product 
is then multiplied by the average respondent-estimated annual 
expenditures for that recreational activity. Total annual recreational 
expenditures by visitors are similarly estimated by multiplying the per 
party estimates given by those surveyed times the total number of 
visitor parties. Resident recreational activities total $256.5 million 
across the five counties, with recreational fishing at $149.1 million 
representing over half of the total as shown in Figure 2-3. The largest 
single activity value for visitors is swimming at $112.2 million, which 
reflects the high participation rate reported, but may also reflect 
some confusion between swimming in the Lagoon and swimming in the 
Atlantic Ocean. Total 1995 visitor recreational expenditures are $230.9 
million, including recreational fishing expenditures estimated at $43.3 
million. Visitor expenditures are summarized in Figure 2-4.
    Combined estimated 1995 recreational expenditures of both residents 
and visitors surveyed total $487.4 million. The combined estimated 
expenditure for recreational fishing and shellfishing alone totals 
$198.5 million, demonstrating the significance of recreational fishing 
in the economic value of the Lagoon. These expenditures for fishing as 
well as the other activities represent the estimated market value of 
the recreational activities, as discussed earlier. Table 2-3 summarizes 
both resident and visitor respondent-estimated expenditures for 
recreational activities in the region (Section 3 and related appendices 
provide more detail).
    While a nonmarket value also exists for all of these activities in 
the form of the value of access to the activities which exceeds the 
cost of the activities (in economic parlance, consumer surplus). 
collecting and analyzing the necessary data is beyond the scope of this 
study. However, because data were already available for recreational 
fishing, the value of access to the Lagoon for resident recreational 
fishing is estimated in this report. The data \8\ utilized were 
collected for the Indian River Lagoon region in 1992. Section 5 
describes in detail the development and application of statistical 
techniques known as random utility travel cost models with which the 
value of access is estimated.
---------------------------------------------------------------------------
    \8\ Marine Recreational Fishing Statistical Survey, 1992, developed 
by the National Marine Fisheries Service. National Oceanic and 
Atmospheric Administration, with an add-on component titled the 
University of Florida Participation Survey. See J. W. Milon and E. M. 
Thunberg, ``A Regional Analysis of Current and Future Florida Resident 
Participation in Marine Recreational Fishing (Report SGR-I 12).'' 
University of Florida, Gainesville, FL: Florida Sea Grant, 1993.
---------------------------------------------------------------------------
    Using travel cost model techniques, the annual value of access to 
the Lagoon for recreational fishing by residents is estimated to range 
from $589 per angler in Martin County to $110 per angler in Se. Lucie 
County. Extending the per angler values across 1995 county populations 
and participation rates yields a total nonmarket access value of $140 
million per year for recreational fishing in the Indian River Lagoon.

  Table 2-3. Estimated 1995 Expenditures for Lagoon-Related Recreation
                          (Millions of Dollars)
------------------------------------------------------------------------
                                                                Total
            Activity                Resident     Visitor    Expenditures
------------------------------------------------------------------------
Fishing and Shellfishing........       $155.2        $43.3        $198.5
Swimming........................         23.7        112.2         135.9
Boating.........................         49.1          9.5          58.6
Nature Observation..............         22.2         65.8          88.0
Water Sports....................          4.8          N/A           4.8
Hunting.........................          1.5          0.1           1.6
    Total Expenditures..........       $256.5       $230.9        $487.4
------------------------------------------------------------------------

    The annual total economic value of resident recreational fishing 
may be approximated by adding the estimated nonmarket access value of 
$140 million to estimated expenditures of $155.2 million. providing an 
estimated $295.2 million for the annual total economic value of 
recreational fishing by residents of the five-county Lagoon region. 
Adding the estimated visitor expenditures for recreational fishing, 
$43.3 million, yields an estimated total value for Lagoon recreational 
fishing of $338.5 million per year. Since this study does not include 
the Lagoon access value to visitors. $,38.5 million is only a partial 
estimate of the total economic value of recreational fishing to all 
anglers enjoying the Indian River Lagoon.

          Willingness to Pay for Lagoon Environmental Quality

Perception of Present Lagoon Environmental Quality
    In the surveys of residents and visitors, respondents were asked a 
series of questions intended to elicit their perceptions of the 
environmental quality of the Lagoon, their opinions of the relate the 
effectiveness of environmental quality programs intended to improve the 
quality of the Lagoon. and their willingness to pay for such programs. 
On a scale of I (excellent) to 7 (very bad). residents rated the 
present condition of the Lagoon at an average of 4.37. Since 4.37 is 
significantly above the scale midpoint of 3.5, this average response 
indicates a public perception that the Lagoon is somewhat deteriorated; 
moreover, a majority of residents indicated that the Lagoon is either 
continuing to deteriorate or staying the same.
    Nonresident visitors, on the other hand, rated the Lagoon quality 
at an average of 2.87. significantly lower than the scale midpoint 3.5. 
This average response indicates a perception that the Lagoon is of 
above average environmental quality. The majority of visitors also 
responded that they had insufficient information to judge whether the 
Lagoon is improving or deteriorating in quality. The results of the two 
surveys show that residents have a more negative view of Lagoon 
environmental conditions than those who visit the area for a short 
time. This may reflect the poorer environmental quality of resources in 
visitors' home regions and/or a ``halo effect'' of the vacation 
experience in which the Lagoon appears highly aesthetic and therefore 
above average in environmental quality because it is an unaccustomed 
sight.
Perception of Lagoon Restoration and Improvement Programs
    The resident survey included descriptions of three action plans 
that are composites of several CCMP action plans. The several CCMP 
action plans were combined into three composites in order to give 
survey respondents a more complete picture and still stay within the 
time constraints of the interviews. The survey asked the respondents to 
give an opinion on the relative effectiveness of those action plans. 
The composite action plans are:

    <bullet>  Wetlands Protection--described simply as enforcing and 
supporting conservation measures to limit development of privately 
owned wetlands;
    <bullet>  Land Acquisition--described as creating a public trust 
fund to buy and maintain wetlands; and
    <bullet>  Stormwater Management--described as limiting storm water 
runoff and improving water quality.

    The composite action plans are discussed in more detail in Section 
3 and Appendix 3-A.
    Respondents indicated that they perceive stormwater management most 
likely to improve environmental quality in the Lagoon. Notably, this 
priority was consistent across all five counties. Land acquisition was 
perceived as the least effective plan, consistently across all five 
counties.
Willingness to Pay for Lagoon Restoration and Management Programs
    Resident willingness to pay for the stormwater management action 
plan was consistent with the indicated perception of the plan's 
potential effectiveness. The average annual household willingness to 
pay for stormwater management is $58. The median value of annual 
household willingness to pay is $40, the amount that 50 percent of the 
respondents would be willing to pay for stormwater management. Land 
acquisition has an average willingness to pay of $33 per household with 
a median of $29, and wetland protection has an average willingness to 
pay of $25 per household with a median of $19. Depending upon the 
action plan, from 68 to 75 percent of respondents indicated their 
willingness to pay for a program to improve the environmental quality 
of the Lagoon.
    The survey questionnaire also presented the three action plans as 
``programs,'' alternatively combining two action plans. Those programs 
which included stormwater management have higher means and medians than 
those programs that do not have stormwater management. As discussed in 
Section 3, the highest respondent annual willingness to pay for such a 
combination is $66 (median $52) for a combined wetland/stormwater 
management program Average willingness to pay for a total combined 
program of all three action plans is $60 (median $30). Overall there 
are relatively rumor differences between the composite plan 
alternatives and the total program' suggesting a maximum amount that 
residents are willing to pay for any program to improve the Indian 
River Lagoon.
    The survey of nonresident visitors asked if they would be willing 
to pay a special tax on lodging and restaurant bills that would be 
earmarked for these programs (note that no such tax is presently 
contemplated). The average willingness to pay per visit by travel group 
or party is $23 (median $25). Of The 500 respondents, 78 percent 
indicated they are willing to pay some increase in tax.
Resident and Visitor Passive Use Values
    The willingness to pay values for both residents and visitors 
represent passive use values associated with the Indian River Lagoon. 
Passive use value represents the preference that individuals may have 
for natural resources such as the Lagoon that is in addition to current 
direct uses of the resource. Passive use values may reflect an 
individual's desire to use the resource in the future, to know that the 
resource is available for others to use now or in the future, or simply 
to know that the resource will continue to exist in its present or an 
improved condition.
    In the case of resident willingness to pay, statistical analysis 
described in Section 3 and Appendix 3-E shows that the estimated values 
are only weakly related to current direct uses of the Lagoon. 
suggesting that nearly all of the estimated willingness to pay may be 
characterized as passive use value. Aggregating the resident respondent 
willingness to pay across the number of households in the region yields 
a total estimated annual resident passive use value of $14.6 million to 
$25.9 million, depending on whether average or median values are used.
    Multiplying the mean nonresident visitor willingness to pay across 
the estimated number of visitor travel groups or parties yields a total 
of $29.9 million. Statistical analysis of nonresident visitor responses 
in Appendix 3-E shows that a smaller share of this total may be 
considered passive use value, as a larger share of their willingness to 
pay is related to direct use motives than is the case with residents.

                   Market Value of Commercial Fishing

    Over twenty species of commercially valuable shellfish and finfish 
have traditionally been harvested from the Indian River Lagoon or are 
dependent upon the Lagoon during some stage of their development. The 
annual dockside value of the landings of both shellfish and finfish was 
$12.8 million in 1992 and $17.0 million \9\ in 1994.
---------------------------------------------------------------------------
    \9\ Unpublished data, Florida Marine Research Institute, Florida 
Department of Environmental Protection.
---------------------------------------------------------------------------
    As of July 1, 1995, gill and entangling nets are prohibited in 
Florida waters as the outcome of a 1994 voter referendum This study, 
therefore, considers the market value of only those commercial species 
which can be legally harvested: clams, blue crab (hard and soft shell), 
shrimp, and oysters. Of the total 1992 landings, approximately $8.4 
million or 66 percent was contributed by these four species. Of the 
total 1994 Endings, $12.6 million or 74 percent was contributed by 
shellfish (the increase is due almost exclusively to an increase in 
clam harvests). The 1994 landings total of $12.6 million is used in 
this study to estimate the contribution of commercial fishing to the 
1995 total economic value of the Lagoon.
    Section 6 of this report develops a statistical model based on the 
historical relationship between submerged aquatic vegetation and 
shellfish landings. The model is applied to simulate increases in value 
of shellfish landings based on assumed increases in coverage of the 
Lagoon floor with submerged aquatic vegetation and increases in the 
reconnection of mosquito impoundments with the Lagoon. The model and 
projected values can be used to estimate the change in value of the 
commercial fishery in response to improved water quality and seagrass 
coverage but are not a direct input to estimating the present, 1995 
economic value ofthe Lagoon.

      Estimated Economic Value of the Indian River Lagoon in 1995

    The economic values estimated in this study are composed of:

    <bullet>  Annual expenditures for recreational activity and the 
nonmarket value of access to the Lagoon for recreational fishing;
    <bullet>  Annual values in terms of willingness to pay for programs 
to improve Lagoon environmental quality, and the expression of 
willingness to pay as a passive use value for the Lagoon; and
    <bullet>  The effect of Lagoon riverfront location on the value of 
residential land.

    The economic value of the Lagoon resource is approximated in this 
study as annual flows of $487.4 million in market expenditures for 
recreational activities, $140 million in nonmarket value of access to 
the Lagoon for recreational fishing, $44.5 to $58.0 million in passive 
use values of those who live and visit the Lagoon, $12.6 million for 
commercial fishing value and $33 million annually in the incremental 
value of residential land attributable to riverfront location. The 
total estimated annual economic value of the Lagoon ranges from $717.4 
to $730.9 million, depending upon whether one uses average or median 
values for estimated passive use value. These values are displayed in 
Table 2-4.
    The annual economic value of the Lagoon is distributed across each 
of the five counties in Table 2-5. Brevard County clearly enjoys the 
greatest proportion of the Lagoon's annual economic value at $193.4 
million, reflecting both the relatively long shore line and large 
population of that county. Indian River County has the least proportion 
of Lagoon annual economic value, consistent with a relatively short 
shore hoe and small population compared to the other five counties in 
the Lagoon region. Other demographic characteristics and recreational 
levels which influence the distribution of economic value across the 
counties are discussed in detail in Section 3 of this report. The 
distribution of resident versus nonresident recreational expenditures 
and activity levels is also discussed in detail in Section 3. 
Commercial shellfishing estimates across the counties are not available 
since the data are not collected by the Florida Department of 
Environmental Protection on a county-by-county basis.
    It is important to note that these dollar values are approximations 
based on statistical techniques that have wide acceptance and use in 
the field of economics and specifically resource economics. Tables 2-4 
and 2-5 thus show an approximate annual economic value of the Indian 
River Lagoon that comprises the majority of human use and nonuse values 
for the natural resource.
    The annual economic value of the Lagoon is distributed across each 
of the five counties in Table 2-5. Brevard County clearly enjoys the 
greatest proportion of the Lagoon's annual economic value at $193.4 
million, reflecting both the relatively long shore line and large 
population of that county. Indian River County has the least proportion 
of Lagoon annual economic value, consistent with a relatively short 
shore line and small population compared to the other five counties in 
the Lagoon region. Other demographic characteristics and recreational 
levels which influence the distribution of economic value across the 
counties are discussed in detail in Section 3 of this report. The 
distribution of resident versus nonresident recreational expenditures 
and activity levels is also discussed in detail in Section 3. 
Commercial shellfishing estimates across the counties are not available 
since the data are not collected by the Florida Department of 
Environmental Protection on a county-by-county basis.
    It is important to note that these dollar values are approximations 
based on statistical techniques that have wide acceptance and use in 
the field of economics and specifically resource economics. Tables 2-4 
and 2-5 thus show an approximate annual economic value of the Indian 
River Lagoon that comprises the majority of human use and nonuse values 
for the natural resource.

                         Table 2-4. Estimated Total Annual Economic Value of Human Uses
                                              (Millions of Dollars)
----------------------------------------------------------------------------------------------------------------
                                                               Value of                              Total Use
                       Use Category                          Resident Use   Value of Visitor Use       Value
----------------------------------------------------------------------------------------------------------------
Recreational Fishing and Shellfishing.....................          $295.2                 $43.3          $338.5
Swimming..................................................            23.7                 112.2           135.9
Boating...................................................            49.1                   9.5            58.6
Nature Observation........................................            22.2                  65.8            88.0
Water Sports..............................................             4.8      Included in boat
                                                                                        category             4.8
Hunting...................................................             1.5                   0.1             1.6
Passive Use...............................................       14.6-25.9             29.9-32.1       44.5-58.0
Commercial Shellfishing...................................            12.6        Not applicable            12.6
Riverfront Residential Land...............................            33.0        Not applicable           33.00
    Total Lagoon Value....................................    $456.6-467.9          $260.8-263.0    $717.4-730.9
----------------------------------------------------------------------------------------------------------------


       Table 2-5. Estimated Total Annual Value of Human Uses of the Indian River Lagoon in 1995 By County
                                              (Millions of Dollars)
----------------------------------------------------------------------------------------------------------------
                                         Value by County
-------------------------------------------------------------------------------------------------
                                                             Indian                                Region Total
         Use Category             Volusia      Brevard       River      St. Lucie      Martin
----------------------------------------------------------------------------------------------------------------
Recreational Activities:
    Fishing\1\................       $ 58.0      $ 124.3       $ 22.2       $ 31.3       $ 50.8           $286.6
    Shellfishing..............          2.5          2.7          0.6          0.2          0.1              6.1
    Swimming..................          6.7          7.6          3.1          2.8          3.5             23.7
    Boating...................          5.6         27.5          3.7          4.9          7.5             49.1
    Nature Observation........          2.6          9.7          5.7          2.1          2.1             22.2
    Water Sports..............            0          2.1          1.0          1.1          0.5              4.8
    Hunting...................            0            0          1.5            0            0              1.5
                               ---------------------------------------------------------------------------------
Recreational Activities Sub-
 total........................         75.4        173.9         37.8         42.4         64.5            394.0

Passive Use (Residents).......      4.9-8.7      5.2-9.2      1.2-2.2      1.9-3.4      1.4-2.4        14.6-25.9
Commercial Shellfishing.......          N/A          N/A          N/A          N/A          N/A             12.6
Riverfront Residential Land...          4.7         14.3          4.3          3.2          6.5             33.0
    TOTALS....................    85.0-88.5  193.4-197.4    43.3-44.3    47.5-49.0    72.4-73.4      454.2-465.5
----------------------------------------------------------------------------------------------------------------
\1\Includes both estimated nonmarket values and estimated expenditures.

                                 ______
                                 

         Addendum B to the Written Statement of J. Walter Milon

  ``Environmental Sustainability for a Healthy Economy in the Indian 
                          River Lagoon Basin''

                                foreword
    The Indian River stretches for 156 miles spanning Volusia, Brevard, 
Indian River, St. Lucie, and Martin counties. These five counties are 
currently home to more than one million residents and in 1995 hosted 
almost 6 million visitors. Last year, residents and visitors enjoyed 24 
million recreation days fishing, boating, and swimming in the Lagoon, 
or otherwise taking advantage of its natural beauty (One recreation day 
is measured as one person engaged in one activity for one day. While 
not everyone recreates, those that do, do so often. This is how 
recreation day estimates can exceed population estimates.) Forecasters 
expect that future recreational activity in the Lagoon will increase, 
as more people are drawn to the area's enviable amenities.
    Recreation and tourism are important parts of the regional economy 
that together account for about half a billion dollars a year in 
purchases of Lagoon-related goods and services. Other uses of the 
Lagoon bring its total value to more than $730 million a year. These 
purchases include goods and services supplied by businesses directly 
related to recreation and tourism, such as surf shops and hotels, and 
also by businesses that indirectly support recreation and tourism, such 
as grocery stores and insurance companies. In 1995, Lagoon-based 
recreation and tourism supported more than 19,000 jobs economy-wide and 
generated more than $250 million in personal income for residents of 
the five Indian River Lagoon counties.
    Sustaining the Lagoon's economic contribution to the community 
depends on the continued health and possible enhancement of Lagoon 
ecology. It is not hard to imagine, for example, that in the absence of 
management actions, unabated pollution, overuse, and other stressors 
associated with the two percent annual population growth in the five-
county area could quickly degrade Lagoon resources.
    The Comprehensive Conservation and Management Plan (CCMP) of the 
Indian River Lagoon National Estuary Program (IRLNEP) is the blueprint 
for environmentally sustainable development in the watershed. The CCMP 
specifically addresses priority problems that threaten environmental 
sustainability and future recreational opportunities. It offers 69 
separate recommendations that are designed to enhance Lagoon resources 
and support economically important recreational activities, such as 
fishing, shellfishing, boating, water sports, hunting, swimming, and 
nature observation. If implementing the CCMP prevents even a 10% 
decline in the value of the Lagoon, it will sustain more than $70 
million a year in economic benefits to the five counties within the 
watershed.
    Preserving the health of the Lagoon is not cost-free. But 
investment in management actions to sustain or improve the health of 
the ecosystem are good for the local economy and good for local 
residents if its benefits exceed its Costs. Since the Lagoon is already 
relatively clean and its living resources relatively plentiful, it 
should not be surprising that costs of maintaining and improving this 
healthy environment are modest.
    Implementing the Indian River Lagoon National Estuary Program's 
CCMP will cost less than $18 million a year, including about $7.4 
million a year to continue selected on-going programs ant $10 million a 
year for new activities such as wetlands creation and stormwater 
management. This cost is small compared to the extensive investments in 
the Lagoon being planned by local governments, the state of Florida, 
and the federal government.
    While these costs are reasonable and far less than the benefits one 
could reasonably expect as a result, it's a fair question to ask 
whether individuals in one area will pay more than individuals in 
another. In fan, this turns out not to be the case since costs are 
spread relatively evenly across the five-county region.
    To illustrate the relative cost distribution, we can divide the 
cost of new CCMP anions assigned to each county by the number of 
households in each county. The average household in Volusia County 
would pay the least, $17.66 a year, while the average household in 
Indian River County would pay the most, $22.61 a year. Households in 
Brevard, St. Lucie, and Martin Counties would pay $18.44, $20.13, and 
$22.59 a year, respectively. The types of actions, scale of projects, 
and number of households determine average costs. The difference 
between the lowest and highest average household cost is small, about 
the cost of a sandwich. This result indicates a relatively fair 
distribution of CCMP costs across the region.
    Interestingly, area residents are willing to pay between $52 and 
$66 a year to implement the CCMP--roughly three times the average cost 
per household--if CCMP actions result in a healthier ecosystem and 
additional opportunities to fish, swim, and generally enjoy the 
Lagoon's resources, according to a survey of 1,000 residents. Tourists 
also said they want to support CCMP implementation and are willing to 
pay about $9 a person per visit to improve the quality of the Lagoon. 
To the extent visitor dollars help support implementation, as they will 
through sales taxes, average costs to resident households will be less 
than presented above.
    Finding ways to pay for CCMP actions should not delay 
implementation: benefits are high, Costs are reasonable and distributed 
equitably, and residents and tourists are willing to pay more. Some 
$7.4 million in CCMP actions are already financed from a variety of 
sources including local wastewater and stormwater fees, SWIM funds, 
property truces, federal grants, and special appropriations of the 
Florida legislature. These and other, targeted sources of revenue also 
are effective and efficient ways to finance new and expanded programs.
    This document explains why the Indian River Lagoon CCMP's 
scientifically-based management actions are needed to sustain an 
environmentally healthy economy well into the next century and shows 
that CCMP actions are cost-effective and fair. In concise detail, it 
describes for residents and their elected officials how the CCMP can 
deliver stronger local economies, increased revenues, and more jobs, 
even as population grows and stress on natural systems increases. In 
the years to come, we will point to our resource-rich watershed with 
pride, knowing that our decisions today sustained a way of life unique 
to the Indian River basin.
                                               Derek Busby,
            Director, Indian River Lagoon National Estuary Program.
                                 ______
                                 
A Healthy Lagoon Supports Economically Valuable Recreation and Tourism
    More than 1.25 million people live in the five counties bordering 
the Indian River Lagoon. Last year, another 6 million visited the area. 
Recreational opportunities and an enviable quality of life afforded by 
Lagoon resources are a major reason people live in and visit the 
region.
    Lagoon-based recreational activity generates significant local 
economic value--more than $730 million in 1995. This value is tied to 
the estimated 24 million recreation days the Lagoon supported last 
year, 14 million for residents and 10 million for tourists. A 
recreation day is equal to one person engaged in one recreational 
activity for a day. This is the same level of activity as the entire 
population of Melbourne going fishing, boating, swimming, jetskiing, 
windsurfing, hunting, or manatee watching on or near the Lagoon every 
day ofthe year.
    Recreational uses, along with other land and water-based 
activities, however, can place stress on the Lagoon ecosystem. Angling 
can reduce Lagoon fishery stocks, boats can be a source of water 
pollution, and ocher motorized watercraft can disturb aquatic life in 
sensitive areas. Surface runoff, discharge from wastewater treatment 
planes, and improperly managed septic tanks also can impair the 
Lagoon's health.
    Protecting the Lagoon will be critical over the next ten years as 
more people move to and visit the area. The number of residents in the 
five IRL counties is expected to increase from 1.25 to 1.54 million 
between 1995 and 2005. This would be an increase of 24 percent. If the 
number of visitors increases at the same rate, by 2005 over 7.3 million 
tourists will be coming to the region each year. At current 
recreational participation rates, in ten years the Lagoon could be 
providing almost 30 million recreation days, 6 million more than last 
year.
CCMP Action Plans
    <bullet>  Point Source Discharges: Ensure compliance with the IRL 
Act and reduce or eliminate, where possible, industrial wastewater 
discharges to the IRL.
    <bullet>  On-Site Sewage Disposal: Determine the impacts of onsite 
sewage disposal on the resources of the IRL and develop and implement 
strategies to address these impacts.
    <bullet>  Fresh and Stormwater Discharges: Develop and implement 
strategies to address the impacts of freshwater and stormwater 
discharges on the resource of the IRL.
    <bullet>  Marinas and Boat Impacts: Engage the boating public and 
marine industry as active participants in the protection and 
restoration of IRL rcsources.
    <bullet>  Biodiversity: Develop and implement a coordinated 
research and management strategy to preserve, protect and restore 
biodiversity in the IRL.
    <bullet>  Land Acquisition: Develop and implement coordinated 
strategy to protect environmentally endangered habitats within the IRL 
basin through acquisition.
    <bullet>  Wetlands: Preserve, protect, restore and enhance the 
wetland resources of the IRL region.
    <bullet>  Sea Grasses: Protect and restore so grass integrity and 
function in the IRL by attaining and maintaining water quality capable 
of supporting healthy submerged aquatic vegetation community to a depth 
of 1.7 m.
The CCMP is a Blueprint for Environmentally Sustainable Growth
    The Indian River Lagoon Comprehensive Conservation and Management 
Plan, or the CCMP, is a blueprint for preserving Lagoon resources into 
the next century, and as such, it is a guide for maintaining economic 
prosperity in the IRL region.
    The CCMP embraces the three primary goals of the Indian River 
Lagoon Surface Water Improvement and Management Plan, or IRL SWIM, a 
program administered jointly by the St. Johns River and South Florida 
water management districts. By adopting SWIM goals in its CCMP, the IRL 
National Estuary Program recognizes the SWIM program's significant 
planning and restoration accomplishments. The CCMP adds a fourth goal 
that specifically addresses funding needs.
Indian River Lagoon CCMP Goals
    I. To attain and maintain water and sediment of sufficient quality 
to support a healthy estuarine Lagoon system.
    II. To attain and maintain a functioning, healthy ecosystem which 
supports endangered and threatened species, fisheries, commerce, and 
recreation.
    III. To achieve heightened public awareness and coordination of 
interagency management of the Indian River Lagoon ecosystem.
    IV. To identify and develop long term funding sources for 
prioritized projects and programs to preserve, protect, restore, and 
enhance the Indian River Lagoon system.

    In 15 separate action plans (see sidebar), the CCMP specifically 
addresses priority problems that threaten environmental sustainability 
and future recreational opportunities. In the absence of management 
actions tO avoid or minimize such threats, the Lagoon has a limited 
ability to absorb human stress without degrading. This ability is 
called carrying capacity.
    When an ecosystem like the Indian River Lagoon reaches its carrying 
capacity, environmental degradation occurs, recreation days decrease, 
and economic values diminish Fortunately, carrying capacity is not 
fixed. Management measures, such as those in the CCMP, can reduce 
stressors, enhance the Lagoon's ability to replenish its resources, and 
minimize the impacts of development on natural resources.
    Within the 15 action plans, 69 separate recommendations are 
designed to enhance Lagoon resources that support economically 
important recreational activities, including fishing, shellfishing, 
boating, water sports, hunting, swimming, and nature observation. The 
anion plans represent a combination of hands-on restoration work, such 
as wetlands restoration, impounded marsh reconnection, sea grass 
planting, and stormwater abatement projects. They also include art 
array of actions that will strengthen and integrate on-going activities 
and help make the most of available financial resources.
    Many local, state, and federal organizations will help implement 
the CCMP. The region's five counties--Volusia, Brevard, Indian, St. 
Lucie, and Martin--as well as the 41 cities in the region will play 
lead roles. The St. Johns and South Florida water management districts, 
local water control districts, and other regional organizations, 
including the Treasure Coast and East Central Florida regional planning 
councils and the successor to IRLNEP also are key participants. State 
and federal agencies will help fund CCMP implementation and provide 
technical assistance. These include the Florida Department of 
Environmental Protection and Department of Community Affairs, and the 
U.S. Army Corps of Engineers, U.S. Fish and Wildlife Service, and U.S. 
Environmental Protection Agency.
CCMP Action Plans
    Impounded Marsh Management: Restore the functions of marshes 
impounded for mosquito control purposes.
    Endangered and Threatened Species: Protect endangered and 
threatened mammals, birds, fish, reptiles, amphibians and invertebrates 
of the IRL.
    Fisheries: Conserve and protect fin and shell fisheries of the IRL.
    Public Involvement and Education: Facilitate implementation of the 
IRL CCMP through public involvement and education.
    Future Implementation: Establish a modified management structure 
that will oversee the implementation of the IRL CCMP and provide for an 
organization to support the activities of the modified management 
conference.
    Data and Information Management: Develop and implement a strategy 
to coordinate the management and dissemination of data and information 
concerning the IRL.
    Monitoring: Develop and maintain a monitoring network which will 
provide adequate and reliable data and information on water quality, 
sediment quality and the biological resources of the IRL on which 
management decisions may be based.
Just How Valuable is the Lagoon? $733 Million a Year
    In 1995, the value of Lagoon resources to residents tourists was 
more than $733 million. The bulk of this amount, $533 million, is 
counted in direct expenditures, including recreational spending, 
commercial shellfish landings, and the premium paid for Lagoon-front 
property. This value is captured in everyday market transactions, such 
as boat rentals, shellfish sales, and home purchases. These 
expenditures to not include water-borne commerce, since shipping 
generally is unaffected by water quality.
    The Lagoon's total economic value also includes another $200 
million that is not reflexed in market transactions. For example, the 
value of fishing in the IRL is great enough that anglers are willing to 
pay more than they currently spend for bait, fuel, and other items.
    Additionally, residents and tourists are willing to pay more to 
improve the Lagoon beyond what they already pay for environmental 
programs (through taxes). These are often called nonmarket values and 
they can be estimated and added to values that are more easily measured 
in market transactions.
Lagoon-Based Recreational Spending Tops $487 Million Annually
    Residents and tourists spent more than $487 million last year to 
enjoy fishing, shellfishing,swimming, boating, other water sports, 
nature observation, and hunting in and around the Lagoon. Residents 
spent $257 million while visitors spent $231 million. Total spending 
levels may be much higher as this figure does not include related 
purchases of the more expensive recreational equipment that people 
don't typically buy every year, such as boats or recreational vehicles.
    The Lagoon Provided Shellfish Worth Almost $13 Million in 1994
    Commercially harvested clams, oysters, crabs, and shrimp were worth 
$12.6 million at the docks in 1994. Various finfish also contribute to 
commercial landings, but it has been difficult to calculate their value 
since July 1, 1995, when the ban on gill and entangling nets went into 
effect and commercial finfishing practices changed dramatically. Even 
before the ban, clams, shrimp, and crabs represented more than half of 
the total value of all commercial fishing.
    $825 Million in Property Values Are Tied to the Lagoon
    Proximity to the Lagoon adds $825 million to market value of 
Lagoon-front property relative to non-Lagoon-front property in the five 
IRL counties. On an annual basis, the Lagoon generates $33 million a 
year in value for residential landowners. This is because people pay a 
premium to be on the water for aesthetics and convenience. Market 
values of riverfront property range from $358 million in Brevard county 
to $81 million in St. Lucie county, generally reflecting relative 
length of each county's Lagoon shoreline.
Access to Lagoon Fishing Grounds is Valued at $140 Million a Year
    Currently, anyone can fish in the Lagoon free of charge because it 
is a public resource. That is to say, no organization, public or 
private, charges an entry fee to fish. Anglers do of course pay modest 
sums for fishing licenses and boat registration fees. They also pay 
sometimes not so modest sums for boats, rods, and other fishing 
equipment. The amount people spend on such fees and equipment generally 
reflects only part of the value to them of fishing in the Lagoon. In 
fan, many IRL anglers would be willing to pay more to fish in the 
Lagoon, up to a certain dollar amount, before they would choose to fish 
somewhere else.
    Collectively, IRL residents are willing to pay up to $140 million 
more a year than they currently pay to fish in the Lagoon, according to 
a study prepared for IRLNEP. This value could increase to $200 million 
by 2010, based on projected population and fishing participation rates.
    Individual access values vary by county of residence. The average 
angler living in Martin county is willing to pay $589 more a year to 
fish in the IRL system, while the average angler living in St. Lucie 
county is willing to pay $110 more a year.
    Fishing access values are not the only kind of access value that 
can be calculated. Based on the IRLNEP study, we can expect that 
residents and tourists also would be willing to pay more than they 
currently pay for other Lagoon-based recreational activities, such as 
nature observation and boating. Estimates of these values have not been 
developed, but they would certainly show that the value of Lagoon 
resources is substantially higher than the $733 million per year 
already estimated.
People Would Pay Up to $58 Million More to Protect the Lagoon
    Residents care enough about the Lagoon that they are willing to pay 
up to $26 million more each year to protect its resources. A survey 
asked 1,000 IRL households about three environmental programs:
    Stormwater Management--Residents said they would be willing to pay 
the most for stormwater management, about SSO per household a year, 
saying they believe limiting stormwater runoff will result in the 
greatest water quality improvements.
    Land Acquisition--Residents said they are willing to pay about $30 
per household a year to create a public trust fund to buy and maintain 
wetlands.
    Wetlands Protection--Residents said they are willing to pay about 
$22 year to enforce and support conservation measures to limit 
development of privately owned wetlands.
    When presented with a combination of these programs, respondents 
said they would be willing to pay an average of $60 per household a 
year, suggesting a maximum amount that residents are willing to pay for 
any program to improve the Lagoon. Notably, residents are willing to 
pay the most among three generic programs for the one that is not only 
an environmental priority but that probably will be most expensive for 
the region to implement: stormwater management.
    In addition to the $26 million residents said they were willing to 
contribute to Lagoon management, nonresidents said they would be 
willing to pay up to $32 million more a year to support stormwater 
management and wetlands protection programs for the Lagoon. A survey of 
SOO nonresident visitors showed that the average travel party (2.75 
people) is willing to pay an additional $23 per party each time they 
visit the Lagoon if revenues were earmarked for the Lagoon.
The Lagoon Provides 19,000 Jobs and $250 Million in Annual Income for 
        IRL Residents
    The Lagoon's value also can be measured by the number of jobs and 
income associated with Lagoon-based activities, in addition to monetary 
value of goods, services, and other values.
    Lagoon-based recreation currently provides over 19,000 jobs. This 
is equal to five times the workforce at Patrick Air Force Base, two and 
a half times the workforce of Harris Corporation, and exceeds the 
entire workforce of Cape Canaveral, including government employees, 
contractors, and other on-site workers, by more than 3,000.
    Lagoon-based recreation also currently provides $250 million in 
personal income for area residents. This averages $200 a year per 
resident, which could buy about 50 pounds of clams.
The CCMP Will Protect Lagoon Values and Create Benefits for the IRL 
        Community
    The CCMP will do two things: at a minimum it will prevent further 
degradation of the Lagoon ecosystem that would have occurred in the 
absence of its management anions; and it will enhance the quality and/
or quantity of Lagoon resources beyond current levels. Both outcomes 
will provide significant economic benefits to the IRL community.
    In economic terms, a benefit is defined as an increase in value or 
prevention of loss of value. If, as experts expect, the value of Lagoon 
resources will decline as use increases, preserving any portion of 
current value constitutes a benefit in the same way that increasing 
current values creates a benefit.
    The potential benefit of the CCMP can be illustrated in the 
following example. Imagine that the economic value of Lagoon resources 
will increase 5 percent with implementation of CCMP management actions, 
but will decrease 5 percent without implementation. The economic 
benefit of CCMP implementation under these assumptions is 10 percent of 
the total value (the absolute difference between the two cases). In 
this example, the CCMP is worth well over $70 million a year 
(undiscounted) to the local economy.
    Recall that by 2005, the Lagoon will be supporting millions more 
recreation days and the cumulative effects could have significant 
consequences for the Lagoon. It is not hard to imagine that in the 
absence of CCMP management anions, pollution, overuse, and other 
stressors associated with the two percent annual population growth rate 
projected for the five counties could quickly degrade the Lagoon 
ecosystem. With the CCMP, resource managers can maintain the Lagoon's 
carrying capacity and continue to provide the recreational 
opportunities that residents and visitors have come to expecta.
    It is impossible to predict the exact value of the Lagoon with and 
without the CCMP because our scientific understanding of complex 
ecological cause and effect relationships is still evolving. Using 
existing science, CCMP management anions have been specifically 
targeted to address environmental problems that could threaten economic 
sustainability. At a minimum, we can be sure that the CCMP will provide 
an economic benefit for every dollar of value it preserves, as well as 
every dollar of value it creates. Moreover, it is clear from the 
analysis presented thus far and continued below that that the IRL 
community has hundreds of millions of dollars at stake in its quest for 
environmentally sustainable development.
Economic Gains in Lagoon-Based Recreation and Tourism are Multiplied 
        Throughout the IRL Economy
    The economies of the five counties bordering the Indian River 
Lagoon depend on healthy natural ecosystems for their welfare. 
Businesses related to fisheries, recreation, tourism, and agriculture 
generate about $4 billion worth of goods each year within Brevard, St. 
Lucie, Volusia, Martin, and Indian River Counties. The economic sectors 
comprising these natural resource-dependent businesses account for 
about three quarters of the value of all primary goods (i.e., non-
service sector) in this region. Manufacturing, including everything 
from T-shirts to semi-conductors, accounts for the remainder of the 
non-service sector output.
    In turn, much of the construction industry and retail trades depend 
directly on the primary producing sectors for their livelihood. Hotels, 
for example, are not built unless tourists want to visit the Indian 
River Lagoon region. Retail shops depend on residents and tourists to 
buy their goods; insurance agencies and bankers need local marinas, 
tackle shops, and other Lagoon-related businesses to buy their 
services. So in many ways, the regional economy depends on primary 
economic sectors like recreation, tourism, agriculture, and 
manufacturing to drive much of the activity in other areas of the 
economy.
    These interrelationships multiply any increase in the value of 
Lagoon-based recreation and tourism throughout the regional economy, 
increasing the total impact of CCMP implementation beyond what appears 
in the recreation and tourism sector alone. Every time residents spend 
$10 on recreation in the Indian River Lagoon, total sales in the region 
increase by $12.40. The additional increase results from spending by 
businesses like marinas, tackle shops, or grocery stores to buy more 
goods for their shelves and pay their employees to continue operations.
    Every time tourists spend $100 for a hotel room, total sales in the 
region increase by $192. The additional increase results from hotel 
owners' purchases of local supplies and services to keep the hotel 
running. Suppliers to the hotel industry, in turn, reinvest portions of 
their earnings in the local economy to supply their businesses.
    Conservatively, residents and tourists spend $487 million a year on 
Lagoon related activities, such as fishing, shellfishing, boating, 
water sports, lodging, and restaurants this figure excludes purchases 
of boats, recreational vehicles, and other major capital goods). When 
this level of expenditure ripples through the regional economy, it 
results in nearly $75O million worth of goods and services.
    The tourism and recreation seaors also create thousands of jobs 
within the five-counry region. For cxarnple, every $1 million in 
tourist spending on Lagoon-based activities generates between 51 and 56 
jobs, depending on whether it is spent in the lodging or retail seaor. 
Simply preserving the quality of the Indian River Lagoon, therefore, 
sustains more than 19,000 jobs across all five counties. Enhancing 
water quality, increasing habitat, or providing additional points of 
access to the Lagoon can generate thousands more jobs over the next 5 
years.
    All other things being equal, Florida economists predict IRL 
economy will grow almost 16 percent between 1995 and 2000, implying an 
increase of $81 million in the annual value of Lagoon-based recreation 
and tourism. This presumes that the Lagoon continues to support its 
current share of the economy. It also presumes that the quality and 
quantity of Lagoon resources can be sustained, as the CCMP Is designed 
to do.
    Through the multiplier effect described above, an increase of this 
magnitude will create another $43 million in local trade, for a total 
impact of $124 million. This level of activity will add more than 3,000 
new Jobs to the 19,000 currently supported by Lagoon-based economic 
acuity. Such additional employment opportunities are comparable to 
adding another Holmes Regional Medical Center or Rockwell International 
to the list of local employers.
But What About Costs?
    All told, the CCMP will cost slightly less than $18 million a year 
over the first five years of CCMP implementation (the CCMP planning 
period is five years). About $7.4 million of this represents Costs for 
activities and programs that were on-going or planned before the CCMP 
was developed. The $7.4 million includes more than $5 million for 
managing fresh and stormwater discharges. Framers of the CCMP included 
selected ongoing actions in the Plan to highlight important efforts and 
facilitate integrating new CCMP anions into existing county, special 
dstra, and other resource management plans.
    Costs for new projects a little over $10 million a year. Almost all 
of these new COStS, $8 million annually, are for technical engineering 
studies and design work associated with reducing and managing fresh and 
stormwater discharges. This work lays the foundation for construction 
projects that will address fresh water and stormwater discharge 
problems. At this time, COStS of actual construction are still being 
estimated, but is reasonable to expect the total for the five-county 
region will total in the hundreds of millions of dollars.
    The remaining $2 million in new COStS includes a variety of in-the-
ground projects, such as muck removal, as well as a number of new 
initiatives that will enhance planning and coordination among the 
Lagoon's many stewards. The relative proportion of existing to new 
COStS within CCMP action plans varies substantially. This variability 
is more a function of the organization of actions among plans than 
necessarily reflexive of past expenditures and future needs in any one 
area.
Average Costs Per Family Will Be Modest
    Bringing CCMP costs down to the household level helps to put them 
into perspective. If all CCMP COStS, for already planned as well as new 
activities, were divided equally among IRL households, each would pay 
$33.81 a year. Existing programs would claim $14.17 and new initiatives 
would capture the remaining $19.64. Remember that 1,000 IRL households 
said they would be willing to pay an additional $60 a year to support 
programs like those contained in the CCMP. The average cost of the CCMP 
per household is roughly half of what the average household said such 
programs were worth to them.
    The truth is, however, that IRL residents will not bear the full 
COSt of CCMP implementation. Floridians outside the IRL community will 
contribute to state programs and water management district projects, 
through state sales taxes and federal income taxes redistributed to the 
state in the form of federal assistance. This will reduce the total 
CoSt of the CCMP to the IRL community. American and foreign tourists 
also will offset some CCMP costs by paying for implementation as sales 
and other special taxes levied on the goods and services they purchase 
while in the region flow to government programs.
Costs Are Spread Equitably Across the Five Counties
    While COStS of implementing the IRL CCMP are reasonable and far 
less than the benefits one could reasonably expect as a result, it's a 
fair question to ask whether individuals in one area will pay more than 
individuals in another. In fat, this turns out not to be the case since 
costs are spread relatively evenly across the five-county region.
    Together, all new CCMP costs represent less than one half of one 
percent of each county's total annual personal income. If COStS of new 
CCMP anions were paid entirely by residents (see above to see how this 
will not be the case), the average citizen in Volusia County would pay 
the least, $7.42 a year, while the average citizen in Indian River 
County would pay the most, $9.50 a year. Citizens in Brevard, St. 
Lucie, and Martin Counties would pay $7.75, $8.46, and $9.49 a year, 
respectively.
    For all intents and purposes, costs per person are the same in all 
five counties. The difference between the highest and lowest average 
cost per person is just barely enough to buy a Big Mac on Sarno 
Boulevard with nothing left after sales tax, not even for a small soda.
Many Options Exist to Finance the Indian River Lagoon CCMP
    Fortunately, paying for the CCMP can be relatively painless, 
without any need to raid the region's piggy bank. Implementing agencies 
have already allocated funds for slightly less than half of the Plan's 
total costs. The IRLcommunity can pay for the remaining $10 million in 
annual costs with a variety of revenue sources in ways that spread 
costs equitably, place some responsibility on tourists that enjoy 
Lagoon resources, and minimize burdens for any one group.
    For many CCMP anions, the easiest ways to fund implementation will 
rely on enhanced revenues from existing sources. To some extent, 
population growth alone will bring an increase in revenues. For 
selected sources, however, local officials may want to adjust tax rates 
and/or fee levels to be more in line with funding needs for targeted 
activities.
Existing Revenue Sources
    <bullet>  Local wastewater and stormwater utility fees;
    <bullet>  Local general revenues (ad valorem tonics);
    <bullet>  SWIM funds including WMD ad valorem tax revenues and 
state matching funds;
    <bullet>  Non-SWIM WMD funds, including ad valorem tax revenues, 
permit fees, state and federal grants and funds from state land 
acquistion trusts;
    <bullet>  State land acquisition and environmental trust funds such 
as CARL Preservation 2000, and others;
    <bullet>  State general revenues and sate grant and loan programs 
Federal hmdinr. including grants from EPA, USFWS, and others.

    With existing or new revenue sources, citizens and government 
representatives typically expect that some relationship exists between 
a revenue source and the activities it supports. Many believe that 
individuals and businesses should pay for environmental programs in 
proportion to their contribution to problems or the benefits they 
receive from ecosystem protection. While it is not always possible to 
achieve this goal, several potential funding sources match up well with 
CCMP anions. One simple funding package is illustrated on the next 
page.
                       one ccmp funding scenario
    This example illustrates how the $10 million in new annual CoStS 
needed for CCMP implementation could be raised according to the 
following criteria: (1) Nonresidents pay a reasonable share; t2) A 
relationship exists between the revenue source and its use; and (3) No 
single group pays a disproportionate share. These criteria were adopted 
by the IRLNEP Finance and Implementation Task Force, which oversaw 
projects to estimate COStS and benefits associated with CCMP actions, 
and develop a financing strategy. One other criterion was followed for 
this example: keep it simple.
    For convenience, responsibility is split equally between residents 
and nonresidents--Residents pay $6 million a year and nonresidents pay 
$4 million a year. This division roughly reflects the breakdown between 
resident and nonresident Lagoon recreation days: 14 million to 10 
million in 1995.
    In this example, residents' responsibility is split equally in two 
$3 million shares to approximate the significance of CCMP costs related 
to storrnwater management compared to all other CCMP costs. One share 
is funded through a storrnwater utility charge and the other is funded 
through an incremental increase in ad valorem tax rate that the Sr. 
Johns and South Florida water management districts collect from IRL 
county residents. Nonresidents pay their share through a single source, 
a tax on lodging charges.


----------------------------------------------------------------------------------------------------------------
         Revenue source              Annual target           Basis               Rate           Example charge
----------------------------------------------------------------------------------------------------------------
Stormwater utility charge.......  $3 million........  523,865 households  $5.73/HH/yr.......  $5.73/HH/yr
Ad Valorem Tax through WMDs.....  $3 million........  appraised property  0.07 mills........  $10.50/yr for
                                                       in 5 IRL counties                       $175,000 house
                                                       @ $45 billion.                          (with $25,000
                                                                                               homestead
                                                                                               exemption)
Lodging Tax.....................  $4 million........  Lodging receipts    5.8%..............  $5.80 on $100
                                                       of $69.2 million.                       hotel bill
----------------------------------------------------------------------------------------------------------------

    Under one example of this approach, it may be appropriate to fund 
anions mitigate impeas of marinas and boating on the Lagoon with 
revenues from sources such as watercraft sales taxes, marine fuel 
taxes, or boat registration and mooring fees. Similarly, fishing 
license fees would provide a way for anglers to pay for fishery 
research and stock management programs.
    When CCMP projects will provide services or otherwise generate 
benefits over a long period of time and require considerable Front 
capital, as is the case with wastewater treatment plants and stormwater 
management facilities, it is customary tO rely on loans or bonds. These 
allow large, up-front COStS to be repaid over time consistent with 
growth in population and use of Lagoon resources and have the added 
advantage of distributing costs in proportion to a commuriity's 
contribution to the problem.
    When CCMP anions result in broadly available benefits, broad-based 
revenue sources are often acceptable funding options. For example, a 
small increase in the ad valorem tax rate of the water management 
district could provide additional funds for wetlands restoration, 
impounded marsh management, land acquisition, or species protection 
programs.
                               conclusion
    IRENEP's CCMP for the Indian River Lagoon specifies the scientific 
rationale and management anions needed to sustain an environmentally 
healthy economy well into the next century. Its actions are Cost-
effective and fair. Elected officials should be particularly interested 
in the CCMP because it can deliver stronger local economies, increased 
revenues, and more jobs--even as population grows and stress on natural 
systems increases. In the years to come, we will point to our resource-
rich watershed with pride, knowing that our decisions today sustained a 
way of life unique to the Indian River basin.
                                 ______
                                 

         Addendum C to the Written Statement of J. Walter Milon

       Statement of the St. Johns River Water Management District

    Chairman Chafee and Members of the Senate Environment and Public 
Works Committee: The St. Johns River Water Management District would 
like to present a supporting statement for the testimony of Professor 
J. Walter Milon of the University of Florida The St. Johns River Water 
Management District has been the state sponsor for the Indian River 
Lagoon National Estuary Program (IRLNEP), in partnership with the 
Environmental Protection Agency (EPA), since 1990. During that period, 
the District has provided over $16 million in support of restoration 
activities while EPA has provided approximately $5.5 million.
    Why has our District expended so much to protect and restore the 
Indian River Lagoon? The answer is simple--it is a sound investment. 
Estuaries are the biologically essential, economically priceless, but 
vulnerable connections between the land and the oceans. The entire 
nation is served by estuaries. Commercial and recreational fishing, 
maritime commerce, boating and tourism are just some of the activities 
that people undertake on and along our coastal waterways.
    In an age of shrinking public resources, local officials and 
citizens (while generally supportive) have increasingly asked about the 
economic sense of large public expenditures for environmental 
protection. Until recently, however, it was not possible to illustrate 
the Lagoon's worth in terms beyond its considerable aesthetic beauty. 
With the advent of the Apogee study described by Professor Milon, it 
became clear that the estimated costs of restoration were dwarfed by 
the social and economic benefits provided by the Lagoon. These results 
provided vital information to inform the public about the role of the 
Lagoon in the regional economy and to rally local political support for 
the CCMP.
    Sustaining the Lagoon's economic contribution to the community 
depends on the continued health and possible enhancement of Lagoon 
ecology. It is not hard to imagine that, in the absence of management 
actions, unabated pollution, overuse, and other stressors associated 
with the two percent annual population growth in the five counties 
could quickly degrade Lagoon resources.
    The IRLNEP, like other estuary programs within the NEP,has 
developed a blueprint for environmentally sustainable development in 
the watershed. The Indian River Lagoon Comprehensive Conservation and 
Management Plan (CCMP) specifically addresses priority problems that 
threaten environmental sustainability and future recreational 
opportunities. It recommends specific actions that are designed to 
enhance Lagoon resources and support economically important 
recreational activities, such as fishing, shellfishing, boating, water 
sports, hunting, swimming, and nature observation.
    Admittedly, preserving the health of estuarine systems is not cost-
free, but investments in actions to sustain or improve the health of an 
ecosystem are good for the economy and good for local residents if the 
benefits exceed the costs. As in many other estuaries around the 
nation, the Lagoon is already relatively clean and its living resources 
relatively plentiful. Therefore, it should not be surprising that the 
costs of maintaining and improving this healthy environment are 
modest--especially when compared to the likely costs of restoring the 
Lagoon as additional degradation occurs.
    The Apogee study helped to focus on the benefits that improving the 
Lagoon would bring to the region's residents. Many of these benefits 
are already being recognized in the form of improved water quality for 
shellfish aquaculture which is a growing industry in the Indian River 
Lagoon. Recreational fishing is the largest single sector of human 
activities documented for the Lagoon. The reconnection of saltwater 
marshes which were separated from the Lagoon by dikes has greatly 
enhanced recreational fishing opportunities. One study showed a 
significant increase in the number of species utilizing reconnected 
marshes versus those which are impounded. Five species were documented 
using impounded marshes while over 90 species were recorded using 
reconnected marshes.
    The St. Johns River Water Management District is proud to be 
playing a role in restoring one of America's most significant 
waterbodies. Many local and state initiatives are underway to implement 
the Indian River Lagoon CCMP. Some $17.4 million in CCMP actions are 
already financed from a variety of sources including local wastewater 
and stormwater assessments, private grants, and legislative 
appropriations through the state's Surface Water Improvement and 
Management (SWIM) program.
    We believe that this work has clearly demonstrated the wisdom of 
investing in the nation's estuaries by showing that the cost of letting 
degradation occur is high compared to the cost of protecting and 
restoring our estuaries now. Through the National Estuary Program, our 
District and the over one-hundred local governments bordering the 
Lagoon are sharing the responsibility and the rewards of protecting and 
restoring a beautiful resource. We look forward to the continued 
involvement and support of our federal partners in this important work 
without which such progress would not have been possible.
    With the above information in mind, the St. Johns River Water 
Management District fully supports both S. 1321, a bill to reauthorize 
the National Estuary Program, and S.1222, the Estuary Habitat 
Restoration Partnership Act. Full implementation of these bills will 
allow for continued and improved federal support of local efforts to 
maintain and preserve our natural heritage. The need for this 
legislation is highlighted by the fact that funding for the individual 
members of the National Estuary Program has effectively declined over 
the years as new programs have been initiated and overall funding 
levels for the program nationwide have remained relatively constant. 
The increase authorized by S. 1321 and the additional resources 
projected under S.1222 are critical to local efforts to protect and 
restore the nation's estuaries.
    Thank you for the Committee's interest in the study results 
presented by Professor Milon and for the opportunity to share our 
views. Hopefully this information will be useful to the Committee 
during its deliberations. The St. Johns River Water Management District 
will be pleased to provide any assistance that the Committee may 
request as it works to pass this vital legislation.
                                 ______
                                 
  Responses to Additional Questions for Walter J. Milon from Senator 
                                 Chafee
    Question 1: Much of what our efforts in the past have focused on, 
with respect to water quality for estuaries and other waters, is 
pollution prevention, not habitat restoration. How do you see the two 
actions, protecting the resource from further degradation, and nursing 
the resource back to health, interacting to reach the larger goal of 
improving overall water quality?
    Response. The goals of the Clean Water Act of 1972, with 
refinements in subsequent CWA reauthorizations, to achieve fishable and 
swimmable waters and to eliminate discharges were useful targets to 
help the public understand the purpose of pollution control. These 
goals, however, do not address the issue of what overall level of 
``ecosystem quality'' does the public want for water resources such as 
estuaries. In this context, ecosystem quality includes not just water 
quality and fish populations but also other flora and fauna that are 
dependent on an estuarine habitat. Habitat restoration offers the 
potential to enhance overall environmental quality in degraded 
ecosystems and should be considered a logical progression in our 
national efforts to protect the environment. The problem, however, is 
that it is often difficult to predict how policies or actions will 
result in specific habitat improvements and to determine the public 
benefits from these improvements. In my own research I have found that 
the public (in this case Florida residents) strongly supports coastal 
resource restoration proposals if the results of the proposals are 
clearly defined. Federal policies that promote research on the 
environmental consequences of habitat restoration actions along with 
research on public perceptions and expectations about ecosystem health 
are needed to provide a sound scientific basis to advance our national 
policy goals beyond water pollution prevention.

    Question 2: The results of your study are quite impressive, but 
because of the warmer climate in Florida, I would imagine that the 
Indian River Lagoon has longer fishing, recreation and tourism seasons 
than Narragansett Bay or the Long Island Sound, which would increase 
the economic benefits of the study. Have any studies been conducted on 
the economic value of estuaries in colder climates? If so, how do the 
results of such studies compare with your findings?
    Response. The economic value of an environmental resource will 
clearly depend on the number of people (residents and tourists) who 
have access to the resource and the quality of that resource. While 
estuaries in colder climates may have fewer user days than the Indian 
River Lagoon, larger user populations and higher expenditures can 
easily compensate. Under the National Estuary Program, several studies 
have been completed to document these economic benefits. Unfortunately 
the studies differ in their scope and level of detail so they are 
difficult to compare. For example, a 1993 study on Massachusetts Bay 
reported the value of the Bay ranged between $319-$963 million. A 1992 
study of Long Island Sound estimated the economic value of fishing and 
recreation to be more than $5.6 billion. Neither of these studies 
addressed the property, amenity, or ecosystem values associated with 
these estuaries. One of the most recent studies, and most similar to 
the Indian River Lagoon study in scope and detail, was conducted for 
Peconic Bay on Long Island. This study found that total revenues for 
estuarine-dependent activities accounted for over $400 million or about 
20 percent of the local economy (copies of the study can be obtained 
from Professor Jim Opaluch at the University of Rhode Island (401/874-
4590)). This share of total economic activity attributable to 
estuarine-dependent activities is strikingly similar to the 17 percent 
share we reported in the Indian River Lagoon study. Thus, these results 
support the proposition that estuaries provide a significant 
contribution to local economies throughout the U.S.
                               __________
 Statement of Ted Morton, Coastal Protection Program Counsel, American 
                            Oceans Campaign
    Mr. Chairman and members of the committee: Good morning. My name is 
Ted Morton. I am the Coastal Protection Program Counsel for American 
Oceans Campaign. American Oceans Campaign (AOC) is a national, non-
profit organization based in Santa Monica, California and is dedicated 
to protecting and enhancing our nation's oceans and coastal resources. 
I also serve as Chairman of the Aquatic Ecosystems Work Group of the 
Clean Water Network. The Clean Water Network is comprised of more than 
1000 citizen, conservation, labor, religious and other groups 
nationwide working to improve the quality of streams, rivers, lakes, 
wetlands, and coastal waters.
    Since 1991, American Oceans Campaign has focused a significant 
amount of attention to the health of estuaries. Working with numerous, 
dedicated advocates from estuaries across the nation, we have long-
supported making more Federal funds available to improve estuarine 
water quality and restore estuarine habitats. American Oceans Campaign 
produced and distributed several public service announcements about the 
importance of estuaries. We served on the Santa Monica Bay Restoration 
Project's Management Committee. In April 1996, American Oceans Campaign 
published Estuaries on the Edge, an examination of the 28 estuaries 
that are part of the National Estuary Program.
    On behalf of my organization and its members, I wish to express my 
thanks to Senators Chafee and Baucus, and to the other members of the 
Senate Environment and Public Works Committee, for inviting me to 
testify today on legislative proposals to improve estuary protection.
                              introduction
    Last year marked the 25th anniversary of the nation's premier water 
quality law--the Clean Water Act. Across the nation, communities used 
the anniversary to assess the condition of their lakes, streams, 
rivers, and coastal waters. Many communities discovered that 
significant progress had been achieved. More lakes and rivers are 
considered safe for swimming and fishing today, than in 1970. In many 
estuaries, the acreage of seagrasses and other aquatic vegetation is 
increasing from levels just a decade ago. Much of the progress is 
attributed to concentrating on ``point source'' pollution controls, 
such as sewage treatment plant and industrial facility discharges. 
Also, the public is becoming more involved in hands-on, community-wide 
projects to protect their waters and citizens are letting their elected 
officials know that they expect clean, healthy waters for their 
families and communities. These efforts are helping to improve the 
quality of many water bodies.
    But, the examination prompted by the 25th anniversary also revealed 
we still have much work to do before America meets one of the goals of 
the Clean Water Act--to make all waters swimmable and fishable. In 
particular, our coastal waters are troubled. A recent national water 
quality report disclosed that about 38 percent of the nation's surveyed 
estuaries are not clean enough to meet basic uses such as fishing or 
swimming. \1\ Many beach waters and shellfish harvesting areas are 
closed due to pathogen and toxic contamination. In 1995, almost one-
third of our nation's shellfish harvesting areas were closed or 
harvest-limited; polluted urban stormwater was identified as the 
leading source of pollution contributing to harvest restrictions. \2\ 
Other coastal waters are subject to an increasing number of fish 
consumption advisories. Finally, estuarine habitat is threatened by 
unwise development, sedimentation, and destructive fishing practices.
---------------------------------------------------------------------------
    \1\ U.S. EPA, Water Quality Conditions in the United States: A 
Profile from the 1996 National Water Quality Inventory Report to 
Congress (Washington, DC: U.S. EPA, 1998).
    \2\ U.S. Department of Commerce, National Oceanic and Atmospheric 
Administration, The 1995 National Shellfish Register of Classified 
Growing Waters (Rockville, MD: U.S. Department of Commerce, 1997), 7.
---------------------------------------------------------------------------
    Since last summer, disturbing accounts of our nation's coastal 
water quality have been featured in the headlines. For example, the 
outbreak of a toxic microbe, Pfiesteria piscicida, in tributaries of 
the Chesapeake Bay caused fish kills and human health problems. Red 
tides along the Texas shore killed an estimated 14 million fish last 
September and October. Sea turtles with tumors have been found off the 
coasts of Florida. Sewage spills closed a number of Long Island Sound 
area beaches last summer. The ``dead zone,'' an area approximately the 
size of New Jersey where dissolved oxygen levels are too low to sustain 
fish, continues to appear off the coast of Louisiana and Texas each 
year. And, El Nino-related storm events overwhelmed sanitation and 
storm sewer systems in California this winter, causing untreated sewage 
to flow to the Pacific Ocean and forcing health officials to close 
numerous beaches.
    In order to improve the conditions of estuaries it is imperative to 
develop and follow a comprehensive national strategy that entails many 
critical components, including water quality improvements, habitat 
restoration, smarter land use decisions, public education efforts, and 
greater investments. I believe that a combination of Senator Chafee's 
Estuary Habitat Restoration Partnership Act (S. 1222) and 
Representatives Lowey, DeLauro, and Shays' Water Pollution Control and 
Estuary Restoration Act (H.R. 2374) provides a significant start to 
ensure that a comprehensive national strategy for estuary protection is 
put in place.
                      the importance of estuaries
    Estuaries are dynamic bodies of water along our nation's coasts 
which are formed by the mixing of freshwater from rivers and streams 
with saltwater from the ocean. Typically, these waters are semi-
enclosed by surrounding mainland, fringing wetlands, peninsulas, or 
barrier islands. Many of the renowned water bodies of the United States 
are estuaries--Long Island Sound, Chesapeake Bay, Narragansett Bay, San 
Francisco Bay, and Puget Sound, for example. In addition to bays and 
sounds, estuaries are commonly known as lagoons, sloughs, bayous, and 
inlets.
    The combination of freshwater and saltwater creates a distinct 
environment where aquatic plants and wildlife thrive. An abundance of 
land and ocean nutrients, ample light which promotes the growth of 
aquatic vegetation, and a continuous mixing of the system by winds, 
tides, and river inflows create conditions which give life to some of 
the richest and most productive ecosystems in the world.
    In addition, estuaries support a variety of coastal businesses and 
are valued as places to live and visit. In 1990, it was estimated that 
45 percent of the nation's population live in estuarine areas \3\--and 
the predicted population trends suggest that this percentage will rise 
in the upcoming years.
---------------------------------------------------------------------------
    \3\ U.S. Department of Commerce, National Oceanic and Atmospheric 
Administration and National Ocean Service, Estuaries of the United 
States: Vital Statistics of a National Resource Base (Rockville, MD: 
U.S. Department of Commerce, 1990), 1.
---------------------------------------------------------------------------
    The functions and values of estuaries are considerable. For 
example:
    <bullet> Estuaries provide valuable commercial benefits. 
Approximately 28 million jobs are generated by commercial fishing, 
tourism, water-dependent recreation, and other industries based near 
estuaries and other coastal waters. \4\ It is estimated that commercial 
and recreational fishing contributes $152 billion to the nation's 
economy and generates approximately two million jobs. \5\
---------------------------------------------------------------------------
    \4\ Dwight Holling, et. al., State of the Coasts: A State by State 
Analysis of the Vital Link Between Healthy Coasts and a Healthy Economy 
(Washington, DC: Coast Alliance, 1995), 8.
    \5\ William M. Kier Associates, Fisheries, Wetlands, and Jobs: The 
Value of Wetlands to America's Fisheries (Sausalito, CA: Clean Water 
Network, et. al., 1998), 1.
---------------------------------------------------------------------------
    <bullet> Estuaries provide important spawning and nursery habitat 
for commercial and recreational fish species. More than 75 percent of 
the U.S. commercial fish catch uses estuaries during at least one stage 
of life--usually the critical early stages. \6\ In the Southeastern 
United States, 96 percent of the commercial fish catch and more than 50 
percent of the recreational catch are comprised of fish and shellfish 
that are dependent on estuarine and coastal wetlands. \7\
---------------------------------------------------------------------------
    \6\ Elliot A. Norse, Ph.D., Global Marine Biological Diversity: A 
Strategy for Building Conservation into Decision Making (Washington, 
DC: Island Press, 1993), 65.
    \7\ U.S. EPA, Wetlands Fact Sheet No. 2 (Washington, DC: U.S. EPA, 
1995).
---------------------------------------------------------------------------
    <bullet> Estuarine wetlands improve water quality by filtering 
pollutants before they reach coastal waters.
    <bullet> Estuarine wetlands and barrier islands protect shorelines 
and inland areas from coastal storms and flooding. In their natural 
state, these areas are able to temporarily store large quantities of 
flood waters and help to minimize damaging impacts of storm events.
                 major threats to productive estuaries
    Estuaries are threatened by rapid population growth along the 
coasts, habitat loss, and pollution. Some of the major problems 
affecting our nation's estuaries include:
    <bullet> Nutrient pollution. Nitrogen can enter estuaries from a 
variety of sources, including sewage treatment plants, failing septic 
systems, combined sewer overflows, polluted runoff from agricultural 
lands, stormwater, and atmospheric deposition. Excessive loadings of 
nitrogen disrupt estuarine life by accelerating the growth of algae. 
When large blooms of algae develop, they block sunlight needed by the 
estuary's submerged aquatic plants. In addition, as algae decompose, 
they require such great amounts of oxygen, that other aquatic life are 
deprived of oxygen. Oxygen-deficient conditions (called hypoxia) can 
result in massive fish kills.
    <bullet> Loss of Habitat. Due to development pressures and 
increasing pollution, natural estuarine habitats are being destroyed. 
Coastal wetlands, mangroves, and submerged seagrasses provide important 
nursery, spawning, and sheltering areas for fish, shellfish, and other 
wildlife. Ninety-two percent of the original wetlands base of the San 
Francisco Bay area has been destroyed. \8\ In addition, between 1950 
and 1982, seagrass coverage in Tampa Bay decreased from 40,627 acres to 
21,647 acres--a 47 percent reduction \9\--because of increased 
pollution, development and boating activities. The loss of fish habitat 
is a frequently cited, contributing factor in the severe declines of 
fish populations along our nation's coasts.
---------------------------------------------------------------------------
    \8\ San Francisco Estuary Project, Comprehensive Conservation and 
Management Plan (Oakland, CA: San Francisco Estuary Project, 1992), 44.
    \9\ Tampa Bay National Estuary Program, Charting the Course for 
Tampa Bay, 1996 (St. Petersburg, FL: Tampa Bay National Estuary 
Program, 1996), 14-15.
---------------------------------------------------------------------------
    <bullet> Pathogens. Disease-causing microorganisms, called 
pathogens, contaminate productive shellfish beds and recreational beach 
waters in estuaries across the United States. Pathogens are found in 
animal and human waste and enter estuaries from overburdened sewage 
treatment plants, raw sewage overflows, agricultural runoff, and 
malfunctioning septic systems. Eating shellfish or ingesting water 
contaminated with pathogens can cause a variety of diseases in humans, 
including gastroenteritis, hepatitis, and others.
    <bullet> Toxics. Often, elevated levels of toxics can be detected 
in the sediments, the water column, and in the tissues of fish, 
shellfish, and other organisms that inhabit estuaries. Heavy metals, 
pesticides, polychlorinated biphenyls (PCBs), and hydrocarbons are the 
most common toxic contaminants in estuaries. These toxic substances 
originate from a variety of sources, including agricultural runoff, 
polluted urban stormwater, automobile emissions, and industrial 
discharges.
   national estuary program and chesapeake bay program as models for 
                    comprehensive estuary protection
    Estuaries are highly valued and intensely used waters, but only 
recently were they recognized by Congress as a unique and severely 
depleted resource requiring special attention. In 1987, Congress added 
a specific provision to the Clean Water Act (section 117) to provide 
direction and funding for the U.S. Environmental Protection Agency's 
(EPA) Chesapeake Bay Program. The Program is recognized for its work on 
addressing nitrogen pollution and encouraging sound land-use planning.
    During the 1987 Clean Water Act reauthorization, Congress also 
established the National Estuary Program (NEP). The primary purpose of 
the NEP is to resolve many of the complex issues that contribute to the 
deterioration of our nation's estuaries.
    Governors of coastal states nominate particular estuaries for 
inclusion in the National Estuary Program. The EPA selects ``nationally 
significant estuaries'' to participate in planning activities. After 
designating a particular estuary, the EPA becomes responsible for 
convening management conferences to address all uses affecting the 
restoration and maintenance of the chemical, physical, and biological 
integrity of each estuary. Conference participants include 
representatives of the relevant interstate, or regional agencies, 
Federal agencies, the Governor(s) and appropriate state agencies, local 
government agencies, affected industries, educational institutions, and 
citizens. The mission of these conferences is to develop a 
Comprehensive Conservation and Management Plan (CCMP) that will protect 
and restore the water quality and living resources of estuaries. The 
priority actions identified in the CCMP are to be consistent with other 
provisions of the Clean Water Act and other Federal laws.
    The NEP has been, and continues to be a model for outstanding 
watershed management plans; however, implementation of the plans is 
more problematic. Over the years, we have discovered as more and more 
plans are completed, they unfortunately languish on the shelf waiting 
for the dollars necessary for implementation.
    Currently, 28 nationally significant estuaries participate in the 
National Estuary Program. These estuaries were added in five distinct 
rounds, or ``tiers.'' Seventeen of the 28 estuaries have completed 
their plans and are proceeding to implement the identified priority 
actions. The table on the next page provides a quick summary of the 
status of the local programs.


------------------------------------------------------------------------
 Nationally Significant Estuary     Year Designated       CCMP Status
------------------------------------------------------------------------
Puget Sound (WA)................  1987..............  Approved 1991
Buzzards Bay (MA)...............  1987..............  Approved 1992
Narragansett Bay (RI)...........  1987..............  Approved 1993
San Francisco Estuary (CA)......  1987..............  Approved 1993
Albemarle-Pamlico Sounds (NC)...  1987..............  Approved 1994
Long Island Sound (CT, NY)......  1987..............  Approved 1994
Galveston Bay (TX)..............  1988..............  Approved 1995
Santa Monica Bay (CA)...........  1988..............  Approved 1995
Delaware Inland Bays (DE).......  1988..............  Approved 1995
Sarasota Bay (FL)...............  1988..............  Approved 1995
Delaware Estuary (DE, NJ, PA)...  1988..............  Approved 1996
New York/New Jersey Harbor (NY,   1988..............  Approved 1996
 NJ).
Massachusetts Bay (MA)..........  1990..............  Approved 1996
Casco Bay (ME)..................  1990..............  Approved 1996
Indian River Lagoon (FL)........  1990..............  Approved 1996
Barataria-Terrebonne Estuary      1990..............  Approved 1996
 (LA).
Tampa Bay (FL)..................  1990..............  Approved 1997
Peconic Estuary (NY)............  1992..............  Expected 1998
Tillamook Bay (OR)..............  1992..............  Expected 1998
Corpus Christi Bay (TX).........  1992..............  Expected 1998
San Juan Bay (PR)...............  1992..............  Expected 1999
Barnegat Bay (NJ)...............  1995..............  Expected 1998
Lower Columbia River (OR).......  1995..............  Expected 1998
Morro Bay (CA)..................  1995..............  Expected 1999
Maryland Coastal Bays (MD)......  1995..............  Expected 1999
Mobile Bay (AL).................  1995..............  Expected 1999
New Hampshire Estuaries (NH)....  1995..............  Expected 1999
Charlotte Harbor (FL)...........  1995..............  Expected 2000
------------------------------------------------------------------------

    One of the strengths of the National Estuary Program and the 
Chesapeake Bay Program is their reliance on a watershed approach to 
address and solve the problems of the estuary. By identifying, 
examining, and correcting environmental problems that may originate 
upstream, the estuary restoration plans and actions have a 
substantially better chance of success. National Estuary Programs are 
designed to consider a myriad of issues: stormwater pollution, nutrient 
enrichment, heavy metals, seagrass loss, wetlands destruction, sewage 
treatment, industrial discharges, agricultural runoff, fishery landing 
trends, wildlife populations, land-use practices, and others. Past 
approaches to restoration and protection have typically concentrated on 
a narrow examination of a particular type of pollution or a particular 
species of fish. Although many of these efforts are making progress, a 
more complete understanding of the cumulative effect of all the 
estuary's stresses should produce more extensive beneficial results.
    Another strength of the programs is the range of participation they 
attract from interested parties. The Chesapeake Bay Foundation, along 
with other conservation organizations and many local businesses are 
actively working to enhance and improve protections for the Bay. The 
work of NEP Management Conferences provide great opportunities for 
collaboration and building consensus among the varied interests of the 
community. Joint decisionmaking during the studying and planning phase, 
although sometimes difficult to achieve, can lead to far fewer hurdles 
during subsequent implementation.
               estuary legislation of the 105th congress
    American Oceans Campaign is very pleased with the growing attention 
that the 105th Congress is paying to the plight of estuaries. At least 
four bills have been introduced that call for improvements for estuary 
protection. In addition, several Members of Congress have sought 
increased appropriations for the National Estuary Program in order to 
fund implementation actions.
    It is my opinion, that the enactment of the Estuary Habitat 
Restoration Partnership Act (S. 1222), introduced by Senators Chafee 
and Breaux, and the Water Pollution Control and Estuary Restoration Act 
(H.R. 2374), introduced by Representatives Lowey, DeLauro, and Shays, 
would significantly advance a successful, comprehensive approach to 
estuary protection. The combination of these two bills would foster 
beneficial estuarine habitat restoration activities; augment efforts to 
minimize water quality impairment from both polluted runoff and point 
sources; encourage broad-scale, meaningful public participation in 
estuary enhancement actions; and authorize substantially more Federal 
dollars for restoring estuaries and vital estuarine habitat.
    The Estuary Habitat Restoration Partnership Act (S. 1222). On 
September 25, 1997, Senator Chafee, along with several members of this 
Committee, introduced S. 1222. The objectives of the bill include 
improving coordination among various Federal and non-Federal estuary 
habitat restoration programs and increasing the level of Federal 
funding dedicated to these important restoration efforts. The bill is 
supported by leading estuary protection organizations across the 
nation, American Oceans Campaign, and by several other organizations 
that are part of the Clean Water Network. American Oceans Campaign 
considers the approach detailed in S. 1222 to be an essential component 
of a national strategy to improve the health of estuaries.
    In particular, the bill will improve efforts to restore estuarine 
habitat in numerous ways:
    It establishes an ambitious, critical goal of restoring one million 
acres of estuarine habitat by 2010. Numerous commercial and 
recreational fish and shellfish species use estuarine habitats for 
nurseries and shelter. Such an increase in estuarine habitat should 
significantly aid efforts to restore estuarine and marine fisheries to 
sustainable levels.
    It establishes a Federal inter-agency council to better organize 
the various Federal programs involved in estuarine habitat restoration. 
The Collaborative Council is to be comprised of the heads of five 
leading Federal agencies involved in estuary protection and land-use 
decisions. The activities of the Collaborative Council will increase 
awareness about estuarine health among key Federal officials and 
greatly assist coordination and priority-setting. One potential outcome 
of increased coordination will be the compilation of completed and 
ongoing restoration plans in the national estuary habitat restoration 
strategy. A data base that gives a brief account of restoration 
projects; the types of restoration methods used; the various 
governmental roles included in the project; and the effectiveness of 
the restoration will prove to be an invaluable resource for coastal 
communities that are determined to initiate their own restoration 
campaigns but unsure of how to start and what to include in a plan.
    It promotes a through national approach for restoring estuary 
habitat. The bill calls for the Council to develop a comprehensive 
strategy that addresses fish and shellfish, wildlife, water quality, 
water quantity, and recreational opportunities. Such a strategy should 
aid in directing scientific and financial attention to the most 
pressing estuarine habitat concerns, in balancing national attention 
between small scale and larger habitat restoration projects, and in 
evening geographical distribution of estuary restoration projects.
    The bill encourages community-based involvement by seeking the 
active participation of concerned individuals, non-profit 
organizations, and businesses.
    The bill authorizes appropriations to carry out estuary habitat 
restoration projects. The increased investments will allow states to 
leverage their own contributions to restoration projects and should 
accelerate and enhance estuary restoration activities.
    The Water Pollution Control and Estuary Restoration Act (H.R. 
2374). On August 1, 1997, Representatives Lowey, DeLauro, and Shays 
introduced H.R. 2374. The bill corrects the most glaring weakness of 
the National Estuary Program--the lack of consistent, adequate Federal 
funds for implementing approved comprehensive conservation management 
plans. The bill enables States and local communities to make greater 
progress in cleaning up estuaries, plus rewards the efforts put forward 
by the community to develop an action plan for their estuary.
    Working through the National Estuary Program (NEP) of the Federal 
Clean Water Act, community leaders have collaboratively crafted 
comprehensive estuary management plans (CCMPs) to restore their 
estuaries. As previously mentioned, seventeen of the twenty-eight 
estuaries in the NEP have completed their ``blueprints'' and are trying 
to implement the identified priority actions.
    The NEP provides Federal funding to assist states and local 
communities in developing watershed plans; however, no Federal funding 
is specifically allocated to help communities perform the priority 
actions of the finished plans. To be part of the National Estuary 
Program, an estuary is considered to be ``nationally significant.'' It 
should therefore be in the national interest to ensure that plans to 
restore these waters are implemented and given a proper opportunity for 
success.
    Some coastal states have been successful in securing earmarks 
through EPA appropriations bills to help support implementation 
activities. Others have used the existing Clean Water State Revolving 
Loan Fund (SRF) to fund priority actions of the CCMP; however, this has 
not proven to be a consistent source of Federal funding for estuary 
priority actions. To its credit, U.S. EPA has encouraged greater use of 
the SRF for implementing watershed protection activities through 
workshops, publications, and missives. Unfortunately, coastal 
communities continue to struggle in a quest for Federal funds to 
augment local and state funds for completing priority actions listed in 
their local CCMP. As a result, the ``blueprints'' for estuary recovery 
are not fully being put into action.
    Earlier this year, the Santa Monica Bay Restoration Project 
released a progress report on its restoration plan, which was completed 
and approved in 1995. Of the 74 priority actions listed in the plan, 
only eleven have been fully implemented. Little or no progress has been 
achieved on sixteen actions. According to the report, a lack of funding 
is the primary reason that the clean-up plan has floundered. \10\
---------------------------------------------------------------------------
    \10\ Santa Monica Bay Restoration Project, Taking the Pulse of the 
Bay: State of the Bay 19989 Executive Summary (Santa Monica, CA: Santa 
Monica Bay Restoration Project, 1998), 5.
---------------------------------------------------------------------------
    H.R. 2374 will strengthen protections for estuaries. The bill:
    <bullet> requires implementation of approved estuary management 
plans. Local estuary management plans have been generally successful at 
identifying water quality problems affecting an estuary. It is 
essential that the solutions to identified problems are actually 
carried out.
    <bullet> assures Federal funding for implementation. The bill 
extends the State water pollution control revolving loan fund (SRF) 
through fiscal year 2004. The SRF receives authorized appropriations of 
$2.5 billion in fiscal year 1998, gradually increasing to $4 billion in 
fiscal year 2004. The bill requires that states with approved estuary 
plans set aside a percentage of the SRF increases to be used to 
implement the priority actions of approved estuary plans. H.R. 2374 
creates a State matching requirement for receipt of the Federal funds.
    <bullet> increases citizen involvement by requiring that 
representatives of conservation organizations belong to the program's 
management committee during development of the CCMP. Actively involving 
citizens in the key decisionmaking arm of the local program will help 
build support for restoration actions and expenditures that are needed 
later.
    <bullet> allows Federal grants to fund select interim actions as 
local management conferences craft their plans.
    <bullet> calls for a public assembly to be held and the management 
conference to be reconvened within 4 years after implementation has 
begun to gauge the success and status of the plan's implementation.
    <bullet> extends the authorization of the National Estuary Program 
through fiscal year 2004.
    Because it increases authorization levels for the Clean Water State 
Revolving Loan Fund, the bill would benefit coastal and inland states. 
The need for increased funds for water quality infrastructure is 
particularly great. In 1996, EPA released a national needs survey for 
water quality infrastructure. Based on reports submitted by the states, 
the report concluded that the United States will need to spend more 
than $139.5 billion over the next 20 years to meet capital costs 
eligible for funding under the SRF. \11\ For fiscal year 1999, the 
Administration requested $1.075 billion for the Clean Water SRF. With 
the support of American Oceans Campaign, other conservation 
organizations, water infrastructure associations, and other interested 
parties, the Senate Appropriations Committee has provided $1.35 billion 
for the SRF and the House Appropriations Committee has provided $1.25 
billion. American Oceans Campaign commends Senators Bond and Mikulski 
and Representatives Jerry Lewis and Stokes for their strong leadership 
in increasing funding levels for clean water programs.
---------------------------------------------------------------------------
    \11\ U.S. EPA, 1996 Clean Water Needs Survey Reprot to Congress, 
Executive Summary (Washington, DC: U.S. EPA, 1996).
---------------------------------------------------------------------------
    If the United States is to narrow the gap between our 
infrastructure investments and our infrastructure needs, stronger 
financial commitments from the Federal Government must be made. The 
Lowey-DeLauro-Shays bill, by significantly increasing Federal 
contributions to the revolving fund, signals stronger leadership in 
meeting the future challenges of clean waters.
    H.R. 2374 has been the subject of a hearing conducted by the Long 
Island Sound Caucus, but has not yet received a hearing before the 
House Transportation and Infrastructure Committee. The bill enjoys bi-
partisan support and currently has 20 co-sponsors. Last fall, 81 
conservation, environmental, fishing, and public interest 
organizations, representing 23 states and the District of Columbia, 
joined together in a letter in support of the bill. (Attachment 1) In 
addition, a coalition of labor and environmental interests, called the 
Clean Water/Clean Jobs Coalition supports the House bill.
    A Senate companion bill to H.R. 2374 has not been introduced. In 
previous Congresses, Senators Lieberman, Moynihan, D'Amato, and Dodd 
introduced similar bills to require implementation of CCMPs and assure 
consistent Federal funding through the State Revolving Loan Fund. 
During consideration of the Clean Water Act reauthorization in the 103d 
Congress, much of the Lieberman bill, including requiring 
implementation of approved plans, and authorizing funds from the State 
Revolving Loan Fund program, the nonpoint pollution control program, 
and the National Estuary Program to be used for implementation, was 
included in the bill (S. 2093) that passed out of this committee.
    In an effort to craft a comprehensive national strategy for 
protecting estuaries and vital estuarine habitat, the Lowey-DeLauro-
Shays bill and the Chafee bill complement each other well. The bills 
support community involvement. The bills reward locally driven 
processes to determine what vital areas of estuarine habitat to restore 
and what important actions for water quality improvement to undertake. 
In addition, they increase the Federal financial commitment to 
improving water quality and restoring habitat.
    The National Estuary Conservation Act (S. 1321). Senator Torricelli 
introduced S. 1321 on October 28, 1997. The bill permits grants that 
are authorized under the National Estuary Program to be used to develop 
and implement comprehensive conservation management plans. The bill 
also increases the authorized levels for the NEP to $50 million a year 
for fiscal years 1999 through 2004.
    If enacted, Senator Torricelli's bill would set a meaningful 
advancement for the National Estuary Program. The bill would open the 
door to using NEP grants for implementation of approved CCMPs.
    American Oceans Campaign believes that the Torricelli approach, 
although a stride in the right direction, can only hope to exact modest 
improvements in implementing approved priority actions in estuaries. 
First, an annual Federal allocation of $50 million divided among 28 
programs in various stages of their planning and implementation will 
not fully solve the current problem of inadequate Federal funds 
available to implement CCMP actions. For all of the programs, the 
estimated cost their water quality improvement actions substantially 
exceeds $50 million. A much more significant Federal investment is 
needed to ensure these plans have a chance for success.
    Second, a reliance on NEP grants rather than the state revolving 
loan fund (as called for by H.R. 2374) to fund implementation 
activities could lead to a less reliable source of Federal funding. 
Many of the priority actions identified in the approved CCMPs will take 
several years to complete. For example, several plans address the need 
to upgrade or extend sewer service for wastewater treatment and to 
expand the use of reclaimed water. Having a reliable source of Federal 
funding to assist states and localities leverage their costs in making 
these infrastructure improvements should minimize delays and cost 
overruns, and thus, accelerate the clean up of these estuaries.
    Finally, the bill could unintentionally create conflicts between 
newer programs still involved in developing their CCMPs and older 
programs needing funds for implementation. Although it is important to 
support implementation activities, we do not want to squeeze dollars 
from programs still developing their plans. It is likely that the $50 
million will be a future target of earmarks in appropriations bills. 
The bill needs to address how the distribution between planning and 
implementing will be equitably carried out.
    At the same time, I am concerned that the increased level of 
authorization might entice EPA to significantly expand the NEP, and not 
adequately address the great need to support implementation. The 
pattern of the NEP is to accept additional nominations of estuaries 
every few years. Between 1987 and 1995, the NEP grew from six estuaries 
to 28. Certainly there are significant benefits to expanding the number 
of nationally significant estuaries: an expanded knowledge of estuary 
conditions in more parts of the nation; stronger public awareness about 
the need to protect the estuary; increased citizen involvement in 
planning the restoration of an estuary's vitality; and in the end, an 
identified, comprehensive list of key actions needed to be taken. 
However, additional local programs require greater expenditures for 
administrative, technical, and scientific support.
    In summary, local programs need significant and reliable sources of 
Federal funds to leverage the dollars already being invested by states 
and localities for implementation of comprehensive estuary management 
plans. Although S. 1321 does allow NEP grants to be used for 
implementation activities and increases the authorization level for the 
program, I believe that to significantly advance the efforts to restore 
our nation's significant estuaries, a more sizable, comprehensive and 
dependable Federal funding source is required.
    The Coastal Pollution Reduction Act (Mayaguez, Puerto Rico Deep 
Ocean Outfall Act) (H.R. 2207). Representative Romero-Barcelo 
introduced H.R. 2207 on July 22, 1997. The bill passed the House of 
Representatives on November 13, 1997. Section 3 of the bill amends 
section 320(g) of the Clean Water Act to allow NEP grants to be used 
for implementation in addition to development of comprehensive 
conservation management plans. The bill increases the authorization 
level for the National Estuary Program to $20 million in fiscal year 
1998. The bill is silent on extending the authorization of 
appropriations beyond fiscal year 1998.
    Representative Barcelo-Romero's bill corrects the limitation of the 
National Estuary Program that only allows NEP grant money to be used to 
support development activities. However, the increased authorization is 
only established for one fiscal year and is wholly inadequate an 
increase to enable significant progress in completing priority 
activities of approved CCMPs. American Oceans Campaign does not 
consider this approach to be a comprehensive measure for restoring 
nationally significant estuaries.
    American Oceans Campaign joins with other conservation 
organizations in Puerto Rico and other national ocean advocacy groups 
in opposing section 2 of H.R. 2207. This section will allow the 
Mayaguez publicly owned treatment works to apply for a waiver from 
secondary treatment requirements and to discharge inadequately treated 
sewage at a to-be-constructed deep ocean outfall site.
           other legislative issues in the year of the ocean
    Before I conclude my testimony, I would like to briefly discuss 
other important legislative issues affecting the oceans. As you know, 
1998 has been declared the International Year of the Ocean by the 
United Nations. To encourage greater ocean protections, American Oceans 
Campaign is supporting a legislative ``Ocean Package'' and is 
encouraging Members of Congress to support and ``Vote for the Ocean'' 
in 1998. Key elements of this legislative package include:
    The Oceans Act (S. 1213/H.R. 3445). The Oceans Act was introduced 
by Senators Hollings, Stevens, Boxer, and Kerry, and by Representatives 
Farr and Saxton. The primary objective of the Oceans Act (H.R. 3445, S. 
1213) is to reassess and refine U.S. programs and policies that affect 
oceans and marine life in order to craft a more coordinated vision for 
the future. The bill calls for the establishment of a 15 or 16-member 
national commission to study U.S. policies affecting ocean quality and 
health, including sustainable fisheries, pollution, transportation, 
coastal hazards, and exploration. The commission would issue 
comprehensive recommendations for improving national policies and 
programs within eighteen months of its establishment.
    Current Federal policies and funding to protect oceans and coasts 
derive from different laws, and responsibilities for safeguarding the 
oceans are divided among various Federal agencies. Often, the 
objectives of these laws and agencies conflict. Using the commission's 
recommendations, directors of the many Federal agencies charged with 
protecting ocean resources will work with other governmental entities 
and non-governmental partners to develop and implement a coordinated 
ocean and coastal policy for the nation.
    The Senate has already passed S. 1213. The House bill is currently 
awaiting a mark-up by the House Resources Committee. We hope that in 
this International Year of the Ocean, the U.S. Congress will take a 
strong stand for a national ocean policy and pass the Oceans Act.
    The B.E.A.C.H. Bill (S. 971/H.R. 2094). Beaches are the leading 
tourist destination in the United States. In 1997, California's beaches 
alone attracted almost 116 million visitors. This summer, many adults 
and children will swim, snorkel, surf or wade in beach waters that, 
unbeknownst to them, are contaminated by pathogens that may cause 
gastroenteritis, dysentery, hepatitis, and various nose, ear, and 
throat infections.
    To protect themselves from harmful pathogens, swimmers must rely on 
beach water quality tests conducted by local public health agencies. 
Unfortunately, the testing standards and monitoring practices used by 
coastal states and localities vary significantly, and often vary within 
a state. Several states do not regularly monitor their beach waters for 
pathogen contamination and only a distinct minority of states and local 
communities consistently notify the public about poor beach water 
conditions.
    The Natural Resources Defense Council conducts an annual survey of 
public beach closures along our nation's coasts. According to its 1997 
report, Testing the Waters, Volume VII, beaches were closed or health 
advisories against swimming were issued more than 2,596 individual 
times during 1996. Several of these lasted more than 1 day. These 
figures underestimate the true extent of the problem since many states 
to not regularly test beach waters.
    To address these problems, Representatives Pallone and Bilbray 
introduced the Beaches Environmental Assessment, Closure, and Health 
Act (the B.E.A.C.H. bill), H.R. 2094, last summer. Senators Lautenberg 
and Torricelli introduced a Senate companion bill, S. 971. The 
B.E.A.C.H. bill establishes a common-sense, national approach to the 
problems of inconsistent beach water quality testing and public 
notification. The bill requires coastal states to adopt water quality 
criteria for public recreational beach waters that are, at a minimum, 
consistent with U.S. EPA recommendations. It also directs EPA to work 
with states to develop monitoring programs that include timely public 
notification about contaminated beach waters.
    Beach visitors have a right to know that the waters they choose to 
play in are safe for recreation. The B.E.A.C.H. bill promotes a 
nationwide commitment to ensure beach-goers receive the basic 
information needed to protect themselves and their families from 
harmful pathogens.
    Essential Fish Habitat. There are currently a number of threats, 
both regulatory and legislative, to effective implementation of the 
essential fish habitat (EFH) provisions in the Magnuson-Stevens Fishery 
Conservation and Management Act. The EFH mandate was overwhelmingly 
passed by Congress in 1996 in order to address what Members of Congress 
described as ``one of the greatest long-term threats to the viability 
of commercial and recreational fisheries.'' The mandate requires that 
fishery managers describe, identify, and protect areas necessary to 
fish for spawning, breeding, feeding, and growth to maturity.
    Unfortunately, we now understand that some Members of the 
Appropriations Committees intend to repeal, weaken, issue exemptions 
for, or eliminate funding for fish habitat protection provisions of the 
Magnuson-Stevens Act through this year's annual funding process. These 
Members are responding to pressure from the non-fishing industry sector 
(including timber, ranching, mining, development, hydro-power, and 
others), which is concerned that the EFH mandate may compromise their 
short-term economic gain. If these Members succeed in their attempts to 
weaken, repeal, or debilitate the EFH implementation process, they will 
have sacrificed a vital public resource to the interests of the private 
sector.
    Clean Water Appropriations. The Clinton Administration's proposed 
budget for fiscal year 1999 includes a Clean Water and Watershed 
Restoration Initiative, calling for increases for U.S. Environmental 
Protection Agency, National Oceanic and Atmospheric Administration, 
U.S. Department of Agriculture, U.S. Department of Interior, and the 
U.S. Army Corps of Engineers to prevent polluted runoff, protect public 
health, and restore waters. American Oceans Campaign fully supports 
these increases and urges Congress to appropriate these moneys to bring 
about the needed improvements to our nation's waterways. (Attachment 2)
    Polluted runoff is a major source of water quality impairment in 
coastal waters, rivers, and lakes. Polluted runoff threatens the health 
of our families and destroys important fish and wildlife habitats. Each 
time it rains, water runs off the land and picks up toxic pesticides 
and fertilizers from farm fields and lawns, heavy metals and oils from 
streets, manure from animal feedlots, metals from mining sites, and 
sediment from constructionsites, farms, and timber operations. This 
polluted runoff carries these contaminants into our drinking, fishing, 
and swimming waters. In addition, sediment buries the underwater 
vegetation in rivers and coastal waters that sustains juvenile fish and 
shellfish.
    In order to achieve the Clean Water Act's goal of having waters 
safe for swimming and fishing, we must maximize our efforts to prevent 
polluted runoff. So far, a few of the Appropriations bills have 
included significant increases to support the Clean Water and Watershed 
Restoration Budget Initiative. As members of the committee with 
oversight responsibilities for many of the clean water programs, I 
encourage you to continue working to ensure full funding for clean 
water improvements, particularly in the polluted runoff budgets for the 
U.S. Environmental Protection Agency and National Oceanic and 
Atmospheric Administration.
    Harmful Algal Bloom Research and Control Act (S. 1480). Last 
November, Senators Snowe and Breaux introduced S. 1480 to address a 
serious and growing national problem affecting our coasts. Harmful 
algal blooms, such as red tides and brown tides, are increasing in 
severity and frequency along our coasts. Outbreaks of harmful algal 
blooms can cause fish kills, poison humans and wildlife, close 
fisheries, and impair the aesthetics and recreational uses of coastal 
waters. It has been estimated that the annual economic losses 
associated with harmful algal bloom impacts range from $35 to $65 
million.
    A similarly significant problem affecting estuaries is hypoxia. 
Waters that contain low levels of dissolved oxygen are considered to be 
hypoxic. Hypoxic water conditions do not support marine life and create 
``dead zones.'' Off the coast of Louisiana and Texas, a dead zone 
covering 6,000 to 7,000 square miles (about the size of New Jersey) 
appears during the summer months. The Chesapeake Bay and Long Island 
Sound also experience periodic hypoxic conditions.
    There is strong evidence linking nutrient loadings with hypoxia and 
growing evidence associating many outbreaks of harmful algal blooms 
with an overabundance of nutrients. Measures to restrict the amount of 
nitrogen being introduced to estuarine and coastal waters from 
agricultural operations, concentrated animal feeding operations, sewage 
treatment plants, and atmospheric deposition will assist efforts to 
control the outbreaks of harmful algal blooms and hypoxia.
    The Snowe-Breaux Harmful Algal Bloom bill authorizes additional 
funds to support ongoing harmful algal bloom research and coastal zone 
management activities conducted by the National Oceanic and Atmospheric 
Administration. Often, these activities involve partnerships with 
coastal states and universities. American Oceans Campaign particularly 
supports dedicating additional moneys to assist states in finalizing 
and implementing coastal nonpoint pollution management programs. These 
programs provide technical and financial assistance to states to help 
develop strategies for addressing the threats of polluted runoff in our 
nation's coastal waters.
    Coastal Title to the Clean Water Act. The Clean Water Act was last 
reauthorized in 1987. During the 103d and 104th Congresses, bills to 
reauthorize the Clean Water Act were presented for votes (the Senate 
Environment and Public Works Committee passed S. 2093 in 1994, the 
House passed H.R. 961 in 1995). Neither of these bills garnered the 
full support of American Oceans Campaign; however, we were supportive 
of the addition of stronger coastal protection provisions in a Coastal 
Title to S. 2093.
    In future considerations of the Clean Water Act reauthorization, 
American Oceans Campaign, along with the Center for Marine Conservation 
and other coastal advocacy organizations urge Congress to add a Coastal 
Title to the Clean Water Act. Such a title could be closely based upon 
the Coastal Title that was added to S. 2093 in the 103d Congress. A 
Coastal Title should include sections to: strengthen the National 
Estuary Program (H.R. 2374), establish coastal and marine water quality 
criteria; devise uniform beach monitoring programs that assures 
appropriate public notification when waters are too contaminated for 
safe swimming (S. 971, H.R. 2094); strengthen MARPOL compliance and 
restrict garbage from ships; ensure the availability of adequate 
pumpout facilities for recreational boat sewage and marine sanitation 
devices; and strengthen ocean discharge criteria. I would welcome the 
opportunity to help put together such a Title.
                               conclusion
    It is time for the Federal Government to do more to advance a 
comprehensive, national strategy for estuary protection. Efforts of the 
National Estuary Program have improved the knowledge of water quality 
problems affecting estuaries and have developed numerous actions that 
will support the clean up of these waters. Coastal communities, states, 
and citizen organizations have initiated successful estuary habitat 
restoration projects and have identified several more projects needing 
immediate attention.
    The approaches contained in the Chafee Estuary Habitat Restoration 
Partnership Act and the Lowey-DeLauro-Shays Water Pollution Control and 
Estuary Restoration Act make substantial strides in achieving such a 
comprehensive strategy. Both bills recognize the important 
contributions states, localities, businesses and concerned citizens 
make to improving estuaries. They facilitate inter-agency coordination 
among various Federal agencies. They reward developing solutions to 
sometimes difficult water quality and habitat concerns. Finally, they 
increase the Federal financial contributions to ensure estuaries will 
remain special, productive places for the future.
    I urge this Committee to combine S. 1222 and H.R. 2374 in a 
subsequent Committee mark-up and work to ensure passage of these 
important estuary protection provisions by the end of this Congress. I 
appreciate the opportunity to testify on legislative initiatives to 
improve estuary protections. I look forward to working with this 
Committee on these and other estuary issues.
                                 ______
                                 
            Letter from Resident Commissioner Romero-Barcelo
                             U.S. House of Representatives,
                           Washington, DC 20515-5401, July 6, 1998.

    Hon. John Chafee, Chairman,
    Committee on Environment and Public Works,
    U.S. Senate,
    Washington, DC 20510.

    Dear Chairman Chafee: I write you today, as the sole representative 
of the 3.8 million disenfranchised U.S. citizens living in Puerto Rico 
to propose an amendment to Section 301 (h) of the Federal Water 
Pollution Control Act that would allow the Puerto Rico Aqueduct and 
Sewer Authority (PRASA) to apply for a waiver from certain wastewater 
treatment requirements affecting its Mayaguez facility.
    Under existing law the Environmental Protection Agency (EPA) is not 
allowed to accept new applications for waivers from secondary treatment 
requirements. The proposal does not alter the rigorous criteria for 
issuing a waiver nor does it override the judgment of EPA. The proposal 
before your committee reflects the goal of both Congress and the 
Administration to find innovative, alternative and less costly ways to 
apply existing statutes without compromising the environmental 
objectives underlying existing law.
    Many scientists and experts agree that plans to construct deep 
ocean outfalls at locations can provide the best environmental and 
economic alternative for wastewater treatment. The plans would not only 
preserve but would even improve the coastal environments where these 
discharges occur.
    PRASA proposes the construction of a deep ocean outfall that would 
release primary treated wastewater miles from shore at a depth and 
location that will have no adverse impact on human and marine life.
    This alternative would improve the coral environment where the 
current outfall discharges and would also save the Government of Puerto 
Rico about $65 million over 20 years that can be spent to address other 
water supply and infrastructure problems affecting the island.
    EPA and the Department of Justice have agreed to enter into a 
Consent Order with PRASA that provides PRASA the opportunity to apply 
for the construction of a deep water ocean outfall, which would be an 
alternative to a secondary treatment plant. However, this alternative 
cannot even be considered without this legislation; and under the terms 
of the Consent Order, this alternative can only be considered if this 
legislation is enacted by August 1, 1998.
    If this legislation is enacted, EPA will have a choice as to 
whether or not to allow the alternative measure. If it is not enacted, 
there will be no choice, regardless of the environmental or economic 
consequences. This is what this proposal will accomplish. It is a sound 
approach to environmental regulations.
    It is imperative to stress the fact that this is only a limited and 
technical amendment that allows PRASA to refile under section 301(h). 
PRASA would be required by EPA to meet the same stringent legal and 
scientific tests, conduct the same environmental studies and implement 
the same monitoring program applicable to existing recipients of 
section 301(h) waivers. This amendment would not assure that a waiver 
would be granted; that decision would remain entirely within EPA's 
discretion.
    EPA will be the ultimate decisionmaker, and will determine if 
PRASA's proposed alternative is feasible and environmentally 
beneficial. If, after the review, that alternative is acceptable, then 
PRASA will immediately begin construction of the facility, with the 
discharge location approved by the EPA. If EPA finds the alternative 
unacceptable, then PRASA will proceed with the construction of the 
secondary treatment plant.
    Puerto Rico is not asking for preferential treatment. Rather, we 
are only requesting that EPA balance the cost of constructing a 
secondary treatment facility against the environmental, economic and 
social benefits of constructing an outfall at a deep water location.
    There are precedents for such limited amendment to section 301(h), 
most recently for San Diego during the 103d Congress. In the instance 
of San Diego legislation was enacted to allow EPA to consider a section 
301 (h) waiver application proposing a similar alternative to secondary 
treatment. I believe we deserve the same opportunity to implement an 
alternative and seek a section 301(h) waiver.
    My environmental record speaks for itself. I would not support any 
measure that I believe compromises our resources or the environment of 
the island. I urge my colleagues to consider this proposal and its 
common sense approach. The proposal is limited and targeted, provides 
for an efficient process, does not modify existing standards and would 
be implemented by EPA only if environmental and economic objectives are 
accomplished. I am hopeful that it will receive favorable action in the 
Senate before the August Is' deadline.
    Thank you for your attention to this matter. Should you have any 
questions please do not hesitate to contact Ruben Padron of my staff at 
(202) 225-5046.
            Sincerely,
                                     Carlos Romero-Barcelo.
                               __________
Statement of Perfecto Ocasio, Executive Director, Puerto Rico Aqueduct 
                          and Sewer Authority
    Mr. Chairman, my name is Perfecto Ocasio. I am the Executive 
Director of the Puerto Rico Aqueduct and Sewer Authority (PRASA), the 
public corporation that serves almost all of the 3.8 million American 
citizens in Puerto Rico with potable water and wastewater services. 
Thank you for giving me the opportunity to comment on the need for this 
legislation, which would benefit the environment and the economy of 
Puerto Rico.
    I would first like to present to the Committee a letter, from 
Governor Pedro Rossello, urging quick Senate action on H.R. 2207, as a 
matter of urgent importance to the people of Puerto Rico.
                               background
    Under section 301(h) of the 1977 Clean Water Act, coastal 
communities, including islands, were permitted an opportunity to apply 
for an alternative to the requirements of secondary treatment for ocean 
discharges that met stringent environmental equivalency requirements. 
All applications were required initially to be submitted to the 
Environmental Protection Agency (EPA) by December 31, 1982. PRASA 
submitted seven applications. Six were tentatively approved; only one--
the Mayaguez treatment plant outfall--was denied, finally in 1994, 
because of the location of the outfall in the sensitive coral 
environment of Mayaguez Bay.
                      consent decree alternatives
    H.R. 2207, which was passed by the House last October, would allow 
Puerto Rico to apply to the EPA for authority under section 301(h) of 
the Clean Water Act to construct a new, state-of-the-art deep ocean 
outfall at a location that avoids this coral environment. This would be 
an alternative to secondary treatment at the current outfall location 
in Mayaguez Bay. This option is specifically embodied in a recent 
Consent Decree between the EPA and PRASA, which resolves a 15-year-old 
legal dispute. The Consent Decree, supported by EPA and PRASA, requires 
PRASA to meet a detailed schedule for the construction of facilities 
necessary to achieve compliance with all of the requirements of the 
Clean Water Act.
    But it provides two alternatives. One is the construction of a 
traditional secondary treatment plant, at high cost and energy 
consumption, which will continue to discharge effluents into Mayaguez 
Bay. The second alternative, illustrated in the accompanying chart, is 
the construction of a deep water ocean outfall, sending primary treated 
effluent several miles offshore into deep ocean currents, thus 
relieving stress on the Bay and its sensitive coral ecosystems. The 
deep water outfall could be less expensive to build and much less 
expensive to operate than a secondary treatment plant. EPA would 
determine whether the deep ocean outfall meets all Clean Water Act 
standards. However, because of the urgent need for a solution, the 
Consent Decree permits EPA consideration of the deep ocean outfall 
alternative only if Congress authorizes this approach by August 1, 
1998.
                      benefits of the legislation
    This legislation provides Puerto Rico the same opportunity that 
Congress has given other coastal communities in unique situations to 
implement section 301(h). The bill does not in any way change any 
applicable standards of the Clean Water Act. Without authority to 
submit a waiver application to the EPA, PRASA may be required to spend 
many millions of dollars for a secondary treatment plant that will have 
no beneficial effect on the stressed marine environment of Mayaguez 
Bay. These funds could be used for the renovation and upgrade of Puerto 
Rico's deteriorating water facilities infrastructure and other water 
supply, treatment and wastewater projects urgently needed in Puerto 
Rico.
    H.R. 2207 makes the following findings:
    1. The existing discharge from the Mayaguez publicly owned 
treatment works is to the stressed waters of Mayaguez Bay, an area 
containing severely degraded coral reefs, and relocation of that 
discharge to unstressed ocean waters could benefit the marine 
environment;
    2. The Federal Water Pollution Control Act should, consistent with 
the environmental goals of the Act, be administered with sufficient 
flexibility to take into consideration the unique characteristics of 
Mayaguez Bay; and
    3. Scientific evidence suggests that some deep ocean areas off the 
coastline of Mayaguez, Puerto Rico, might be able to receive a less-
than-secondary sewage discharge while still maintaining healthy and 
diverse marine life.
                         coral reef protection
    Just last month the President issued an Executive Order on Coral 
Reef Protection. The legislation also provides Congress and the EPA 
with an early opportunity to further the goals of this initiative. That 
Order, which is designed to protect and preserve coral reef ecosystems, 
requires all Federal agencies to use their authorities to reduce 
impacts on affected environments from pollution and sedimentation. H.R. 
2207 will allow EPA the opportunity to determine whether a deep ocean 
outfall can protect Mayaguez Bay. Without this bill, EPA and PRASA have 
no options--except an inordinately expensive one--a course of action 
that would continue pollution and sedimentation of the coral ecosystem. 
This bill does not authorize construction of a deep ocean outfall, it 
will simply allow us to conclude the necessary studies and complete an 
application for EPA's review.
                     environmental impact statement
    PRASA is already proceeding to ensure a thorough environmental 
review of all options. Under Law Number 9, Puerto Rico's local 
equivalent to the National Environmental Policy Act (NEPA), PRASA and 
the Puerto Rico Environmental Quality Board (EQB) are preparing an 
Environmental Impact Statement (EIS). A draft EIS was completed in 
April recommending a deep ocean outfall as environmentally preferable. 
A copy of the EIS is being submitted to the Committee.
    The entire EIS record will be available to EPA as it considers the 
strict standards of section 301(h).
                        congressional precedents
    There are precedents for such a limited amendment to section 
301(h). The Municipal Wastewater Treatment Construction Grant 
Amendments of 1981 included a provision that specifically permitted the 
city of Avalon, California to file. The 1981 provision concluded: 
``failure to broaden eligibility risks requiring treatment for 
treatment's sake, involving the expenditure of funds which could be 
better used to achieve additional water quality benefits elsewhere. 
This provision does not grant variances. It simply allows variances to 
be sought with the burden on the applicant to make his case on 
environmental grounds.''
    The Water Quality Act of 1987 also included a specific provision 
for the Irvine Ranch Water District, a California public agency, that 
permitted the District to file for a section 301(h) waiver. More 
recently, in 1994 Congress passed H.R. 5176, which allowed the city of 
San Diego to apply for a waiver under section 301(h) within 180 days of 
enactment. This action precisely parallels the provision here.
    We urge you to act quickly. A legislative solution must be in place 
before August 1, 1998. This will allow us to put to rest years of 
litigation and focus our energies and capital resources on implementing 
an environmentally sound solution for Mayaguez and other urgent 
priorities.
    Thank you for your time and consideration on this important issue 
for Puerto Rico.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Statement of Juan C. Martinez-Cruzado, Ph.D., Mayaguezanos for Health 
                            and Environment
    Mr. Chairman: I am Dr. Juan C. Martinez-Cruzado, former President 
of and spokesperson for Mayaguezanos for Health and Environment, Inc. 
(MHE). We thank the Senate Environment and Public Works Committee very 
much for this opportunity to express ourselves to you, even though we 
are not constituents of any of you.
    Until earlier this week, I had expected to be silent today. Mr. 
Victor Negron, counsel to the Mayor of Mayaguez, had planned to present 
testimony on behalf of the government and people of Mayaguez, MHE, and 
La Liga Ecologica de Rincon. Unfortunately, a last-minute change in 
circumstances prevented him from appearing today. His written testimony 
is found on top of the packet that we have presented to the Committee. 
Accompanying his testimony is a letter from the Mayor of Mayaguez 
authorizing me to testify on behalf of the Municipality today. My 
testimony is labelled attachment 1.
    MHE is a community-based environmental community organization that 
formed during our city's successful struggle against the establishment 
of a coal-fired power plant that was to use 466 million gallons of 
seawater per day from Mayaguez Bay. We hold our Bay in high regard, and 
dream of the day in which we may be able to swim again in it without 
getting skin rashes, ear infections, and other ailments.
    We are also involved in other programs aimed at protecting the Bay. 
For example, we took vigorous action to improve the bay's water quality 
by filing a citizen suit against the tuna canneries that discharge to 
the bay and negotiating with them the construction of secondary and 
tertiary treatment facilities. This was done, I might add, despite the 
opposition of the government of Puerto Rico.
    When H.R. 2207 was introduced in the House of Representatives last 
summer we opposed it very strongly because it would have given the 
Puerto Rico Aqueduct and Sewer Authority (PRASA) an opportunity not 
only to submit a new 301(h) waiver application, but to exempt it from 
the application revision procedures of section 125.59(d) of title 40, 
Code of Federal Regulations, thereby eliminating all EPA review 
criteria and all public participation and, in effect, leaving EPA with 
no legal basis to deny any new PRASA--301(h) waiver application in 
Mayaguez. Though that highly objectionable provision has since been 
removed, we are still adamantly opposed to the bill because it has the 
effect of retarding by too many years all actions and investments 
needed to save the coral reefs and improve the water quality of 
Mayaguez Bay.
    We must stress that the history of EPA in Puerto Rico and the 
Virgin Islands is characterized by indifference and negligence, and a 
much less pro-environmental position than is generally the case on the 
mainland. The Agency's handling of--301(h) waivers is a good example. 
Since that provision was first added to the Act in 1977, more than 200 
applications for waivers were submitted. During that 20-year or so 
span, EPA has made its final determinations on all but seven of those 
applications. Not coincidentally, the remaining 7 are all in Puerto 
Rico or the Virgin Islands. In the meantime, partially treated sewage 
continues to be dumped into the Caribbean and the Atlantic.
    As Hispanics, we are very aware of discrimination by EPA, and so we 
were very pleased that President Clinton signed an Executive Order on 
Environmental Justice in 1993. However, the problem remains a very real 
one for us.
    In Mayaguez, it took EPA 6 years to conclude its enforcement 
discussions with PRASA. When they finally produced a consent decree 
(see attachment 4), EPA had agreed to sit on the law for 1 year, 
explicitly to give PRASA a chance to weaken the law that EPA is called 
on to enforce. The agreement of EPA to this provision is regarded by 
many, including us, as a preliminary approval of the proposed deep 
ocean outfall, despite the fact that no studies or documentations that 
supported its viability were available. We were also distressed to 
learn that EPA had helped draft H.R. 2207. In short, we believe that we 
have been treated worse than those who live on the mainland. We cannot 
trust EPA.
    Even though EPA concluded 7 years ago that the waters of Mayaguez 
Bay were already so stressed that no further impairment could be 
tolerated, PRASA is still discharging the same barely treated 
wastewater, at the same site, causing the same effects on our beaches 
and corals. And here we are, now considering turning the clock back to 
1979 and giving PRASA another opportunity to engage in a long--301(h) 
waiver application procedure. The people of Mayaguez, who are sick of 
waiting for action, can only regard this bill as an excuse to keep 
doing nothing about the sewage in Mayaguez Bays and an attempt to 
condemn our coral reefs to a slow death.
    The desire for a quick solution to this discharge is so great that 
even the Governor of Puerto Rico went out of his way in October, 1996, 
1 month before the general elections, to promise to the people of 
Mayaguez the start of the construction of the secondary treatment plant 
by July, 1997 (see attachment 6). That promise, however, proved to be 
an empty one.
    Last May, PRASA submitted an Environmental Impact Statement (EIS) 
for the deep ocean outfall to the Puerto Rico Environmental Quality 
Board (PREQB). PRASA put in writing and on the map (see attachment 3) 
the proposed point and depth of discharge. The depth, 400 feet, is 
within, not under, the thermoclyne, suggesting that the wastewaters 
will float to the surface, rather than sink to the sea bottom.
    The proposed point of discharge is within waters used by humpback 
whales to mate and give birth, and part of the area used for whale 
watching activities. It is awfully close to the point where the 
continental shelf drops off--this area provides critical habitat to 
massive populations of fish larvae, and is thus a cornerstone of the 
local fishery.
    The proposed discharge point is only 2.5 miles from beaches of 
Rincon and Anasco, well known as tourism spots and for their surfing 
activities. Most of the year, strong ocean currents would bring the 
pollution to those beaches. When cold fronts hit Puerto Rico in the 
winter months, ocean currents shift to the southeast, where a major 
coral reef--Manchas Exteriores--would be located 1.2 miles from the 
point of discharge. As a result, the people of the municipalities of 
Anasco and Rincon are joining the opposition to this bill. Close to 100 
people attended the PREQB public hearings on June 22. Fifteen 
testimonies, all in opposition, were presented, including testimonies 
from hotel and parader owners in Rincon, fishermen in Anasco, various 
people from Rincon, Anasco and Mayaguez, as well as environmental 
organizations and marine scientists. (see attachment 8).
    An engineer presented for a second time a proposal for secondary 
treatment followed with discharge to existing wetlands for natural 
tertiary treatment (see attachment 7). Land application of secondarily 
treated wastewater will be less expensive than deep ocean disposal, and 
will remove ALL discharges from the sea.
    It is crystal clear that the deep ocean outfall is the worst 
possible solution to a fairly straightforward problem. Undoubtedly, the 
approval of H.R. 2207 will mean years and years of the current 
conditions in which our corals are slowly dying and our children can 
only swim in filth. If passed, H.R. 2207 will only keep Mayaguez in the 
polluted conditions that it has endured for so many years. We urge you 
to let H.R. 2207 die.
    If the bill is not enacted, secondary treatment will be in 
operation by 2001, according to the terms of the consent decree. Even 
though secondary treatment is in itself a mediocre solution, as it 
provides little relief to corals, this is far better than waiting 
another decade for PRASA to bicker with, and probably sue EPA over 
its--301(h) waiver application. In the meantime, our children will be 
able to swim in safe waters and a sound alternative, tertiary 
treatment, can be fleshed out.
    We hope that this option will have renewed support, given President 
Clinton's issuance of Executive Order No. 13,089, ``Coral Reef 
Protection.'' As I'm sure you know, the Order is intended to renew and 
deepen ``the Nation's commitment to preserve and protect the 
biodiversity, health, heritage, and social and economic value of U.S. 
coral reef ecosystems and the marine environment.'' How ironic it would 
be if the Senate were to approve H.R. 2207, and send it to the 
President for his signature so soon after the issuance of the Executive 
Order.
    We must bear in mind that when Congress structured the--301(h) 
waiver opportunity in 1977, it did it so with the clear understanding 
that the opportunity to seek such waivers would expire in 5 years. In 
other words, even where a sewage plant operator could persuade EPA that 
it complied with all of the criteria found in the law, no application 
for such a waiver could be accepted after December 31, 1 982. On that 
day, the door closed. Why? Doubtless because Congress recognized that 
there is something profoundly wrong with dumping barely treated waste 
into the sea for decades. The 92d Congress was right. The 105th would 
make a terrible mistake by undercutting the only sound feature of--
301(h).
    Not long ago, it was commonly believed that the world's oceans were 
a bottomless receptacle, a universal sink, a resource with no limits. 
Therefore, it was thought that there was no problem with barging New 
York City's garbage 112 miles offshore, and dumping it onto the sea 
floor. The Soviet Union thought there was no problem with disposing of 
decommissioned nuclear submarines by dropping them onto sea floor. Many 
people still believe that we can harvest all the fish we please from 
the world's oceans, because the ocean's ability to produce protein is 
unlimited.
    As this Committee is now very aware, all of these notions have been 
proven to be tragically wrong. We have come to realize that the oceans 
are much smaller and more fragile that we once thought. Fueled by 
population and technological growth, our collective ability to tamper 
with, if not destroy traditional ecological equilibria increases every 
year, often with disastrous consequences. We now know better than to 
think that indiscriminate dumping of waste is harmless. We can no 
longer claim ignorance as an excuse.
    Broadly speaking, there are three ways to deal with pollution; (1) 
it can be prevented--this is the modern, and most cost-effective 
approach; (2) it can be treated after the fact, as most pollution is 
now handled; or (3) it can simply be dumped, untreated into a dark hole 
where people do not know what is going on, hoping that the pollution 
will never come back to haunt us. This is the waste management 
philosophy of the Cave Men. The Senate disserves Puerto Rico by 
applying this philosophy to our island, our people, our tropical 
waters, and the tremendous array of wildlife that inhabit them.
    The 92d Congress was right when it closed to door on 301(h) waivers 
after 1982. The 105th Congress would make a terrible mistake by 
reopening that door in 1998.
    Thank you.
                                 ______
                                 
              Mayaguezanos por la Salud y el Ambiente, Inc.
                                       Mayaguez, PR, July 10, 1998.
    Hon. John H. Chafee, Chairman,
    Senate Environment and Public Works Committee,
    Washington DC 20510.

    Re: H.R. 2207--Section 301(h) waiver for Mayaguez. PR Sewage 
Treatment Plant

    Dear Senator Chafee: This follows your question at yesterday's 
hearing regarding the 12 years that it took EPA to conclude PRASA's 
failed effort to obtain a Sec. 301[h] waiver for the Mayaguez plant. In 
fact the process took 16 years, because even after PRASA was curtly 
dismissed by EPA in 1991 (not even a hearing was granted on PRASA's 
patently deficient applications], PRASA filed administrative and 
judicial appeals for four more years - all the way to the Supreme 
Court! The next month they went to Congress for permission to begin the 
process all over again [H.R. 1371, 94th Cong., introduced March 
30,1995.]
    Senator Rodriquez's assertion that the Puerto Rico Senate would 
expedite the next round of paperwork, even assuming that a legislative 
body could play such a role, is at odds with the hard-ball litigation 
tactics that were being applied as recently as three years ago.
    Having now failed for 19 years to obtain from EPA a waiver allowing 
it to [1 keep the current discharge where it is, and [23 avoid 
secondary treatment, PRASA seeks from your Committee what would amount 
to an open-ended waiver chat would allow the same thing. In the 
meantime, they could file papers with EPA for another 12, or 16, or 19 
years. And the economy of the Mayaguez would continue to bear the 
burden of EPA's sewer hook-up moratorium.
    Twenty-one years ago, Congress wisely set 1982 as the deadline for 
these waiver applications. The Mayaguez matter is not the right context 
for taking chunks out of what is probably the nation's most effective 
environmental law.
Sincerely,
                                          Juan C. Martinez-Cruzado.
                                 ______
                                 
                                    Governor of Puerto Rico
                                                      June 18, 1998

    Hon. John H. Chafee, Chairman,
    Senate Environment and Public Works Committee,
    Washington, DC 20510.

    Dear Mr. Chairman: By this means I respectfully request your 
support for H.R. 2207 [the Coastal Pollution Reduction Act], 
legislation that will permit the Puerto Rico Aqueduct and Sewer 
Authority [PRASA] to implement a Consent Order that it has signed with 
the Environmental Protection Agency [EPA] and to apply for authority 
under the Clean Water Act to construct a deepwater outfall at the 
Municipality of Mayaguez on the west coast of Puerto Rico. If H.R. 2207 
becomes law and if the EPA determines that the environmental standards 
of the Clean Water Act are met. then PRASA could relocate its 
wastewater treatment discharges to deep ocean waters. That would 
eliminate the current discharge site, which is contributing effluents 
to a sensitive coral environment in the polluted Mayaguez Bay: it would 
likewise eliminate a deterrent to the region's economic growth, by 
allowing the EPA to lift its ban on development in the Mayaguez area.
    For nearly 15 years PRASA and the EPA have been embroiled in 
litigation over a solution to the problem of reducing stress on 
Mayaguez Bay's delicate environment. Throughout the entire duration of 
my administration, dating back to 1993, EPA has imposed a prohibition 
on new development in the area because of Clean Water Act violations. 
Now, finally, PRASA and the EPA have signed a Consent Order that offers 
two alternatives. The first of these would require the very costly 
construction of a traditional secondary treatment facility that would 
continue to discharge wastewater into Mayaguez Bay. The second 
alternative would entail the construction of a deepwater ocean outfall 
that would release treated effluent several miles offshore into deep 
ocean currents. A deepwater outfall would be less expensive to build 
and much less expensive to operate than would a secondary treatment 
facility. Should a deep ocean outfall be constructed, the EPA will 
determine whether it meets all Clean Water Act standards.
    However, the process leading to creation of a new outfall - which 
both PRASA and the Mayaguez community deem to be the environmentally 
preferable alternative -- cannot commence unless is H.R. 2207 is 
enacted by August 1, 1998: that is the date which was agreed upon by 
PRASA and the EPA in their Consent Order, as a means of guaranteeing 
that a permanent solution would not be delayed indefinitely.
    The legislation in question was passed by the House of 
Representatives last year and has been endorsed by the EPA. Its 
enactment into law prior to August 1, 1998 would greatly benefit our 
precious environment, as well as the economic self-sufficiency 
aspirations of the 3.8-million U.S. citizens of Puerto Rico. Your 
leadership in the attainment of this urgent objective will thus be 
deeply appreciated.
    Thank you for your kind attention to this very important matter.
Sincerely,
                                                    Pedro Rossello.
                               __________
       Statement of the Association of National Estuary Programs
    Chairman Chafee and Members of the Senate Environment and Public 
Works Committee: On behalf of the Association of National Estuary 
Programs (ANEP), we appreciate this opportunity to submit to this 
Committee our views on protecting and restoring the Nation's estuaries. 
The Association of National Estuary Programs is a nonprofit 
organization dedicated to promoting responsible stewardship and a 
common vision for the preservation of our nation's bays and estuaries. 
ANEP's citizen members and grassroots supporters are working to ensure 
that Congress continues to support the tremendous volunteer investment 
made by citizens, scientists, and local decision makers in developing 
Comprehensive Conservation and Management Plans (CCMPs) to protect the 
nation's ``estuaries of national significance.''
    We are pleased that this Committee is turning its attention to the 
plight of the Nation's estuaries, and offer our endorsement of S.1321, 
a bill to reauthorize the National Estuary Program, and S.1222, the 
Estuary Habitat Restoration Partnership Act. Introduced by Senator 
Torricelli, S.1321 is a bipartisan bill with 18 co-sponsors \1\ that 
would reauthorize the National Estuary Program through fiscal year 
2004. The National Estuary Program is established by section 320 of the 
Clean Water Act, and administered by the U.S. Environmental Protection 
Agency in close partnership with the State and local governments, 
interested citizens, and the private sector.
---------------------------------------------------------------------------
    \1\Cosponsors include Senators Graham, Mack, Sarbanes, Lautenberg, 
Chafee, Reed, Moynihan, Boxer, Kennedy, Kerry, Murray, Faircloth, 
Landrieu, D'Amato, Gregg, Lieberman, Mikulski, and Cleland.
---------------------------------------------------------------------------
    It is well established that estuaries are the biologically 
essential, economically priceless, but fragile connections between the 
continent and the oceans. The entire nation is served by coastal 
estuaries in numerous ways such as commercial and recreational fishing, 
boating, wildlife habitat, transportation, and tourism. Through the 
National Estuary Program, local governments and interested business and 
industry groups come together with State and Federal governments to 
reach agreement on long-term management plans that protect the future 
economic and biological productivity of our estuaries.
    To date, there are 28 estuaries in the national program: Eleven 
programs are in the developmental stage and 17 are in the 
implementation stage of their individual ``Comprehensive Conservation 
and Management Plans'' (CCMPs). These 28 NEPs contain 45 percent of the 
nation's surface water area and are downstream from 26 percent of the 
nation's watersheds. These programs are clearly an important factor in 
at least a quarter of the nation's inland and coastal watersheds. The 
management plans for each of these 28 NEPs are each unique, but share 
many characteristics in that they are all based on sound science, all 
written by local stakeholder groups in partnership with the relevant 
regulatory agencies, and all approved by the local and State 
governments that will be principal partners in implementation. Local 
citizens guide the development and implementation of their plans, and 
work to leverage Federal and State dollars with contributions from 
local governments and the private sector.
    The Association of National Estuary Programs endorses S.1321. 
Through its ten years of experience, the National Estuary Program has 
become an excellent model for developing solutions to complex 
environmental problems. The 28 programs implement their management 
plans to improve water quality, habitat, and water flows. Strong 
federal support is critical. By maximizing the federal investment on 
the management plans and local partnerships that have been created, the 
National Estuary Program provides real benefits to the health of the 
nation's estuaries and the people who live there. S.1321 offers a 
simple, straight-forward reauthorization of the National Estuary 
Program.
    Through the National Estuary Program, many environmental problems 
are already improving. A few examples of NEP success stories include:
    <bullet> The San Juan National Estuary Program is reducing the 
number of unauthorized raw sewage discharges from boater pump out 
stations.
    <bullet> The Massachusetts Bays Program led an interagency approach 
to shellfish bed restoration that will restore and protect 13 shellfish 
beds along Massachusetts and Cape Cod Bays.
    <bullet> More than 32,000 acres of critical habitat area has been 
preserved in Barnegat Bay, New Jersey. Over 35,000 acres of impounded 
marsh and mangrove wetlands are being reconnected to the Indian River 
Lagoon on Florida's eastern coast, one of the most productive U.S. 
ecosystems.
    <bullet> The programs in both Corpus Christi Bay, Texas and Tampa 
Bay, Florida are developing long-term dredged materials management 
plans to provide environmental protection and to maximize beneficial 
uses of dredged materials. Tillamook Bay NEP watershed, the largest 
milk producing region in Oregon, has performed a study that identifies 
sources of bacteria associated with water pollution and links land use 
practices to water quality.
    The National Estuary Program will be valuable both as a model and 
as an implementation mechanism for S.1222. Habitat restoration and 
preservation is critically needed in many of the nation's estuaries of 
national significance; fish and wildlife habitat loss is one of the 
greatest problems in our estuaries and it deserves immediate attention 
and action.
    We would like to provide two comments on S.1321. First, we endorse 
the provision that would allow funding to be used for both the 
development and implementation of the CCMPs. However, we must express 
our concern that increasing the State share of funding in the 
implementation stage from 50 percent to 75 percent because it 
diminishes the total effort that is needed to implement the CCMPs. 
Maintaining the current level of federal partnership conveys a 
commitment that attracts local sponsors and actually assists in 
leveraging additional local dollars for the projects that improve water 
quality, enhance wildlife habitat, and conserve water supplies. For 
this reason we urge the Committee to maintain the State's funding share 
for implementing the CCMPs at 25 percent.
    Second, we applaud S. 1321's authorization of $50 million for this 
national program. In years past there were just a dozen NEPs receiving 
around $12 million to develop CCMPs, about $1.0 million per NEP. 
Unfortunately, today there are 17 NEPs implementing CCMPs with another 
11 in the developmental stage while the total funding to the program 
has not increased proportionally. The increased funding authorized by 
S.1321 is necessary because there are now 28 National Estuary Programs, 
and solid federal support is needed to fully advance the mission and 
goals of each NEP. At the same time, however, S.1321 does not include a 
provision that we think it should, namely, holding firm EPA's 
administrative expenses. We want the funding increase to go toward 
restoring the nation's estuaries - implementing the local programs.
    We thank the Committee for providing us the opportunity to share 
our views with you. The Association of National Estuary Programs stands 
ready to assist the Committee as it works to pass this vital 
legislation.
                               __________
                Statement of Restore America's Estuaries
John Atkin, Stamford, Connecticut, Executive Director, Save the Sound, 
Long Island Sound.

Will Baker, Annapolis, Maryland, Chairman of Restore America's 
Estuaries, President, Chesapeake Bay Foundation.

Dery Bennett, Highlands, New Jersey, Executive Director, American 
Littoral Society.

Peter Clark, St. Petersburg, Florida, Executive Director, Tampa 
BayWatch.

Mark Davis, Baton Rouge, Louisiana, Executive Director, Coalition to 
Restore Coastal Louisiana.

Kathy Fletcher, Seattle, Washington, Vice Chair of Restore America's 
Estuaries, Executive Director, People for Puget Sound.

Doug Foy, Boston, Massachusetts, Executive Director. Conservation Law 
Foundation.

Todd Miller, Newport, North Carolina, Executive Director, North 
Carolina Coastal Federation.

Barry Nelson, Oakland, California, Senior Fellow, Save the San 
Francisco Bay Association.

Linda Shead, Webster, Texas, Executive Director, Galveston Bay 
Foundation.

Curt Spalding, Providence, Rhode Island, Executive Director, Save the 
Bay, Narragansett Bay.

    On behalf of Restore America's Estuaries, we would like to thank 
Senator Chafee and the committee for the opportunity to present written 
testimony in support of the Estuary Habitat Restoration Partnership 
Act, S. 1222. The members of Restore America's Estuaries welcome the 
opportunity to express our organizations' strong support and 
appreciation for Senator Chafee's leadership and vision in introducing 
legislation that will help our communities preserve and restore 
our.nation's ' coastal heritage.
    Restore America's Estuaries is a coalition off 11 community-based 
coastal environmental organizations with a combined membership of over 
250,000. Our mission is to save and restore America's estuaries and 
coastal heritage for our children, before it disappears.
    Galvanized by their love of our coastal waters, citizens 
established the R.A.E. organizations to mobilize their communities in 
protecting these special places. The R.A.E. members have been working 
for more than 30 years to protect this coastal heritage. Despite the 
significant accomplishments of the past generation of environmental 
efforts, we share a deep concern that many species of fish, birds. and 
other animals are not recovering as we had expected. We are also 
troubled by the fact that some coastal areas not previously affected by 
water pollution, are now in serious decline'. These continued problems 
are caused by the ongoing loss of habitat for fish, birds, shellfish 
and plants along our shorelines. In order to bring abundant life back 
to our bays, sounds, and lagoons, our communities must do more than 
protect the remaining habitat. We must restore the valuable habitats 
which have been destroyed.
    That is what our organizations and their members have been doing 
over the past three decades. From Seattle, Washington, to Galveston, 
Texas, to Rockland, Maine, the R.A.E. members have identified and 
targeted the habitat resources in their own estuaries that are 
threatened and in need of restoration. Working with school children, 
neighborhood organizations, and a variety of civic groups, we are 
helping our communities restore this estuary habitat one acre at a 
time.
    Together, we have pledged to restore one million acres of estuary 
habitat-by the year 2010. The need is great. in coastal states, 55 
million acres of wetlands have been destroyed. We need to turn the tide 
of this devastating trend and actually foster the rebirth of our 
estuaries and their life nurturing habitats.
    Although, each estuary is unique, they all suffer from significant 
habitat loss. 92 percent of San Francisco Bay's original wetlands have 
been destroyed. In Texas, Galveston Bay has lost 85 percent of its sea 
grass meadows. Louisiana loses 25,000 acres of coastal salt marshes 
every year, and the Chesapeake Bay's oyster harvests have plummeted 
from 25 million pounds in 1959 to only a million pounds in 1989 while 
90 percent of its seagrass has disappeared. As the pfisteria crisis has 
demonstrated in North Carolina and the Chesapeake Ray, these losses 
have dire consequences for our environment, our economy, and our way of 
life.
    When our estuaries suffer these loses of habitats our communities 
risk the loss of a wondrous heritage and a prized way of life. 
Estuaries from Long Island Sound to San Francisco Bay are a vital part 
of what makes our communities special. They serve as the focal points 
for our community life and traditions, hosting everything from harvest 
festivals to busy ports.
    Joining together land, saltwater, and freshwater ecosystems, 
estuaries provide a vital link to a healthy environment. Forming a 
critical buffer between our land and waters, estuary habitat filters 
pollution from runoff and protects our homes from flooding. Estuaries 
shelter a tremendous quantity and diversity of wildlife, providing 
essential habitat for 75 percent of America's commercial fish and 
shellfish species, 75 percent of the United States' migratory waterfowl 
and 45 percent of our endangered and threatened species depend upon 
estuary habitat for shelter' food, and breeding grounds. So, when these 
habitats are destroyed, the impact is felt far beyond local estuaries 
as it diminishes our wildlife, water quality and the health of our 
land.
    Estuaries do more than shelter our families and enrich our lives, 
they are also a valuable economic resource. One acre of estuary habitat 
produces more food than the richest Midwestern farmland.
    Commercial and recreational fishing, boating and tourism provide 
Americans with 28 million jobs. The fishing industry alone contributes 
$111 billion to the nation's economy. Our coastal waters welcome 150 
million tourists who, in just 6 states, contributed more than $105 
billion to local economies during their 1994 visits.
    In short, estuaries are national treasures. They nourish.our 
environment, strengthen our economy, enhance our leisure time, and 
protect our children's futures. We need to care for our estuaries and 
invest today to preserve and restore them.
    Our communities are already making this investment. They are hard 
at work restoring small pieces of habitat in estuaries like Tampa Bay, 
Puget-Sound, and the Chesapeake, but the resources for restoration lag 
far behind the number of excellent restoration projects available. 
Senator Chafee's
    Estuary Habitat Restoration Partnership Act will provide 
communities with the resources they need to invest in the health of our 
estuaries and save our coastal heritage.
    Effectively leveraging limited federal resources by matching them 
with local funding, S. 1222 will restore one million acres of estuary 
habitat over the next 13 years. This goal will be accomplished by 
funding voluntary estuary restoration projects which are driven from 
the community up. Using this coordinated community-based approach, 
S.1222 gives our communities the tools they need to finish the work 
they have begun and bring life back to our estuaries.
    This legislation goes beyond providing communities with much needed 
funding. It gives federal agencies the tools to break down the barriers 
of bureaucracy and work together to build partnerships with local 
communities. In a recent report, Restore America's Estuaries catalogued 
71 different, often overlapping, federal programs which implement some 
habitat restoration. By creating nets ways for agencies to coordinate 
their efforts, S. 1222 encourages our governments to make better use of 
scarce funding and work more effectively. This translates into as much 
as $10 of on-the-ground restoration for every $1 in new federal 
funding.
    Despite all that's been done, our nation's estuaries remain in 
crisis. The migration of millions of people to the shores of estuaries 
has had its impact. Our coastal communities have only a limited rime to 
take action and reverse this situation. If we do not markedly increase 
our efforts to restore America's estuaries soon, more species of fish, 
plants, and birds may become memories just like the Atlantic salmon 
which once swam in Narragansett Bay, the sea otter which once thrived 
in San Francisco Bay, and the bay scallops which were once harvested in 
Long Island Sound. Without action now, jobs will be lost and the 
quality of life will suffer.
    When, last September, Senator Chafee introduced S. 1222, he 
recognized that the need for habitat restoration is acute and our 
coastal communities are poised to eagerly respond to this challenge. 
Restore America's Estuaries applauds Senator Chafee for his leadership 
on this critical issue. Twenty-six cosponsors, from both sides of the 
aisle, have also demonstrated that they understand the needs of our 
estuaries and the coastal communities that depend on them. If we truly 
want to restore our nation's fisheries, preserve our coastal heritage, 
and improve our economy, we must give the federal government the 
opportunity to help with this task.
    The coordinated community-based approach prescribed in S. 1222 will 
also set a powerful example for solving the more complicated 
environmental challenges of the next century. It will help refocus the 
Army Corps on the restoration of natural systems, just as is intended 
in the draft of the Water Resources Development Act (WRDA) that is 
currently under consideration. Because S. 1222 affects the Army Corps' 
mission and purpose and because the health of America's estuaries can 
not afford years of delay, we respectfully urge immediate consideration 
of S. 1222 as part of this year's WRDA reauthorization.
    The Estuary Habitat Restoration Partnership Act presents a vision 
of great promise. It gives our communities the opportunity to leave our 
children bays and sounds that are healthier than when we found them. We 
want to thank Senator Chafee for providing the vision for this bill and 
setting such a high standard for the future stewardship of our nation's 
coastal resources.
                               __________
     Statement of David R. Mills, Chairman of the Board of County 
                  Commissioners of Sarasota County, FL
    Mr. Chairman: I want to thank you and all the members of the 
Committee for giving me the opportunity to offer testimony on the 
status and future of the National Estuary Program in general and the 
Sarasota Bay National Estuary Program in particular.
    Estuaries are very important in both environmental and economic 
terms. They provide habitat for fish, birds and other wildlife. Seventy 
five percent of the U.S. commercial fish catch depends on estuaries 
during at least some stage of their life. The fishing industry provides 
$111 billion to the nation's economy annually and supports 1.5 million 
jobs. Because of their beauty and intriguing biodiversity, estuaries 
are also an asset to the nation's tourism industry.
    Ironically, some of the things that make estuaries so precious are 
the very reasons they have become threatened. Due to their natural 
beauty and hence their popularity, the overall capacity of our nation's 
estuaries as healthy and productive ecosystems is declining. Increased 
land development and activity associated with increased population in 
these areas has, in turn, caused increased stormwater runoff and other 
discharges that contribute to siltation, increased nutrients and other 
contamination.
    In 1987, Congress recognized the threats to these important coastal 
areas and included the National Estuary Program in amendments to the 
Clean Water Act. The purpose of the program is to facilitate state and 
local governments' preparation of comprehensive conservation and 
estuaries covered management plans, or CCMPs, for under the program. To 
date, 28 estuaries have been designated. Section 320 of the Clean Water 
Act authorized the EPA to make grants to states to develop their plans. 
However, the law does not provide for resources to facilitate 
implementation of the plans and 17 of these 28 plans are already 
complete.
    One of the plans that has been completed is for Sarasota Bay in 
Sarasota County, Florida, the county I serve. While each of the 
estuaries in the National Estuary Program is unique in terms of their 
physical attributes and their diverse inhabitants, they are equally 
unique in the varying threats that are posed to them. A common estuary 
pollutant in Sarasota Bay is nitrogen, an overabundance of which causes 
increased growth of algae. The algae reduces light penetration to the 
other organisms in the water and, through chemical and biological 
processes, depletes the water of oxygen. It has been determined that 
the amount of nitrogen in Sarasota Bay has tripled since intensive 
development began. The source of the increased levels of nitrogen in 
the Bay has been both small and large wastewater treatment plants, 
groundwater contaminated by septic systems and fertilizers used in lawn 
care and agriculture. Without remedial action, the EPA claims that the 
nitrogen level would increase 16 percent in the next 20 years when the 
area is fully developed according to existing plans. However, by 
implementing the restoration plan for Sarasota Bay, these levels of 
nitrogen can be 23 percent lower than they are today.
    In addition to the introduction of nitrogen into estuaries, 
surrounding development has also introduced an array of viruses, 
bacteria and parasites that can pose a threat to swimmers, surfers, 
divers and seafood consumers. Sources of these microbial contaminants 
include leaky septic tanks, boat and marina waste, recreational 
vehicles and campers, animal droppings, combined sewer overflows and 
urban and agricultural runoff. Fish and filter feeding organisms such 
as shellfish can concentrate these pathogens in their tissues and can 
cause illness to people who consume them. As a result, shellfishing 
areas and bathing beaches are often closed. Several estuaries are 
experiencing contamination problems that require extensive research 
into their origins and effects, such as the toxic microbe Pfiesteria 
piscicida, which has broken out in rivers that drain into estuaries in 
Maryland and Virginia.
    Phillippi Creek, which feeds into Sarasota Bay, is posted with 
warning signs of the potential health risks associated with exposure to 
its waters. Scientific studies done on Phillippi Creek have shown the 
presence of fecal coliform and human viruses. There are 7,500 septic 
tanks along Phillippi Creek that will have to be replaced with a 
central wastewater treatment system in accord with the proposed plan at 
a cost of some $100 million.
    The plan that has been developed for the Sarasota Bay Estuary is an 
integral one that seeks to stem environmental impacts and enhance 
natural systems. Most past environmental regulatory efforts in Florida 
have concentrated on the larger, regional wastewater treatment plants. 
While these programs have been successful in reducing nitrogen loads 
from those facilities, the 45,000 septic tanks and the 55 small 
wastewater treatment plants in the Sarasota County area contribute 
nearly twice as much pollutant as the regional facilities, despite 
handling less than half of the volume. Since the focus has not 
historically been on septic tanks and smaller facilities, that is where 
the biggest problem lies, especially for Sarasota Bay. The Sarasota Bay 
NEP's overall recommendation for this problem is the aforementioned 
replacement of a significant number of these tanks with a central 
wastewater treatment system along Phillippi Creek as well as other 
small treatment plants.
    Additionally, the Sarasota Bay CCMP calls for revised regulation of 
septic tanks and small wastewater treatment plants, programs to reduce 
the use of fertilizers and pesticides in the area, using artificial 
reefs as fisheries to replenish marine populations and restoring the 
intertidal wetlands. Effectively managed recreational use of the Bay is 
also recommended, as it will foster a sense of stewardship for the 
estuary with both tourists and residents alike.
    S. 1321 will take the next step by giving EPA the authority to make 
grants for plan implementation and authorizing annual appropriations of 
$50 million. There is also language in this bill that emphasizes and 
insures that the program remain a partnership with a matching 
requirement so that the funds will be available to upgrade sewage 
treatment plants, fix combined sewer overflows, control urban 
stormwater discharges and reduce polluted runoff into estuarine areas. 
We in Sarasota are committed to this partnership. Last November, a 1 
percent sales tax levy was passed to generate funds and we already have 
preliminary engineering work underway for this project. In other words, 
we come to Washington ready, willing and able to shoulder our share of 
the partnership envisioned by s. 1321.
    In closing, Mr. Chairman, I respectfully request your assistance 
and that of all the members of this Committee to ensure the 
preservation of our nation's estuarine areas not only as a natural 
wonder, but also as an environmental and economic asset to the regions 
in which they exist. Thank you again for the opportunity to submit our 
views on this important issue.

                                   - 

</pre></body></html>
